<html>
<title> - TSA'S EFFORTS TO ADVANCE RISK-BASED SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              TSA'S EFFORTS TO ADVANCE RISK-BASED SECURITY 

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   MARCH 14, 2013 and APRIL 11, 2013

                               __________

                            Serial No. 113-5

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

82-579 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                Richard Hudson, North Carolina, Chairman
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana, 
Candice S. Miller, Michigan              Ranking Member
Lou Barletta, Pennsylvania           Sheila Jackson Lee, Texas
Susan W. Brooks, Indiana             Eric Swalwell, California
Michael T. McCaul, Texas (ex         Bennie G. Thompson, Mississippi 
    officio)                             (ex officio)
                      Ryan Consaul, Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Tamla Scott, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                        THURSDAY, MARCH 14, 2013

                               Statements

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................    11
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    16

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                             For the Record

The Honorable Eric Swalwell, a Representative in Congress From 
  the State of California:
  Statement of Stacy K. Martin, President, Transport Workers 
    Union Local No. 556..........................................    21
  Statement of Joanne Smith, Senior Vice President, In-Flight 
    Delta Air Lines..............................................    24
  CAPA Opposes TSA's Changes to Prohibited Items List............    25
  Press Release, March 5, 2013...................................    26
  Press Release, March 6, 2013...................................    26

                                Appendix

Questions From Chairman Richard Hudson for John S. Pistole.......    41

                        THURSDAY, APRIL 11, 2013
                               Statements

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................    43
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................    48
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    49

                               Witnesses

Mr. Ken Dunlap, Global Director, Security & Travel Facilitation, 
  International Air Transport Association:
  Oral Statement.................................................    51
  Prepared Statement.............................................    52
Ms. Sharon L. Pinkerton, Senior Vice President, Legislative and 
  Regulatory Policy, Airlines for America:
  Oral Statement.................................................    56
  Prepared Statement.............................................    57
Mr. Geoff Freeman, Chief Operating Officer and Executive Vice 
  President, U.S. Travel Association:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61
Mr. Michael C. Mullen, Executive Director, Express Association of 
  America:
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
Mr. Christopher U. Browne, Airport Manager, Washington Dulles 
  International Airport, Testifying on Behalf of The American 
  Association of Airport Executives:
  Oral Statement.................................................    69
  Prepared Statement.............................................    71
David A. Borer, General Counsel, American Federation of 
  Government Employees:
  Oral Statement.................................................    75
  Prepared Statement.............................................    76

                             For the Record

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Editorial......................................................    44
  Statement of Carie Lemack, Director, Homeland Security Project, 
    Bipartisan Policy Center and Daughter, Judy Larocque 
    (passenger on AA11)..........................................    45
  Statement of Paul Hudson, President, FlyersRights.org..........    80
  Letter From David W. Whitmire to Chairman Richard Hudson.......    81
  Statement of Brandon Fried, Executive Director, Airforwarders 
    Association..................................................    83
The Honorable Eric Swalwell, a Representative in Congress From 
  the State of California:
  Statement of Veda Shook, International President, Association 
    of Flight Attendants--CWA, AFL-CIO...........................    89
  Statement of Laura R. Glading, President, Association of 
    Professional Flight Attendants...............................    94
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security
  Letter From the Wounded Warrior Project to Hon. Tulsi Gabbard..   101
  Letter From DAV to Chairman Michael McCaul and Ranking Member 
    Bennie G. Thompson...........................................   101


              TSA'S EFFORTS TO ADVANCE RISK-BASED SECURITY

                              ----------                              


                        Thursday, March 14, 2013

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:10 p.m., in 
Room 311, Cannon House Office Building, Hon. Richard Hudson 
[Chairman of the subcommittee] presiding.
    Present: Representatives Hudson, Rogers, Barletta, Brooks, 
Richmond, Thompson, Jackson Lee, and Swalwell.
    Also present: Representatives Payne and Gabbard.
    Mr. Hudson. The Committee on Homeland Security Subcommittee 
on Transportation Security will come to order. Now the 
subcommittee is meeting today to hear testimony on TSA's risk-
based security programs from the administrator of the 
Transportation Security Administration, the Honorable John 
Pistole.
    I would like to welcome everyone to the subcommittee's 
first hearing of the 113th Congress and thank our distinguished 
witness for taking the time to be here today. You have a tough 
job, Administrator Pistole. When I visited your headquarters 
last month, I was impressed by your operation and the team you 
have assembled. We appreciate your service and look forward to 
hearing from you today.
    The topic of today's hearing is risk-based security, which 
is naturally the next step in advancing security procedures. 
After all, why should the Federal Government devote precious 
taxpayer dollars to low-risk people, places, or things? One 
move Administrator Pistole has made to devote more resources to 
risk-based security is to remove certain items from the 
prohibited items list for passengers' carry-on items.
    It is critical that Members of this committee, on both 
sides of the aisle, work with you as we move forward with the 
implementation of any new policy changes. As I said, you have a 
difficult job, and we want to support you. But we must have 
open and clear communications and it should be a priority for 
us to put a strategy together so that you are not faced with 
Congress pushing back against simple, common-sense things you 
are trying to do, because they felt like they didn't have 
enough information.
    Moving forward, we must help each other in advance of major 
policy changes to educate the rest of our colleagues in the 
House and appropriate stakeholders on the reasoning behind such 
decisions. The open and proactive approach will reduce pushback 
like the kind we have seen the last few days. And allow all of 
us to work together on rolling out the risk-based security 
policies that directly benefit passenger safety, ease of 
travel, and ultimately make TSA a leaner, more efficient 
agency, and effective agency.
    Understandably, immediately after 9/11, risk-based security 
was easier said than done. Federal agencies, including TSA, 
first had to figure out a way to analyze risk in a reliable way 
and then share and operationalize that information. Ten years 
and $65 billion later, the TSA has finally begun to embrace and 
implement risk-based security at airport checkpoints. It has 
been a long time coming but it is very welcome.
    Those of us familiar with the progress TSA has made toward 
risk-based security over the last 2 years are grateful for it. 
Programs like PreCheck are an encouraging step in the right 
direction. Just last month, I had the opportunity to visit the 
Charlotte Airport and see the very impressive operation there, 
very professional individuals are working for TSA at that 
airport.
    But the fact is that TSA still has a long way to go to 
improve its effectiveness and its efficiency.
    My constituents back home in North Carolina recognize that 
the terrorist threat requires us to remain vigilant in our 
daily lives, patient when it comes to security measures we are 
forced to undergo at airports, and understanding of the 
enormous resources required to keep us safe.
    Just like ordinary Americans, Washington must continue to 
tighten its belt and learn to do more with less. Seeking out 
efficiencies is imperative when the Federal Government is 
carrying over $16 trillion in public debt and every day, we 
borrow over $4 billion just to pay down interest on that debt. 
We must find ways to come together over common-sense savings 
that are bipartisan and practical at all levels of government 
and TSA is no exception.
    In my view, TSA implements risk-based security in a 
responsible way. It could be a win-win for our security and for 
our economy.
    First, it takes the focus off lower-risk individuals like 
elderly and disabled children.
    Second, it gives TSA the opportunity to evolve its 
procedures and reduce its long-term operational cost. With the 
privilege of serving in the Congress and as Chairman of this 
subcommittee, cutting unnecessary and wasteful Government 
spending is one of my top priorities.
    To that end, I have four primary objectives for this 
subcommittee during this Congress.
    The first is advancing risk-based security programs and 
policies, which is of course, the topic of today's hearing.
    Second, addressing technology procurement and looking at 
flaws and looking at ways we can improve the procurement 
process.
    No. 3 is streamlining TSA's regulatory process.
    No. 4 is strengthening collaboration with the private 
sector.
    I would love to see TSA succeed on all these fronts and 
think that under Administrator Pistole, they have taken 
meaningful steps in the right direction. I will do everything 
in my power to assist in this process and part of that means 
asking tough questions and occasionally offering criticism. 
While we may not agree all the time, I view opportunities like 
today as a chance to work together, Administrator Pistole, to 
do what is right for the American people.
    As we interact in the coming years, I look forward to 
continuing a productive conversation with Administrator 
Pistole, with stakeholders inside and outside of Government, 
with Ranking Member Richmond and the bipartisan Members of this 
subcommittee on the difficult issues that we face.
    [The statement of Chairman Hudson follows:]
                  Statement of Chairman Richard Hudson
                             March 14, 2013
    I would like to welcome everyone to the subcommittee's first 
hearing of the 113th Congress, and thank our distinguished witness for 
taking the time to be here today. You have a tough job, Administrator 
Pistole. When I visited your headquarters last month I was impressed by 
your operation and the team you have assembled. We appreciate your 
service and look forward to working with you.
    The topic of today's hearing is risk-based security, which is 
naturally the next step in advancing security procedures. After all, 
why should the Federal Government devote precious taxpayer dollars to 
low-risk people, places, or things? One move Administrator Pistole has 
made to devote more resources to risk-based security is to remove 
certain items from the prohibited items list for passengers' carry-on 
items. It's critical that Members of this committee, on both sides of 
the aisle, work with you as you move forward with implementation of new 
policy changes.
    As I said, you have a difficult job and we want to support you, but 
we must have open and clear communication. It should be a priority for 
us to put a strategy together so that you are not faced with Congress 
pushing back against the simple, common-sense things you're doing. 
Moving forward, we must help each other, in advance of major policy 
changes, to educate the rest of our colleagues in the House and 
appropriate stakeholders on the reasoning behind such decisions. This 
open and proactive approach will reduce pushback, like the kind we've 
seen the last couple days, and allow us all to work together on rolling 
out risk-based security policies that directly benefit passenger's 
safety, ease of travel, and ultimately make TSA a leaner, more 
effective agency.
    Understandably, immediately after 9/11, risk-based security was 
easier said than done. Federal agencies, including TSA, first had to 
figure out a way to analyze risk in a reliable way and then share and 
operationalize that information.
    Ten years and $65 billion dollars later, the TSA has finally begun 
to embrace and implement risk-based security at airport checkpoints. 
It's been a long time coming.
    Those of us familiar with the progress TSA has made towards risk-
based security over the last 2 years are grateful for it. Programs like 
PreCheck are an encouraging step in the right direction. Just last 
month I had the opportunity to visit the Charlotte airport and see 
their impressive operation first-hand. But the fact is TSA still has a 
long way to go to improve its effectiveness and its efficiency.
    My constituents back home in North Carolina recognize that the 
terrorist threat requires us to remain vigilant in our daily lives, 
patient when it comes to the security measures we are forced to undergo 
at airports, and understanding of the enormous resources required to 
keep us safe.
    Just like ordinary Americans, Washington must continue to tighten 
its belt and learn to do more with less. Seeking out efficiencies is 
imperative when the Federal Government is carrying over $16 trillion in 
public debt and every day borrows over $4 billion just to pay down 
interest on the debt. We must find ways to come together over common-
sense savings that are bipartisan and practical at all levels of 
Government and TSA is no exception.
    In my view, if TSA implements risk-based security in a responsible 
way, it could be a win-win for our security and our economy. First, it 
takes the focus off lower-risk individuals, like the elderly and 
disabled children. Second, it gives TSA the opportunity to evolve its 
procedures and reduce its long-term operational costs.
    With the privilege of serving in the Congress and as Chairman of 
this subcommittee, cutting unnecessary and wasteful Government spending 
is one of my top priorities.
    To that end, I have four primary objectives for the subcommittee 
this Congress:
    (1) Advancing risk-based security programs and policies, which is 
        of course the topic of today's hearing,
    (2) Addressing technology procurement flaws,
    (3) Streamlining TSA's regulatory process, and
    (4) Strengthening collaboration with the private sector.
    I would love to see TSA succeed on all of these fronts and think 
that under Administrator Pistole they have taken meaningful steps in 
the right direction. I will do everything in my power to assist in this 
process and part of that means asking tough questions and occasionally 
offering criticism. While we may not agree all of the time, I view 
opportunities like today as a chance to work together to do what is 
right for the American people.
    As we interact in the coming years, I look forward to continuing a 
productive conversation with our witness, Administrator Pistole, 
stakeholders inside and out of Government, Ranking Member Richmond, and 
the bipartisan Members of this subcommittee on the difficult issues 
that we face.

    Mr. Hudson. At this time, as soon as the Ranking Member who 
was not able to join us yet, we will--and seeing as the 
Chairman is not here, we will move directly into testimony from 
our witness.
    We are pleased to have Administrator Pistole before us 
today on this important topic. Mr. Pistole has been the 
administrator of the Transportation Security Administration at 
the Department of Homeland Security since 2010. As TSA 
administrator, he oversees the management of approximately 
60,000 employees, the security operations of more than 450 
Federalized airports throughout the United States, Federal Air 
Marshal Service, and the security for highways, railroads, 
ports, mass transit, and pipelines.
    The Chairman recognizes Administrator Pistole to testify.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
    SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, thank you and good afternoon Chairman 
Hudson and former Chairman Rogers, other distinguished Members 
of the subcommittee and those who will be joining us, thank you 
for the opportunity to testify today on risk-based security 
changes TSA is making to better protect our Nation's 
transportation systems and the traveling public from acts of 
terrorism while facilitating the best possible movement of 
people and goods.
    I also want to thank the Members of the subcommittee for 
your support for our risk-based approach we are using to carry 
out our transportation security responsibilities.
    Virtually all of the RBS, as we call it, changes we have 
made thus far have been positively received and help us to move 
away from that one-size-fits-all approach that was stood up 
after 9/11. Given my recent decision to remove certain items 
from what is called the prohibited item list, the subject of 
this hearing is quite timely and I would like to address that 
issue up front.
    So over the last 2 years, based on questions raised by the 
Senate in my confirmation process, I requested a team of TSA 
security experts to assess items on this prohibited item list 
and to make recommendations on whether we should modify the 
list in any way.
    My decision to change the items that I announced on March 5 
followed a careful analysis of a number of different factors 
and I will run through those briefly.
    First, we evaluated the latest intelligence and threat 
information from the U.S. intelligence and law enforcement 
communities, that is: How are terrorists trying to attack us 
now and how has that changed since 9/11?
    Second, we considered the potential increased risk to 
passengers, flight crew, fellow air marshals, FAMs, and the TSA 
workforce.
    Third, we assessed how a change would impact our security 
operations at the checkpoint and the traveling public.
    Fourth, we evaluated whether the change would increase the 
risk of a successful terrorist attack to bring down an 
aircraft.
    Fifth, we looked at how our current policy aligned with 
international security standards.
    Sixth, given current budget restraints that you mentioned, 
we assessed how this change aligns with our goal to provide the 
most effective security in the most efficient way.
    Seventh, we are mindful of the issues raised by the flying 
public about interactions with TSA over the years and concerns 
raised by many in Congress including the subcommittee to apply 
more common sense to aviation security, including specifically 
reviewing prohibited item lists.
    Finally, we discussed the pros and cons of continuing to 
restrict the traveling public from carrying a particular item 
aboard a commercial aircraft which is in part responding to the 
``hassle factor'' that TSA has come to represent for so many 
Americans.
    The deliberate approach we took in my final decision is 
consistent also with the recommendations of the 9/11 Commission 
for TSA to ``not risk or to set risk-based priorities to 
protect transportation assets,'' and to ``give priority 
attention to improving the ability of screening checkpoints to 
detect explosives on passengers.'' Again, this is from the 9/11 
Commission report.
    Now while I can't go into specific detail in this open 
hearing setting, we do know from the intelligence community 
that terrorists such as al-Qaeda and their affiliates and 
inspired groups remain focused on attacking Western aviation in 
particular. We also know that the threat to aviation from these 
groups is from nonmetallic improvised explosive devices such as 
the liquids explosive plot we saw from the United Kingdom in 
2006, the bomb used by the so-called Underwear Bomber on 
Christmas day 2009, the toner cartridge printer bombs from 
Yemen placed onto our air cargo flights destined for Chicago in 
October 2010 and most recently, the improved next generation 
underwear device also from Yemen intended for a passenger jet 
on its way to the United States, but fortunately in a stunning 
intelligence coup, intercepted by a foreign intelligence 
service in April 2012.
    Now while the ultimate goal that a terrorist might be the 
successful attack within the United States, against a U.S. 
commercial aircraft changes to aviation security that we have 
made here since 2001 have resulted in every attack attempt 
since 9/11 emanating from overseas aboard aircraft flying to 
the United States.
    So we are--over the past several years, TSA has placed a 
great deal of emphasis on not only the layers of security we 
have here in the United States, but working with our 
international partners to strengthen the international security 
standards and achieving harmony among the international 
community. So in that regard, in August 2010, ICAO, the 
International Civil Aviation Organization changed aviation 
security standards to permit knives with a blade length of 6 
centimeters, approximately 2.36 inches or less to be carried in 
the cabin of the aircraft.
    Since that global change and excluding U.S. originating 
passengers there have been over 5 billion commercial airline 
passengers world-wide allowed to carry these knives. We are 
unaware of a single incident involving these small knives on 
commercial aircraft.
    With hardened cockpit doors, better identification of 
individual passengers against terrorists watch lists, and 
thousands of armed pilots here in the United States and the 
demonstrated willingness of passengers to intervene in a 
determined way, it is the judgment of many security experts 
world-wide, which I agree with, that a small pocket knife is 
simply is not going to result in the catastrophic failure of an 
aircraft. An improvised explosive device will. We know from 
internal covert testing, searching for these items which will 
not blow up an aircraft can distract our security officers from 
focusing on the components of an IED.
    Since my announcement last week, there have been a number 
of reports in the media, some of them accurate, some not, 
regarding the specific type of knives and sporting equipment 
that would be allowed.
    In general, we are talking about a small pocket knife and 
other common items such as a corkscrew with a folding bland, 6 
centimeters or less in overall length.
    Other types are excluded. I have examples of those on your 
charts if at the right time you care to see those or to help 
inform the subcommittee.
    Similarly, box cutters and other razor knives remain 
prohibited. Of note, the type of knife we will permit is more 
restrictive than international security standards given by ICAO 
or even what is currently permitted to be brought into Federal 
buildings across the country. So these are more restrictive 
standards that we are allowing in the cabin of the aircraft.
    I clearly understand the concerns expressed by many 
including flight attendants, Federal air marshals, and some 
Members of Congress and others with respect to the potential 
increased risk to passengers and flight attendants. In fact, my 
decision to be more restrictive in the specific type of knife 
permitted was based on extensive discussion with my leadership 
team and concerns raised by the Federal air marshals.
    Similar concerns were express in 2005 when a previous TSA 
administrator changed the prohibited item list to allow small 
scissors less than 4 inches in length, screwdrivers less than 7 
inches in length, and knitting needles and things like that on 
the list.
    Contrary to claims that we would see a rash of assaults on 
passengers and flight attendants using these items, that simply 
has not been the case. In fact, GAO published a report after 
that change, did a follow-up assessment and said there had been 
no, zero, security incidents where these items had been used 
aboard an aircraft.
    The fact remains accurate through today and underscores a 
point that in aviation security, it is not the object per se 
that is dangerous but the individual who intends to use that 
object to inflict harm that presents the danger.
    There are many other changes TSA has made to strengthen our 
capabilities to keep terrorists off commercial aircraft. Many 
of these changes reflect risk-based security initiatives we 
began implementing over 2 years ago, in an effort to shift away 
from that one-size-fits-all approach.
    Similar to my decision to change the prohibited item list, 
these initiatives reflect analysis of the best available 
intelligence and sound risk management in principles.
    So in conclusion, I would like play a brief FBI video 
reenacting the nonmetallic IED used by the Underwear Bomber on 
Christmas day 2009 which demonstrates the destructive power of 
these well-designed and concealed devices that terrorists keep 
trying to use to kill us.
    This is what I believe our TSA should be focused on and 
when we get the video, we can see it. So----
    Ranking Member Richmond, good afternoon to you also sir.
    [The prepared statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                             March 14, 2013
    Good afternoon Chairman Hudson, Ranking Member Richmond, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration's (TSA) on-going efforts to expand and improve our risk-
based, intelligence-driven operations.
    Since its creation, TSA has continuously refined and evolved our 
security approach by examining the procedures and technologies we use 
while ensuring the freedom of movement for people and commerce. The TSA 
functions as a critical component of our Nation's counterterrorism 
efforts with a highly dedicated workforce working around the clock and 
across the globe to execute our transportation security 
responsibilities. Every day we work closely with public and private-
sector stakeholders in the aviation, freight rail, mass transit and 
passenger rail, highway, and pipeline sectors to employ an 
intelligence-driven, risk-based security approach across all modes of 
transportation.
    TSA continues to take steps to further enhance our layered approach 
to security through state-of-the-art technologies, better passenger 
identification techniques, and other developments that strengthen our 
capabilities to keep terrorists off commercial aircraft. TSA will 
always incorporate random and unpredictable security measures 
throughout the airport, however, and no individual will be guaranteed 
expedited screening. Airport security checkpoints are only one part of 
a multi-layered system for aviation security. Other parts include 
information gathering and analysis, passenger pre-screening through 
Secure Flight, explosives detection, canine teams, Federal Air 
Marshals, and closed-circuit television monitoring. With the tools that 
exist today, if we can confirm a person's identity and assess through 
information they voluntarily provide, and combine that information with 
our other layers of security, we can expedite the physical screening 
process for many people.
    We continue to make steady progress in transforming TSA into a 
high-performing counterterrorism agency. TSA is dedicated to preventing 
terrorist attacks, reducing the vulnerability of the Nation's 
transportation systems to terrorism, and improving the experience of 
the nearly 1.8 million air passengers who fly each day in the United 
States. We remain committed to providing the most effective security in 
the most efficient manner.
                    risk-based security initiatives
    About 18 months ago, TSA began to make a fundamental shift from a 
``one-size-fits-all'' method of screening in favor of procedures 
designed to manage, or mitigate, risk. We introduced and expanded 
several risk-based security initiatives, reflecting decisions I made 
based upon the best available information and intelligence, managing 
risk with reasonable and effective security measures. We found strong 
support for our initiatives among passengers, the airline and travel 
industries, business and community leaders across the country, and 
industry and global security partners abroad. I am grateful for the 
expressions of support from Members of Congress and this committee.
    Numerous risk-based changes have already gone into effect Nation-
wide, including expedited screening procedures for children 12 and 
under and adults 75 and older, for airline pilots and flight attendants 
at 29 of the Nation's busiest airports, and for active-duty military 
personnel holding valid military identification at eight airports. We 
continue to work with the Department of Defense to implement a broader 
solution that will expand military members' access to every TSA 
PreCheck<SUP>TM</SUP> participating airport, which will expedite the 
security screening process for these individuals, while continuing to 
allow our Transportation Security Officers to fulfill their mission. 
These initiatives have significantly reduced pat-down screenings and 
allow our Transportation Security Officers to fulfill their mission 
while improving the travel experience for these individuals.
                          expedited screening
    I have established an aggressive target that by the end of calendar 
year 2013, TSA will provide expedited screening to 25 percent of the 
individuals currently processed through security screening. Achieving 
this target will mean that approximately 450,000 of the 1.8 million 
passengers who travel on average each day from the Nation's airports 
will undergo some form of expedited screening. That could mean leaving 
their shoes on, leaving their 3-1-1 compliant liquids in their carry-on 
bags, and leaving on their light outer jacket as they travel through 
the TSA PreCheck<SUP>TM</SUP> lane. It could also mean another form of 
expedited screening available through our standard screening lanes such 
as that available for children ages 12 and under and adults ages 75 and 
over.
                              tsa precheck
    One of the most visible components of risk-based security is our 
TSA PreCheck<SUP>TM</SUP> initiative. TSA PreCheck<SUP>TM</SUP> enables 
us to focus efforts on passengers who may pose a higher risk to our 
transportation network, while providing expedited screening and a 
better travel experience for those low-risk passengers that have 
voluntarily provided information about themselves. The TSA 
PreCheck<SUP>TM</SUP> initiative currently includes U.S. citizens who 
are members of existing U.S. Customs and Border Protection (CBP) 
Trusted Traveler initiatives including Global Entry, NEXUS, and SENTRI; 
Canadian citizens who are enrolled in the NEXUS program; and eligible 
U.S. citizen airline frequent flyers traveling domestically. Certain 
other populations about whom we know more information, such as Federal 
judges, are also eligible for TSA PreCheck<SUP>TM</SUP>. We are 
continuing to evaluate other populations and develop solutions to 
expand these populations and add new ones. In January, I signed a 
memorandum of understanding with the International Association of 
Chiefs of Police, Major Cities Chiefs Association, and the National 
Sheriffs Association to extend TSA PreCheck<SUP>TM</SUP> eligibility to 
these law enforcement groups.
    Since its initial rollout in October 2011, TSA 
PreCheck<SUP>TM</SUP> has been made available at 35 airports. Nearly 7 
million low-risk passengers have been screened with the expedited 
procedures of TSA PreCheck<SUP>TM</SUP>. TSA has received positive 
feedback from passengers who have opted into TSA PreCheck<SUP>TM</SUP> 
and we expect participation in this risk-based screening initiative 
will continue to grow as more and more people become aware of the 
opportunity. Last month, I announced the addition of Austin, Cleveland, 
Memphis, Nashville, and Raleigh-Durham, which will all begin offering 
TSA PreCheck<SUP>TM</SUP> by the end of March, and we continue to 
evaluate other airports to include in the program.
                      passenger screening canines
    The National Explosives Detection Canine Team Program has played an 
integral role in protecting the Nation's transportation systems since 
1972, when the Federal Aviation Administration first started the 
program. The program remains a vital component of our layered approach 
to transportation security today as new security threats are recognized 
across all transportation sectors. During 2011, TSA expanded the 
program by deploying Passenger Screening Canines (PSC) teams. These 
teams are comprised of a Transportation Security Inspector and a canine 
trained to detect explosives carried or worn by a person. The teams now 
operate at 24 airports across the country, working to detect explosives 
odors at checkpoints and in both the sterile and public areas of 
airports.
    TSA is currently funded to field 120 PSC teams, and the agency 
plans on deploying the full allotment of teams by the end of calendar 
year 2013. These teams will provide coverage at up to 30 airports, 
utilizing risk-based security methodologies to deploy the new PSC teams 
to high-priority airports.
    Additionally, PSC teams now provide support to TSA's Managed 
Inclusion pilot initiatives at Indianapolis, Tampa, and Honolulu 
International Airports. The Managed Inclusion concept provides TSA with 
real-time threat assessment capability at a checkpoint and enables TSA 
to improve security, operational efficiency, and the passenger 
experience. By assessing passengers in the screening queue, passengers 
deemed lower-risk are able to undergo expedited screening procedures. 
During Managed Inclusion operations, the PSC teams are located at the 
screening checkpoint and all individuals approaching the checkpoint are 
screened for explosives by these teams. These individuals are also 
assessed for suspicious behavioral indicators by Behavior Detection 
Officers (BDO). If the canine team does not alert on an individual and 
a BDO does not observe suspicious behavioral indicators, the individual 
may be eligible for expedited screening through the TSA 
PreCheck<SUP>TM</SUP> lanes. These assets were also part of the surge 
capability deployed most recently to Louis Armstrong New Orleans 
International Airport to support screening the large numbers of 
attendees departing the city following the Super Bowl.
                       improving customer service
    TSA continues to improve customer service at airports around the 
Nation. Through the Passenger Support Program, we established a group 
of our own officers to serve as Passenger Support Specialists (PSSs) at 
airports. They provide real-time support to individuals who may require 
additional assistance through the checkpoint screening process. These 
individuals may include passengers with clothing and medical equipment 
questions, or those who may require additional information regarding 
our checkpoint procedures. TSA started training PSSs at airports 
Nation-wide in January; to date, more than 3,000 officers have 
volunteered for the program, and nearly 2,500 have completed the 
training. The initial results of the program have been very positive, 
and we look to expand on this program so that more of our current 
officers Nation-wide achieve the collateral duty PSS certification.
    In 2012, TSA launched ``TSA Cares,'' a new helpline number designed 
to assist travelers with disabilities and medical conditions prior to 
getting to the airport. Travelers may call the TSA Cares toll-free 
number with questions about screening policies and procedures as well 
as what to expect at the security checkpoint. When a passenger with a 
disability or medical condition calls TSA Cares, a representative will 
provide assistance either with information about screening that is 
relevant to the passenger's specific disability or medical condition or 
the passenger may be referred to disability experts at TSA.
                               air cargo
    In 2007, Congress passed, and the President signed into law, the 
``Implementing Recommendations of the 9/11 Commission Act,'' which 
required TSA to implement a system to ensure that 100 percent of all 
cargo transported on passenger aircraft is screened at a level 
commensurate with checked baggage. TSA and the air cargo industry met 
the 100 percent screening requirement for domestic uplift through 
implementation of the Certified Cargo Screening Program (CCSP), which 
enables TSA-regulated entities in the air cargo supply chain to conduct 
screening prior to cargo being uplifted by air carriers. This approach 
allows for distribution of screening responsibilities throughout the 
air cargo supply chain, thus avoiding screening ``bottlenecks'' and 
improving the flow of commerce. As of December 2012, the CCSP included 
1,138 participant locations certified by TSA as Certified Cargo 
Screening Facilities, which screen over 60 percent of the cargo, with 
the remainder screened by air carriers.
    To meet the 100 percent requirement for international in-bound 
cargo, TSA adopted an approach that consisted of incorporating the 
Trusted Shipper Concept into the current Standard Security Programs. 
This utilizes risk-based, tiered screening protocols based on 
established criteria related to the shipper's business relationships 
with air carriers and international freight forwarders, as well as 
shipper history, shipment volume, and frequency. The Trusted Shipper 
Concept was originally set forth in response to an attempt by 
terrorists to conceal explosives in all-cargo aircraft bound for the 
United States from Yemen. TSA has implemented the Trusted Shipper 
concept for all-cargo carriers, and requires them to screen 100 percent 
of all non-trusted shipments to the same standards as those required 
for passenger carriers.
    TSA continues to collaborate with CBP to enhance its ability to 
identify and target high-risk or ``non-trusted'' shipments for enhanced 
screening. An outcome of this collaboration has been the Air Cargo 
Advance Screening Pilot (ACAS), a joint TSA-CBP initiative which 
utilizes CBP's Automated Targeting System (ATS) to analyze both shipper 
and shipment data to identify high-risk cargo that requires enhanced 
screening prior to loading. As of February 2013, there are 74 entities 
participating in the ACAS pilot, and over 64 million shipments have 
been successfully processed.
    In addition, TSA developed the National Cargo Security Program 
(NCSP) as a critical component of the U.S. strategy to enhance global 
supply chain security and sustain 100 percent screening on 
international in-bound cargo required by Federal law. Through NCSP 
recognition, TSA determines if a foreign government's air cargo 
security program is commensurate with current U.S. air cargo security 
standards introducing efficiencies for both Government and private 
industry by reducing duplicative requirements, allowing screening to be 
completed earlier in the supply chain, and permitting the optimal use 
of distributed screening locations so that screening can occur at 
various nodes along the supply chain. To date, TSA has recognized the 
security programs of 34 partner countries which represent, when 
implemented, an estimated 67 percent of the in-bound cargo on-board 
passenger aircraft.
                         surface transportation
    Under Section 101 of the Aviation and Transportation Security Act 
(Pub. L. No. 107-71) (codified at 49 U.S.C. 114) TSA has responsibility 
for not only aviation security, but also for surface transportation 
security. The approach TSA takes in securing the non-aviation 
transportation systems involves a significantly smaller investment of 
TSA personnel with more direct responsibility placed on the owners and 
operators of these systems. Within the mass transit and passenger rail 
domains, TSA engages with State and local partners to identify ways to 
reduce vulnerabilities, assess risk, and improve security efforts 
through collaborative risk assessments and by conducting baseline 
security assessments. These assessments are conducted with emphasis on 
the 100 largest mass transit and passenger railroad systems measured by 
passenger volume, which account for over 80 percent of all users of 
public transportation.
    Since 2007, TSA has completed 92 transportation security exercises 
with various transportation modes under the Intermodal Security 
Training and Exercise Program (I-STEP) in collaboration with security 
partners in industry, State, and local organizations. These exercises 
are designed to continuously improve the risk posture of transportation 
systems serving the Nation. To date, I-STEP has produced and shared 
more than 390 multimodal security best practices and lessons learned 
with security partners, and has hosted more than 3,345 participants at 
transportation security exercises focused on enhancing security 
preparedness of the Nation's mass transit, freight rail, highway, and 
pipeline sectors.
    Between fiscal year 2006 and fiscal year 2012, approximately $1.8 
billion in Transit Security Grant Program funding was awarded to 
transit owners and operators and their dedicated law enforcement 
providers to enhance security through operational activities such as 
counterterrorism teams, mobile screening teams, explosives detection 
canine teams, training, drills/exercises, and public awareness 
campaigns. This funding allows for entities to increase mitigation of 
terrorism risk through site hardening, equipment purchases, and other 
capital security improvements.
                           global engagement
    TSA's efforts to secure the Nation's transportation networks extend 
beyond our borders. TSA has a globally deployed outreach and engagement 
workforce that includes TSA Representatives who coordinate closely with 
foreign government counterparts and International Industry 
Representatives who serve as direct liaisons to regulated foreign 
airlines. Through their interactions, TSA is able to coordinate with 
the entities affected by our security decisions while promoting 
international security and commerce. TSA has seven Regional Operations 
Centers whose mission is to deploy Transportation Security Specialists 
to conduct air carrier inspections on all carriers flying into the 
United States, and conduct airport assessments at all last points of 
departure from foreign locations.
    In December 2012, Congress passed, and the President signed into 
law, the ``No-Hassle Flying Act (Pub. L. No. 112-218),'' which grants 
TSA the authority to waive checked baggage rescreening requirements for 
flights from international pre-clearance airports that install U.S. 
comparable checked baggage screening processes and equipment. The 
discretion this act provides is consistent with TSA's on-going 
transition to a more risk-based and intelligence-driven 
counterterrorism posture, and we anticipate that it will assist us in 
our efforts to improve the traveling experience. TSA evaluates 
applicable security screening measures at 14 foreign pre-clearance 
airports to ensure comparability with TSA screening standards. 
Currently, pre-clearance airports are located in Aruba, the Bahamas, 
Bermuda, Canada, and Ireland.
                               conclusion
    The Nation continues to face evolving threats to our transportation 
system. TSA will continue to effectively implement an information and 
intelligence-driven, risk-based security system across all 
transportation modes while increasing the level of engagement with our 
workforce to shape them for success and drive operational and 
management efficiencies across the organization. TSA strives to achieve 
these goals as it continues to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce. We 
appreciate your continued support as we strive to ensure that our 
workforce is well-prepared and given the proper tools to meet the 
challenges of securing all modes of transportation. Thank you for the 
opportunity to appear before you today. I look forward to answering 
your questions.

    Mr. Hudson. Is staff cueing the video? Is that what we are? 
Okay. Maybe we will come back to the video. Mr. Pistole, we 
appreciate you being here and know your time is valuable. At 
this point, the Chairman now recognizes the Ranking Minority 
Member of the subcommittee, the gentleman from Louisiana, Mr. 
Richmond, for any statement he may have.
    Mr. Richmond. Thank you Chairman Hudson and Administrator 
Pistole, I apologize for being late but I was with your boss 
and I would assume you know how that goes. Let me thank you for 
being here with us today and providing the subcommittee with 
information about how TSA intends to improve its risk-based 
approach to security screening.
    I also look forward to hearing more about TSA's efforts to 
secure our surface and mass transportation systems and 
particularly its efforts to address rail security. As terrorist 
threats to our Nation's transportation systems continue to 
evolve, it is vital that our approach to transportation 
security adapts to the threats and addresses the 
vulnerabilities.
    Since TSA's establishment, its aviation security policies 
have sparked dissatisfied comments from the flying public. 
Airport screening has been described as lengthy, invasive, and 
at times, humiliating. I am sure you have heard these same 
concerns, and understand that you have initiated risk-based 
screening procedures to address those very concerns.
    Among the programs developed in accordance with risk-based 
approach is the expansion of the PreCheck program which allows 
for certain frequent flyers to voluntarily submit additional 
information prior to arrival at the airport, to receive 
expedited screening. I am supportive of the ultimate goal of 
this policy and I look forward to working with TSA to sustain 
and expand these programs.
    I also look forward to working with you to improve how all 
of these programs will improve the screening experience for all 
passengers, not those just in the expedited programs. As my 
fellow colleagues can attest to, we must develop a 
comprehensive approach when expediting security screening, one 
that will have greater applicability for the general flying 
public.
    You recently announced a change in the prohibited items 
list that has been widely criticized. While I as a Member of 
Congress profess to know what I know and know what I don't 
know, I generally yield to those with the experience and the 
expertise in making those decisions. So in that sentiment, I 
would not question your judgment, but I will question the 
process.
    We have a number of stakeholders from flight attendants to 
TSA agents to passengers to airline pilots that should always 
be, at least in the conversation, not dictate policy, but 
should be involved in the process. So I do not believe that 
important decisions such as that can properly be made in a 
vacuum or without advance comment and continued conversation 
with the stakeholders that I mentioned.
    I look forward to working with you to accomplish our goals 
and your goals. On a separate note, we must also address the 
importance of protecting our transportation systems and 
ensuring their resiliency throughout any man-made or natural 
disaster.
    New Orleans, my hometown, is home to the Louisiana, I mean 
to the Louis Armstrong International Airport which serves as a 
primary transportation hub for the region. Last year New 
Orleans welcomed over a record 8.5 million visitors with nearly 
half of those people arriving by airplane.
    In addition to the airport, my district is home to three 
critical deep water ports, the Port of New Orleans, the Port of 
South Louisiana, and the Port of Baton Rouge. These ports make 
up the largest port system in the country, and one of the 
largest in the world, connecting 32 States to world-wide 
markets. Louisiana's extensive network of railroads, barges, 
interstates, highways, and airports, ensure that raw materials 
and finished products reach millions of Americans in a timely 
and efficient manner.
    A natural or man-made disaster affecting the New Orleans 
area, can severely impact the flow of commerce and potentially 
disrupt the region's economy. Administrator Pistole, I look 
forward to working with you, Chairman Hudson, Ranking Member 
Thompson, and the other Members of this committee to ensure 
that our transportation systems remain a priority.
    Again, I thank you for being here today and I look forward 
to the hearing. I yield back.
    Mr. Hudson. I thank the gentleman. I am told that staff has 
the video ready. Do we want to put that up now?
    [Video.]
    Mr. Hudson. The Chairman's understanding is that that is 
the size of the IED in the latest attempt that was thwarted 
through intelligence.
    Mr. Pistole. That is right Chairman, and this is the type 
of device that I want our security officers looking for, just 
for comparison purposes, it is not much different than the size 
of this cup of water.
    Mr. Hudson. Great, I appreciate that. I will now recognize 
myself for 5 minutes for the purpose of asking questions.
    Mr. Pistole, there has been a lot of discussion the last 
few days about the TSA's decision to allow penknives on 
aircraft. I would argue that there has been more coverage 
surrounding the difference in blade lengths than the report of 
the alleged IED slipping through security undetected. How can 
we trust that risk-based security is working and that your team 
is focusing on real threats like the one that we saw in the 
video, when we just saw reports of a serious lapse in safety 
for the traveling public?
    Mr. Pistole. Thank you, Chairman. That is what risk-based 
security is all about. Trying to identify what are the most 
significant risks to, in this instance, aviation security, and 
making sure that our officers and our entire U.S. Government, 
National security team, is trying to be as precise and focused 
on those threats that can cause the greatest damage.
    So if you would like, I could show, for the subcommittee, 
what these items are that have already been on the list, 
allowed since 2005. If we could show, so on the left here, if 
you can, it is kind of hard to see from there, but we have 
items such as the scissors and the knitting needles and the 7-
inch screwdrivers.
    Those have all been allowed since 2005. So we have had 
billions of passengers, approximately 620 million a year, 
travel in the United States with these items permittable, 
permissible and there has not been a single incident involving 
those, in terms of attack on passengers, flight crew, Federal 
Air Marshals, anybody.
    What is on the right of that white divider there, are the 
small pocket knives, penknives, that I announced last week, 
would now be permitted for those eight reasons that I 
identified in my opening statement.
    Now just in terms of contrast, we also have, over here, 
those items that would still be prohibited, because of their 
nature. We went to describe those in some detail. Even though 
some of them may be shorter than the 6 centimeters, because of 
their construction or their use, some have been described as 
skinning knives for hunters, other things are simply tactical 
weapons. Those will still be excluded, as well as box cutters.
    So just in terms of contrast, these are things we will 
continue to exclude. These are the things, that given the 
overall intelligence from the community, these are not things 
that terrorists are intending to use. It is those, the non-
metallic IEDs that can blow up an aircraft, that is the 
greatest threat. That is what risk-based security is all about.
    Mr. Hudson. I appreciate that. Will screeners undergo 
additional training that will focus on how to better detect 
explosives and other major threats instead of some of these 
items that you have now taken off of the list?
    Mr. Pistole. Yes, and that is an on-going process. So what 
we have had, really since Christmas day 2009, is how do we best 
detect, not only through our security officers, but our 
technology? So for example, last year with this second, next 
generation plot that came out of Yemen, what we learned is that 
the explosives that the terrorists were using was a new type of 
explosive that our explosive detection equipment, not only here 
in the United States, but worldwide, was not calibrated to 
detect.
    So we went back and recalibrated all the explosive 
detection equipment we had. Additionally, our canines, who are 
such valuable parts of our layer of security, they had not been 
trained to detect that type of explosive, because it was a new 
one. Never seen before in the world. So we went back and 
trained them, imprint them with that type of scent so they 
would be able to detect that.
    So it is that type of on-going risk-based intelligence-
driven, so we take the intelligence and then we train our 
security officers to detect these type of devices. If I could 
just comment on that Newark situation. So this is part of 
Internal Red Team testing that we do. We are always trying to 
push our officers to make sure that they can find the most 
dangerous items.
    In that instance, it was a small device, obviously because 
of sensitivities I won't go into detail. But it was not much 
larger than a deck of cards, but at least half the width or the 
depth of it. So in that instance, it was artfully concealed by 
our security officer who was doing the covert testing. Although 
a pat-down was done, it was not found. So what we did was give 
immediate feedback, say okay you did the pat-down, but you 
didn't find it. Here is why. So that is what we use then as a 
training tool for our security officers around the country.
    Mr. Hudson. Thank you sir, I appreciate that. Are you 
looking at any additional items that you may want to take off 
of the prohibited items list and what is that process like for 
looking at future?
    Mr. Pistole. So again, this goes back to my Senate 
confirmation where I had a specific request from a particular 
Senator who asked particularly about small knives. So as part 
of my confirmation, I had to agree to review that. So this has 
been an on-going process for over 2\1/2\ years.
    We look for, obviously, the latest intelligence. But it 
really comes down to how can we best utilize our resources, 
however limited they may be. With sequestration and future 
budgets, and all of those issues, that you are very well aware 
of, how can we make sure we are most focused on those items?
    Mr. Hudson. Thank you, sir. The Chairman now recognizes the 
Ranking Minority Member of the subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for any questions he may have. Mr. 
Richmond, you are recognized.
    Mr. Richmond. Administrator Pistole, you speak, just 
starting where you left off which is your Senate confirmation 
and your agreement to look at small knives. I know that you 
have a Prohibited Items Working Group. Did you use that group? 
Did you bring in stakeholders to talk about the shift in a 
policy concerning small knives?
    Mr. Pistole. The initial working group was formed 
internally, obviously I wanted to get the TSA opinion before I 
went outside to see, okay what does TSA say about this? That 
involved a number of people across the organization, including 
input from the workforce around the country through a couple of 
different mechanisms.
    One is what we call the Idea Factory. It is kind of like an 
electronic suggestion box, where people can send in 
suggestions. We received over the last 2\1/2\ years, I have 
seen hundreds and hundreds of suggestions to do just that, to 
remove small items, small knives, and other things from the 
prohibited item list.
    This working group convened and met for 2 weeks in 2011 and 
then following up last year to assess the entire list from 
several respects--what the intelligence tells us; what are the 
threats; how are they impacted, and those seven or eight things 
I went through in my opening statement.
    Then looking at what does that mean in terms of our 
resources at the checkpoint. Does this help the checkpoint? 
Just for example, Congressman, every day still today, we of 
course find on average four guns at checkpoints, which slows 
things down.
    But we also find about 2,000 of these small pocket knives 
every day across the country, about 2,000 of these small pocket 
knives. Now, on average, that takes 2 to 3 minutes for the 
pocket knife to be identified in the carry-on bag through the 
X-ray, for that bag to be pulled, for the bag to be opened, and 
then for that--the knife to be found and then the bag closed up 
and then run back through the X-ray--so anywhere from 2 to 3 
minutes times 2,000 incidents every day.
    Mr. Richmond. Well, again, I started by saying that I don't 
question your judgment because you do what you do, and we have 
to trust that you are making the right decisions. My question 
is whether the number of professional associations and the 
airline pilots, the law enforcement officers association, the 
flight deck officer association, Federal Government employees, 
and the flight attendants association--did they have real and 
meaningful input?
    I am not asking you to defer to them, but a lot of times it 
helps if they are at the table when you are making a decision 
so that they are privy to the information that you have.
    Mr. Pistole. Understood, Congressman. I recognize that 
based on a classified intelligence briefing that I provided for 
12 representatives of flight attendants' associations 
yesterday, I could have done a better job of bringing them in 
earlier, giving them that classified intelligence briefing to 
tell them about what the actual threats are, the on-going 
threats are, the on-going threat, where they are coming from, 
how they are being advised.
    So I could have done a better job of that, not only with 
the flight attendants. I did notify a senior representative of 
the flight attendants association on November 30 of my 
intention to change the list as it involved knives. I also did 
a similar notification to a senior representative of pilots 
association after that, and the--also briefed the--the homeland 
security advisory council for the Department of Homeland 
Security in September of last year on this idea, and got 
feedback in a closed setting with them.
    So, yes, there were several opportunities that I did. Then, 
of course, with the international community, with ICAO, with 
the European Union, with Canada and Australia, that we 
participate in. But yes, to answer your question.
    Mr. Richmond. I will switch off of that. I am sure some 
other Members may cover it. In your testimony before 
Appropriations Subcommittee on Homeland Security, you mention 
that the delay in funding for TSA's threat assessment and 
credentialing infrastructure modernization program may delay 
the development and deployment in the changes to the TWIC 
program.
    Can you tell me a little bit more about that? What programs 
and where are we?
    Mr. Pistole. Yes, so as you know, Congressman, we are very 
much interested in moving forward with a universal enrollment 
plan which would allow for individuals, whether it is a TWIC 
card, a hazmat endorsement, other types of security threat 
assessments and vetting, to be consolidated, to get away from 
these stovepipes that frankly exist now.
    So the sequestration is potentially delaying the 
implementation of testing for the one visit under TWIC that we 
are so much interested in----
    Mr. Richmond. Correct, right.
    Mr. Pistole. So we are--so yes, there is potential for 
that. If we don't get through this, then we will be adversely 
affected on the timing of that.
    Mr. Richmond. I see that my time is expired, so Mr. 
Chairman, I am going to yield back. But I wanted to ask 
unanimous consent that the gentleman from New Jersey, Mr. 
Payne, be authorized to sit and question the witnesses during 
today's hearing.
    Mr. Hudson. No objection.
    Mr. Richmond. Thank you.
    Mr. Hudson. You are welcome, Mr. Payne. Thank you.
    Let's see. At this time, the Chairman recognizes the 
Ranking Minority Member of the full committee, the gentleman 
from Mississippi, Mr. Thompson, for any questions that he may 
have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like unanimous consent to enter my opening 
statement into the record.
    Mr. Hudson. Without--no objection whatsoever. Thank you.
    [The statement of Mr. Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Chairman Hudson, thank you for holding today's hearing and 
congratulations on your appointment to lead this important 
subcommittee. I would also like to congratulate my colleague, Mr. 
Richmond, on his election as Ranking Member.
    This subcommittee has a legacy of bipartisan cooperation and 
productivity. This is the only subcommittee to have produced an 
authorization bill for the component of DHS it oversees in each of the 
past two Congresses. The TSA Authorization bill produced by this 
subcommittee in the 111th Congress, passed the House with nearly 400 
votes. Unfortunately, that measure never saw action in the Senate.
    This subcommittee also produced an authorization bill in the 112th 
Congress. However, that bill was never considered by the full 
committee. TSA has not been re-authorized since it was established by 
Congress in 2001, and this lack of Congressional input shows. While 
some progress has been made to improve TSA's performance and 
functioning, many programs and activities need reform.
    For instance, TSA invests millions of taxpayer dollars in new 
security technologies without fully vetting them; TSA continues to 
deploy and utilize so-called ``Behavior Detection Officers'' despite 
the fact that this method of screening has not been scientifically 
validated by an independent third party; and TSA is currently under 
review by the Equal Employment Opportunity Commission for failure to 
have a standard EEO process.
    The common theme is that each of these deficiencies point to a 
failure to implement processes that are common in other Government 
entities. TSA's apparent reluctance to employ accepted processes and 
procedures was recently highlighted by a decision that makes policy 
changes without substantive engagement with key stakeholders.
    The decision to allow certain knives and other items through TSA 
checkpoints without meaningful engagement with flight attendant 
representatives, law enforcement officials, the employees responsible 
for implementing the changes, air carriers, and other key stakeholders 
has caused chaos and anger. The backlash that has occurred from this 
decision may have been avoided if a routine process to review security 
policy changes had been undertaken. But instead, TSA's actions have 
left many Americans wondering why they cannot take regular shampoo in a 
carry-on bag but can take a knife.
    Because of these missteps, I will reintroduce legislation passed by 
the House last Congress codifying the Aviation Security Advisory 
Committee today. This legislation encourages TSA to formally engage and 
collaborate on policy decisions with key stakeholders.
    An integral part of a reliable risk-based process is information. 
We cannot call our screening process risk-based or reliable if it uses 
measures that have not been scientifically validated.
    And because the overwhelming majority of people who fly are not 
dangerous, a reliable risk-based process must benefit a large 
population--not just a few cherry-picked groups.
    In a speech before the Brookings Institution last month, Secretary 
Napolitano stated that by the end of 2013, TSA expects that 1 in 4 
passengers will qualify for expedited screening. I support that goal. 
However, last year, only 1 in 12 passengers qualified for expedited 
screening.
    I look forward to hearing from TSA about how it will more than 
triple the number of passengers receiving expedited screening in the 
remaining 10 months of the year without compromising security.
    Before yielding back, I would like to thank Administrator Pistole 
for appearing before the subcommittee today. Mr. Chairman, I ask 
unanimous consent that statements in opposition to TSA's announced 
change to the prohibited items list that the committee received from 
the Transport Workers Union and Delta Air Lines be inserted into the 
record along with public statements opposing the changes made by The 
Coalition of Air Line Pilots Association; The Association of Flight 
Attendants; The American Federation of Government Employees;* and The 
Federal Law Enforcement Officers' Association.**
---------------------------------------------------------------------------
    * The information was not received at the time of publication.
    ** The balance of these documents were offered for the record by 
Representative Swalwell.
---------------------------------------------------------------------------
    With that Mr. Chairman, I yield back the balance of my time.

    Mr. Thompson. Welcome, Mr. Pistole. Sorry we didn't connect 
yesterday, but such is life. It would have helped me going 
forward.
    In this group that you put together to come up with this 
policy, did it include Federal air marshals?
    Mr. Pistole. Yes, it did. It did and in fact in my opening, 
I noted that because of their strong presentation, their 
articulation of the risks and everything else involved, I 
actually changed what I was leaning toward in terms of simply 
harmonization with the international standards to make it more 
restrictive. So yes, a strong input from the Federal air 
marshals.
    Mr. Thompson. What about flight attendants?
    Mr. Pistole. No, I did not have similar input from them.
    Mr. Thompson. You had similar?
    Mr. Pistole. Did not.
    Mr. Thompson. Did not.
    Mr. Pistole. Did not.
    Mr. Thompson. Okay. I have a young lady who works on the 
committee who kind of lists some of the item that with this 
policy we will be able to take on a plane. I found out that a 
decision was made that we can take two golf clubs on a plane. 
How did we come to decide on two rather than three or four or 
one?
    Mr. Pistole. So the working group who--which I described 
earlier--looked at all the implications and the consensus and 
the recommendation was two clubs for whatever reason, and it 
could be one, it could be--it is still up to the airlines 
whether they would allow that. So it is not a bag of clubs. It 
is two.
    Mr. Thompson. You say it is up to the airlines.
    Mr. Pistole. Well, the airlines can still decide what they 
allow in terms of the overhead bin.
    Mr. Thompson. I am just trying to get some of the history 
in how we arrived at this. This is a hockey club--puck, 
whatever. This is a big deal. I am trying to figure out how 
this could not be perceived as something potentially dangerous 
to the people on planes.
    Now, it might not bring the plane down, but I think it 
could cause serious harm to the people who are flying on the 
plane and I would have--like to have--seen more thought go into 
it. But it is, you know, you have decided the policy. You 
talked to Congressman Richmond that right now you are losing 
time with knives going through the machine.
    Explain to me now the difference that if you see a knife 
going through there that is 2.45 inches long, how are you going 
to stop it, and how that will be in a shorter period of time 
than the present policy.
    Mr. Pistole. A couple of factors there, Congressman. One is 
that our policy would require the person--the passenger to take 
that out and put it in the bin just like they would any other 
metal device or something. So it is basically the divestiture 
of that. So then as it goes through the X-ray, obviously it 
will be there just to be seen just like a watch or anything 
else would.
    We are giving discretion to the TSOs to say they have been 
looking at these size knives for years. Our average TSO, as you 
know, have 5 years' experience. They are very good at this, but 
they will have discretion as to whether that is right around 
there, so there is not going to be measuring. They are 
instructed not to open the knives. We don't want any open 
knives at the checkpoint.
    Then if it appears to be in compliance with the new policy, 
they will let that go. We had a good briefing with--AFGE, the 
union, when we notified them of the policy. One of the first 
questions was, well, will we give proper training to them; and 
then second, will you not punish them or penalize them in case 
they make an error in judgment. We responded affirmatively in 
both of those.
    So, yes, absolutely, they will be trained.
    Mr. Thompson. So it is your testimony before this committee 
that the present policy that you have announced and proposed to 
implement does not cause any harm to the traveling public?
    Mr. Pistole. There is obviously any number of scenarios 
that could be raised. The flight attendants raised some with me 
yesterday. When we get into the ``what if'' category, that is 
what risk-based security is about--``what if'' and then we fill 
in the blank. Then we make judgments and decisions based on the 
probability, what the intelligence says, and then what the 
consequences may be.
    So, there is no guarantee here. So no, I am not saying 
that. There is no guarantee. Part of this is just the question 
of what the American people and Congress think TSA's role and 
responsibilities are.
    Mr. Thompson. So if Congress now says maybe you should 
reassess this policy, are you prepared to do that?
    Mr. Pistole. Obviously, if Congress in a bipartisan way has 
legislation that goes to the President and he signs, then 
obviously we will adopt those--whatever those issues are. Given 
all the input that I received, including the excellent input 
that I received from the flight attendants yesterday, I think 
the decision is solid and stands and we are planning to move 
forward with it.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Hudson. Thank you, Mr. Thompson.
    The Chairman will now recognize other Members of the 
committee for questions that they may wish to ask the witness. 
In accordance with our committee rules and practice, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in later will be 
recognized in the order of arrival.
    We will begin with the gentleman from Alabama, Mr. Rogers. 
You are recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Pistole, thank you for being here and we are very 
fortunate to have you in this very important job. I have found 
you in my years on this committee to be very competent and 
capable. I want to commend you on this list that you have come 
out with. I would like for it to be little longer, but you have 
made a good start and I think it is common sense what you have 
done.
    I do want to talk to you. You know, I am a big fan of the 
PreCheck program. I think it is a great risk-based approach to 
screening. But as I have talked to you in the hearings before 
and in private before, we have got to push it out a little bit 
faster and work some of the kinks out. As you know, a lot of 
people are still confused about it. It is not at all the 
airports. There is some inconsistent application.
    Can you tell us, are you working with the airline partners 
on ways to clear up what the program is, how people can get in 
it, where it is available, where it is not? Can you kind of 
talk to us about that?
    Mr. Pistole. Yes, thank you, Congressman. The airlines have 
been great partners on this, the five major carriers, and then 
there are several others that are coming on-line later this 
year. So as you know we are currently in 35 airports, the 35 
busiest airports. I announced recently the extension of five 
more airports, so we will be at 40 here by the end of this 
month.
    We will add some additional airports later this year, but 
we will also look at the major airports, the category X 
airports to add additional PreCheck lanes at those airports. 
So, for example, at Atlanta-Hartsfield, on Monday morning, 
instead of one lane or two lanes we may have three or even four 
PreCheck lanes open to handle that Monday morning rush of 
commuters going through there.
    We are also looking at ways to expand the known population 
in ways that allow additional people to go through. You are 
aware of what we are doing with what we call managed inclusion, 
pilot program in Indianapolis, Tampa, and now Honolulu. That 
has been successful.
    As Ranking Member Richmond knows, we used a variation on 
that the day after the Super Bowl in New Orleans, where instead 
of 12,000, 13,000, 14,000 people at travel on average, 39,000 
people left New Orleans that morning. Obviously the passive 
screening canines that you are such a strong supporter of, 
those are key enablers for this strategy to move forward.
    We are also working with a private industry. We put out a 
request for white papers that are due April 1, where there 
would be a partnership between us and a private company that 
they would do vetting for our criteria individuals who may want 
to sign up for a program such as PreCheck. They do the vetting 
to our criteria, we then vet them and then we increase the 
population that way.
    So----
    Mr. Rogers. Would that be something that the traveling 
public would pay for out--themselves to get this----
    Mr. Pistole. Yes.
    Mr. Rogers. Okay.
    Mr. Pistole. Yes.
    The other aspect is it has been complicated for some to 
sign up for global entry. The custom border protection which 
again it is a great program, $100 for 5 years, $20 a year 
allows you expedited re-entry to the country, but it has been 
complicated for some. So what we are working on with NTSA is to 
have a TSA PreCheck sign up through a TSA structure so you 
don't have to go through CDP, you can go through a DHS portal 
to say, yes I want to go international travel, that is fine, I 
want just domestic.
    What we found the last quarter of calendar year 2012, 41 
percent of the people signing up for Global Entry, just wanted 
the TSA PreCheck benefits. So exactly to your question, how can 
we maximize that. That is what we are doing.
    Mr. Rogers. But you know that--I talked to you about this 
before--but there is a--I also would like to see you get to the 
point to where once you sign up and approve the PreCheck, it 
works across all airlines.
    Mr. Pistole. Right.
    Mr. Rogers. I know your airline partners have some 
proprietary concerns about that data.
    Are you working toward a database that would protect their 
proprietary interest, but also allow travelers who use multiple 
airlines to use PreCheck?
    Mr. Pistole. We are. The airlines again have been good 
partners in this. We are not quite there yet, but----
    Mr. Rogers. How long do you think it will be before you get 
there?
    Mr. Pistole. I will have to get back with you on that, 
Congressman, because it has been something that frankly I have 
been hopeful that we would have already been there, but frankly 
I think because of some mergers and other issues that 
complicated things a little bit for everybody.
    Mr. Rogers. Then last, foreign repair stations.
    Been 10 years since we have been waiting on a rule. Can you 
tell us that is gonna happen real soon? You gonna have us a 
rule pushed out?
    Mr. Pistole. I can tell you that.
    [Laughter.]
    Mr. Rogers. Can you tell me and mean it?
    Mr. Pistole. So--well I actually--there is actually good 
news. Today I got an update that OMB has accepted the rule, so 
that starts a clock. So there will be a public notice of that 
shortly, and so we actually for the first time in quite a while 
we are making progress.
    Mr. Rogers. Great, do you know how long that clock is gonna 
tick?
    Mr. Pistole. Well--so they--have a review period. I would 
have to check with that, 60 or 90 days in this instance, 
because it is a final rule. Then, you know, like we will be--
until sometime this year, I just--that is where we are----
    Mr. Rogers. You are certain some time this year it will be 
finalized?
    Mr. Pistole. Should be.
    [Laughter.]
    Mr. Rogers. That is a lawyerly response.
    Mr. Pistole. Should be, yes.
    Mr. Rogers. Thank you very much.
    I yield back.
    Mr. Hudson. Thank the gentleman.
    The Chairman now recognizes the gentleman from California, 
Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman.
    I ask unanimous consent that the statements in opposition 
to TSA's announced change to the prohibited items list that the 
committee received from the Transport Workers Union and Delta 
Airlines be inserted into the record, along with public 
statements opposing the changes by the Coalition of Airline 
Pilots Association, the Association of Flight Attendants, the 
American Federation of Government Employees* and the Federal 
Law Enforcement Officers Association.
---------------------------------------------------------------------------
    * The information was not received at the time of publication.
---------------------------------------------------------------------------
    Mr. Hudson. No objection.
    [The information follows:]
Statement of Stacy K. Martin, President, Transport Workers Union Local 
                                No. 556
                             March 14, 2013
    Thank you Committee Chairman McCaul and Ranking Member Thompson; 
Subcommittee Chair Hudson and Ranking Member Richmond for having this 
important hearing today on ``TSA's Efforts to Advance Risk-Based 
Security.'' And, thank you for affording Transport Workers Union, 
(TWIT) Local No. 556 the union that represents the flight attendants of 
Southwest Airlines the opportunity to submit a written statement. As 
the United States House Committee that has Congressional oversight for 
the U.S. Department of Homeland Security that includes the 
Transportation Security Administration (TSA) I applaud your efforts to 
examine all aspects of protecting the American people from harm and 
injury.
    TWU Local No. 556 represents nearly 11,000 flight attendants at 
Southwest Airlines. Our members are mortified by the announcement of a 
little more than 1 week ago by TSA Administrator Pistole that allows 
weapons back on airplanes. As a result, we have been working nonstop to 
ask that the TSA reverse this adverse decision that will leave my 
fellow flight attendants and the passengers that we protect and serve 
open to airplane mayhem. In our opinion the new rules, which take 
effect April 25, 2013 are not rational and go directly against efforts 
that seek to protect the aircraft, passengers, and crew from danger.
    It is a reported fact that on September 11, 2001 passengers in-
flight phoned relatives before their planes crashed and stated that box 
cutters were used to attack some of the crew and passengers. And, 
similar box cutters, small knives, were found on aircraft that day that 
had been grounded.\1\ As a response, items that could be used as 
weapons like box cutters, sharp items, some sports gear, oddities that 
can be easily compounded to create an explosive and obvious weapons 
were banned as carry-on items. But, now 12 years later, because U.S. 
aviation security has improved since the 2001 attacks and the 
likelihood of a similar plot like that of al-Qaeda succeeding against a 
commercial airliner is remote, we relax our standard? And, furthermore 
it is questionable why such a change would be made just in order to 
align our TSA standards more closely with International Civil Aviation 
Organization (ICAO) standards.
---------------------------------------------------------------------------
    \1\ ``Box Cutters Found on Other September 11th Flights'', CNN.com/
US; http://archives.cnn.com/2001/US/09/23/inv.investigation.terrorism/.
---------------------------------------------------------------------------
    As the Congressional committee that has oversight of the TSA we ask 
that you demand the decision be reversed for the following reasons:
    (1) The decision is irrational and makes no logical sense.
    (2) The decision was made in a vacuum without input from 
        stakeholders.
    (3) With sequestration budget cuts in effect, air marshal coverage 
        that has been in place since 9/11 will be lessened.
The Decision Is Irrational and Makes No Logical Sense
    The reasoning is inherently flawed. Simply put, what sense does it 
make to allow any weapon on airplanes? These weapons were banned and 
appropriately so. I would agree that we don't need just an illusion of 
safety, but we need to have secure and safe skies.
    Each and every time flight attendants that I represent board an 
aircraft we sweep the aircraft for potential threats and weapons. If 
the TSA is now going to allow items that threaten the safety and well-
being of passengers why sweep? This goes against the very core of the 
layered approach of risk-based safety management that hitherto has been 
the reported goal of the TSA.
    To change what has worked for 12 years just to meet ICAO standards 
is beyond understanding. What happened in the United States on 
September 11, 2001 did not happen in other countries. It happened here, 
in the United States, on U.S. soil, with U.S. citizens, under U.S. 
control, and with U.S. aircraft. Would the United States blame other 
countries for banning items on-board aircraft that would protect the 
security of their citizens? I think not! It should not be about 
catching up to ICAO standards it should be about protecting our 
citizens.
    Another reason that has been given for this change is so that the 
TSA can concentrate on other items. Of course, we are in agreement that 
other items that can destroy lives and property should be a focus. 
Continuing the layered approach of security that has been in effect 
over the last few years has been successful. The TSA should continue to 
scan for items that are detrimental to the well-being of passengers and 
crew alike. But, depending on a locked cockpit door to satisfy safety 
should not be all that is considered going forth. This change just 
leads down the slippery slope of eventually allowing more weapons on-
board. And then what, issue guns and knives to flight attendants? 
That's not an option that we see as intelligent or valuable.
    An airplane arriving at the gate with passengers and crew aboard 
that have arrived safely is the goal. Not an airplane that arrives with 
only one or a few survivors; that gives another meaning to ``dead'' on 
arrival. We know as a result of 
9/11 that the destruction that a terrorist seeks to inflict is not only 
emotionally debilitating but also cripples financially. Reversing a 
decision that opens up opportunities for injury and destruction is at 
best, reckless.
    It's widely known and accepted what a weapon is. And, some weapons 
are obvious--a gun, a knife. Other weapons are not so obvious. Yet, 
prisoners have used improvised weapons like sharpened toothbrushes to 
injure and kill other prisoners. We understand that it is rational that 
a risk-based approach be taken and that all risk cannot be eliminated. 
But reversing banned items that have previously been associated with 
risk is not logical when the objective is to mitigate risk and to 
reduce, as much as possible, the potential for anyone to commit a 
deliberate attack against our transportation systems. A better solution 
would be to keep the obvious weapons banned and continue to look for 
the not so obvious. Furthermore, anything that can easily be used as a 
weapon should not be allowed to be carried on the aircraft in any form, 
whether on the person, in the arms or in carry-on baggage.
The Decision Was Made in a Vacuum Without Input From Stakeholders
    As stakeholders of the security process, TSA's risk-based approach 
includes partnerships, and acknowledges involvement in the process.\2\ 
However, in this effort TSA did not reach out in an efficient manner 
for input and feedback. As a result, stakeholders, including major air 
carriers that are against the change (Delta, Southwest Airlines, and 
USAir), and the Coalition of Flight Attendants, which we are members, 
see this change as a step in the wrong direction, backwards, and are in 
opposition to it occurring in April.
---------------------------------------------------------------------------
    \2\ Official website of the Department of Homeland Security, http:/
/www.tsa.gov/stakeholders.
---------------------------------------------------------------------------
    The TSA said the latest decision will bring the United States into 
basic compliance with international standards by allowing knives 
shorter than 6 centimeters, or 2.3 inches, aboard aircraft. However, 
the safety of passengers and crew should not be compromised as an 
alternative to provide a swift traveling experience. At the expense of 
safety we should not force compliance with standards that are not 
germane to our situation and experiences.
    The TSA also has reported that the decision to keep box cutters and 
razor blades on the prohibited items list was made because there was 
``too much emotion associated'' with their use in the 9/11 hijacking 
incidents. As the TSA has accepted the process of stakeholder 
involvement there is no need for them to make these types of decisions 
based on emotions. It is fact that weapons similar to the ones that are 
now being unbanned were used in the 9/11 hijacking incidents. 
Consulting with other stakeholders prior to a decision would have been 
more prudent and would have added substance to the decision.
With Sequestration Budget Cuts in Effect, Air Marshal Coverage That Has 
        Been in Place Since 9/11 Will Be Lessened
    It has been reported that the Federal Air Marshall (FAM) Service 
budget will be cut by 8.2 percent as a result of the sequestration.\3\ 
Allowing previously-banned weapons back on airplanes while losing some 
of the valuable service of the FAM program is not logical. Incidents 
will have a more likely chance of happening and succeeding, as 
suspected terrorist will have more means and ability to carry out plans 
that could result in destruction.
---------------------------------------------------------------------------
    \3\ ``Homeland Security Today: OMB Details Sequestration Plan'' 
www.hstoday.us/index.php?id=3408&no cache=l&tx[...]
---------------------------------------------------------------------------
    The FAM program has been a successful layer within the layered 
safety approach administered by the TSA. With the absence of funding 
and the strain that will be associated on TSA airport agents as well, 
it is not rational to lessen the list of items that can be carried on-
board. It is not necessarily true that by allowing these weapons that 
they should be able to have a watchful eye and perceptive to other 
deterrents that can bring havoc aboard aircraft. Actually allowing 
previously-banned items creates more work than less. Just the fact that 
as a result of allowing these previously-banned weapons TSA agents 
would need to ``measure'' the length and width of the knife, calculate 
how it operates (locked or fixed blade) and whether the grip was molded 
or not, is more than enough to concentrate on and can distract them 
from seeing objects that are more obscure but just as deadly. The 
public expects a safe environment, not just the perception of one.
                               conclusion
    Nobody who works in aviation wants to go back to pre-9/11 
procedures, when terrorists could physically storm the cockpit. I'm 
glad the pilots I fly with can operate behind locked doors and land a 
plane safely even if there is a disturbance in the passenger cabin.
    Security is about more than preventing terrorism. Incidents of 
``air rage'' were on a dramatic rise prior to 9/11. Over the past dozen 
years, added security and zero tolerance for violence have led to a 
decline in abusive behavior and physical attacks in the passenger 
cabin.
    Aside from showing a revolting, cavalier attitude about the lives 
of flight attendants and passengers, the idea that we can live with ax-
wielding mayhem at 30,000 feet without compromising the overall 
security of air travel is nonsense.
    Pilots, flight attendants, airline ground workers--and passengers--
are partners in safety before, during, and after a flight. Sure, a 
trained pilot can land a flight even during an emergency--but why adopt 
a policy that could lead to repeated airborne emergencies?
    Neither the current nor former head of the agency that's supposed 
to prevent terrorism seems to understand much about the actual 
psychology of terror. The point is not necessarily to take down a plane 
or cause a large number of casualties. The goal of a terrorist is to 
terrify people and make daily life impossible.
    Can a determined psychopath wielding a knife, machete, or battle-ax 
strike terror into the hearts and minds of passengers at 30,000 feet? 
And into the hearts and minds of millions of people who would see news 
of any such an event repeated endlessly on TV, the internet, and social 
media?
    The question answers itself. TSA must reverse course. That's why 
the Transport Workers Union Local No. 556 has joined the Coalition of 
Flight Attendants Unions, the Federal Law Enforcement Officers 
Association, and other concerned citizens in a petition drive and 
campaign to stop this absurd scheme from taking effect. And, that is 
why we have submitted this statement as well.
    TWU Local No. 556 appreciates this opportunity to voice our 
position on such an important manner. We will continue to work together 
with other stakeholders to prevent ``acts of violence'' wherever they 
may take place, and make our skies as safe as possible.
    We urge the House Homeland Security Committee to commit to whatever 
process necessary and available to reverse the decision of the TSA to 
allow weapons back into the cabin. These items can remain in checked 
baggage as before and not increase a threat in the skies.
                                 ______
                                 
 Statement of Joanne Smith, Senior Vice President, In-Flight Delta Air 
                                 Lines
                             March 14, 2013
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you for this opportunity to present the views of 
Delta Air Lines and thousands of Delta flight attendants as you examine 
TSA's efforts to shift to a more risk-based approach to aviation 
security. We have long supported and partnered with the agency to 
advance its goal of focusing on significant threats, and we appreciate 
having the chance to discuss TSA's recently-announced change to the 
prohibited items list in this context.
    The commercial aircraft cabin is a unique environment affected by 
rules and policies set and overseen by three different Government 
agencies: The TSA, FAA, and OSHA. Each agency has a distinct mission, 
but all are critical to the safety of passengers, crew, and aircraft. 
While TSA's primary aviation mission is security--the prevention of 
terrorism within the aviation system--it is each airline's job to 
integrate the many safety and security rules and policies to which we 
are subject into a safe and secure travel experience for the public and 
our employees. At Delta, we manage this task through our Safety 
Management System (SMS)--a proactive, predictive, data-driven tool to 
collect and analyze information, identify hazards, mitigate risks, and 
promote safety awareness across Delta's global organization. While this 
system was developed primarily to improve the safety of our operation, 
we have expanded it to include security matters because safety and 
security are so integrally linked.
    Delta flies more than 160 million passengers each year, and several 
hundred events occur where our flight crews--mainly flight attendants--
experience serious passenger misconduct ranging from failure to follow 
crew instructions to more significant events involving drug abuse or 
psychotic episodes. In addressing these incidents, our in-flight crews 
have often been verbally and physically abused, and in some instances 
Federal Air Marshals and/or fellow passengers have had to intervene to 
help bring the situations under control. As the demand for travel 
increases and through examination of the data we collect through our 
Safety Management System, we recognize that instances of reported 
passenger misconduct are not decreasing. In view of how the data is 
trending, we believe that the re-introduction of small knives into 
aircraft cabins will only intensify passenger misconduct situations.
    Therefore, we have serious concerns about the recently announced 
changes to the prohibited items list to allow small knives onto 
aircraft. The following two examples illustrate the sorts of incidents 
our crews are seeing with increased frequency, which certainly would 
have been worse had knives been accessible to the unruly passengers:
  <bullet> On a flight between Minneapolis and Los Angeles, a passenger 
        engaged in an altercation with the passenger seated next to 
        him. The passenger was issued a warning and seemed to calm 
        down, but became belligerent again and had to be subdued by a 
        flight attendant and other passengers. The first attempt to 
        restrain the passenger with tuff-cuffs resulted in the tuff-
        cuffs breaking, after which the passenger used them to cut a 
        flight attendant under his nose and across his lip. FBI and 
        local law enforcement responded upon arrival, resulting in the 
        passenger's arrest.
  <bullet> A passenger aboard a flight between Los Angeles and Liberia, 
        Costa Rica was screaming and yelling at other passengers 
        aboard. When the in-flight crew attempted to calm him down, he 
        spat on a flight attendant and kicked her, after which other 
        passengers assisted with restraining him with flexicuffs. He 
        continued to scream, yell, and kick his way through the flight, 
        and at one point got out of the flexicuffs and attempted to 
        headbutt the flight attendant. Three passengers had to take the 
        passenger to the ground and use seat belts to restrain him. The 
        passenger was arrested upon arrival.
    Make no mistake--we applaud Administrator Pistole's drive to shift 
TSA's resources away from addressing every threat or perceived threat 
to focus on the most significant. Delta was one of the first airlines 
to pilot the TSA PreCheck program, and participated actively in 
development of the TSA Known-Crewmember program--both of which allow 
TSA to shift focus from low-risk passengers to those who pose higher 
levels of risk. We fundamentally believe that the agency can only 
succeed in its dual mission of securing the aviation sector and 
facilitating commerce if it continues to undertake efforts like these.
    While allowing passengers to carry small knives aboard aircraft may 
not enhance the risk of catastrophic acts of terrorism occurring aboard 
aircraft, it does significantly increase the danger airline passengers 
and crewmembers face from unruly passengers relative to the little 
improvement the change will likely make to the customer security 
process flow. Furthermore, the absence of consultation with 
stakeholders before the change was made is a step backward from the 
good strides TSA has made in recent years to partner with industry to 
implement effective security measures that complement airline 
operations, rather than hinder them.
    There is one other issue I would like to address--whether or not 
re-introduction of knives into the aircraft cabin is appropriate 
because it is consistent with the ICAO (International Civil Aviation 
Organization) standard. Delta flies to over 300 destinations in nearly 
60 countries worldwide, at 46 of which TSA requires that we implement 
more stringent security measures because the level of threat to a U.S. 
airline and U.S. passengers is more serious than in other locations. At 
most if not all of those locations, the local government's security 
regulations are consistent with ICAO security standards, which are 
minimum security standards, but TSA requires that we do more. In other 
locations--Japan and Canada are two good examples--local governments 
implement security measures that are more stringent than the minimum 
ICAO standards. We would simply note that in the case of small knives, 
we don't believe that harmonization with minimum ICAO standards is 
sufficient justification for reintroducing this threat to our flight 
crews and our passengers.
    It is our hope that in the days and weeks ahead, TSA will be 
willing to reconsider its decision to allow small knives aboard 
aircraft. And as always, we at Delta remain committed to engaging with 
the agency as a partner to develop effective security solutions and 
improve the aviation security system.
    Thank you again for this opportunity to share Delta's views.
                                 ______
                                 
          CAPA Opposes TSA's Changes to Prohibited Items List
    Washington, DC (March 7, 2012).--The Coalition of Airline Pilots 
Associations (CAPA) which represents over 22,000 professional airline 
pilots at carriers including American Airlines, US Airways, UPS 
Airlines, ABX Air, Horizon Airlines, Southern Air, Silver Airways, 
Kalitta Air, Miami Air, Cape Air, Omni Air and Atlas Air, is opposed to 
the recent Transportation Security Administration's (TSA) decision to 
make changes to the TSA's ``Prohibited Items List''.
    TSA Administrator John Pistole announced plans to change the 
``Prohibited Items List'' effective April 25, 2013 to include 
permitting small knives in carry-on luggage as well as certain sports-
related equipment. According to a TSA statement about the planned 
changes, ``The decision to permit certain items in carry-on luggage was 
made as part of TSA's overall risk-based security approach and aligns 
TSA with International Civil Aviation Organization (ICAO) Standards and 
our European counterparts.''
    ``While CAPA welcomes the periodic review of items banned from 
being carried on the airplane, we categorically reject a proposal to 
allow knives of any kind in the cabin,'' stated CAPA President Mike 
Kam. ``We believe the threat is still real and the removal of any layer 
of security will put crewmembers and the flying public unnecessarily in 
harm's way,'' he added.
    CAPA is deeply concerned that industry stakeholders were not 
consulted prior to implementing these changes. ``Crewmembers are a 
critical component to aviation security and, as trusted partners to 
TSA, should be involved in these processes.'' President Kam stated. 
``CAPA's Security Committee is concerned that the proposed changes to 
the prohibited items list could represent a step backwards in aviation 
security,'' added CAPA Security Representative Steve Sevier.
    CAPA vigorously supports fully funding critical programs such as 
the Federal Flight Deck Officer Program (FFDO), which deputizes airline 
pilots as Federal law enforcement officers to defend the flight deck, 
and the Crewmember Self Defense Training Program (CMSDT) which teaches 
both pilots and flight attendants techniques on how to defend 
themselves in the aircraft, including when confronted with edged 
weapons.
    ``It is clear that the FFDO and CMSDT programs are needed now more 
than ever as they represent a critically important role in protecting 
our passengers, crewmembers, cargo, and aircraft,'' stated CAPA 
Security Representative Bill Cason.
                                 ______
                                 
        Press Release Submitted For the Record by Hon. Swalwell
    flight attendants union coalition blasts tsa decision to allow 
                     dangerous items onto aircraft
For Immediate Release, March 5, 2013
    Washington, DC.--The Flight Attendants Union Coalition, 
representing nearly 90,000 Flight Attendants at carriers Nation-wide, 
issued the following statement blasting today's announcement by the 
Transportation Security Administration (TSA) to allow knives and other 
dangerous objects into the aircraft cabin, relaxing an over decade-long 
ban.
    ``Today's announcement to permit knives back into the aircraft 
cabin is a poor and short-sighted decision by the TSA. Continued 
prohibition of these items is an integral layer in making our aviation 
system secure and must remain in place.
    ``As the last line of defense in the cabin and key aviation 
partners, we believe that these proposed changes will further endanger 
the lives of all Flight Attendants and the passengers we work so hard 
to keep safe and secure.
    ``Flight Attendants are the front-line safety and security 
professionals on-board every commercial passenger aircraft in this 
country and must be given the tools and training to protect ourselves, 
our passengers, and the aircraft. Despite repeated requests for updated 
training to include basic self-defense maneuvers to allow us to defend 
ourselves, Flight Attendants still do not receive mandatory training 
about how to effectively recognize and defend others against attacks 
aboard the aircraft.''
                                 ______
                                 
        Press Release Submitted For the Record by Hon. Swalwell
    fleoa calls tsa policy on knife carry dangerous and ill-advised
For Immediate Release, March 6, 2013
    Washington, DC.--Today, the Federal Law Enforcement Officers 
Association (FLEOA) expressed its strong objection to TSA's new policy 
permitting certain knives to be carried aboard commercial aircraft.
    After learning of TSA's released policy change, FLEOA President Jon 
Adler stated, ``In light of the staff and resource constraints placed 
on us by the sequester, why would TSA choose to elevate the risk of 
Americans getting injured at 30,000 feet? If the TSA policy makers were 
engaged in close quarter combat with a psycho wielding a 2-inch blade 
at 30,000 feet, they might reconsider the foolishness of their 
decision.''
    In response to questions regarding the safety logic of allowing 
golf clubs as carry-on items, TSA spokesman David Castelveter stated, 
``These are popular items we see regularly. They don't present a risk 
to transportation security.'' FLEOA respectfully disagrees with that 
assessment, and can call on a variety of tactical experts to illustrate 
why.
    FLEOA referenced the recent fatal brutal attack on fallen hero Eric 
Williams (BOP Correctional Officer) to illustrate the hazardous 
ramifications of TSA's knife policy. Officer Williams was savagely 
attacked at close range by an inmate who stabbed him repeatedly in the 
neck with a plastic-edged weapon. TSA's policy would expose FAMS, law 
enforcement officers flying armed, airline crew, and all passengers to 
a similar set of potentially fatal circumstances.
    ``There is no justifiable reason for implementing this policy, and 
it only serves to place law enforcement officers and flying Americans 
at greater risk,'' added Adler.
    FLEOA plans to engage law makers to address this ill-advised 
decision by TSA.

    Mr. Swalwell. Good afternoon, Administrator Pistole.
    After September 11, zero planes have been taken down by 
sharp objects where sharp objects would have been used.
    Mr. Pistole. Correct.
    Mr. Swalwell. My understanding, there have been zero 
attempts as well.
    Mr. Pistole. There was one attempted hijacking 
internationally. If you are talking about domestically, there 
have been zero attempts. Internationally there was one attempt 
in 2009, it was a hijacking attempt with a plastic knife. 
Unsuccessful obviously.
    Mr. Swalwell. Also zero major stabbing issue with sharp 
objects?
    Mr. Pistole. Zero that I am aware of.
    Mr. Swalwell. For me then, that begs the question that when 
we look at the number of attempts or successes that have taken 
place involving sharp objects, post-September 11, the answer is 
there have been zero.
    That begs the question, can that number get better? The 
answer is no. But it also begs the question, can that get 
worse? To me, the answer is, yes. It can get much worse.
    So I ask, how does allowing sharp objects on board now 
accomplish the goal of maintaining zero planes being taken 
over, or having zero incidents involving sharp objects? I also 
understand, Administrator Pistole, that the shift towards risk-
based threat assessment, and I appreciate the shift towards 
focusing on IEDs.
    Mr. Pistole. Thank you.
    Mr. Swalwell. But just because this is a new threat does 
not mean that old threats still exist. I would imagine that if 
we were to ask how many incidents occurred before September 11 
involving sharp objects, we would also have found that the 
answer is zero, yet the threat was still real and tragically we 
paid the price on September 11.
    On this board, three knives--then reflected by the checks 
and the X.
    I think most people out there would have a hard time 
telling the difference between what is allowed and what is 
banned. I am--and I am wondering, do you think that any one of 
these knives would be more or less dangerous than the other?
    Do you think one of these knives would be more or less 
successful in taking over an airplane and causing another 
terrorist attack?
    Mr. Pistole. Thank you, Congressman.
    You raise a number of good points, and our working group, 
and experts considered those issues in quite some detail. In 
terms of some context, the international--again, air community 
has allowed these--anything 6 centimeters or shorter since 
August 2010, again no attempts.
    Here in the United States, obviously, you see these items. 
Terrorists don't need to use those, they don't need to use 
these, they have things on board already, whether it is in 
first class, a metal knife or fork, whether it is a wine glass 
or wine bottle that they break and use. There is any number of 
things that could be used as a deadly instrument.
    The whole purpose of risk-based security is to take 
information that we have, both about terrorist intent and 
tactics, to make sure that we are preventing prior attack--
attempts and the hijackings, obviously of 9/11 which multiple 
layers of security that I am sure you are familiar with, not 
just physical security.
    On the classified side, the intelligence about who is 
traveling, where they are trying--all those things. So it 
really gets again to what is the intent of the person on-board 
as opposed to the object. So if we simply focus on objects, 
then we are always behind the eight-ball. The whole purpose is 
to focus on the intent of the person, and so it really comes 
down to the mission of TSA.
    Is it to prevent disturbances by inebriated passengers on 
board? I don't think so.
    Mr. Swalwell. Administrator, but wouldn't you agree that if 
we looked at the checked knives that would still be allowed, 
these screen-checked knives, which appear to be just slightly 
smaller in size than what would not be allowed, that in an 
orchestrated attack they could do great damage to our flight 
attendants and great damage to our passengers and perhaps, 
hopefully not, but great damage to people on the ground when a 
plane could be used to as a missile?
    Mr. Pistole. Well, sir if you are asking whether I think 
individuals with those small pocket knives could take over an 
aircraft, take control of it, I don't think so, because of all 
the other layers of security we have in place, including the 
thousands of Federal flight deck officers who are armed in 
cockpit, the hardened cockpit doors, the response of the 
valiant crew and the passengers who would not allow that to 
happen.
    If we had a group of terrorists if you will get on a plane 
here in the United States, without anybody else in U.S. 
intelligence, law enforcement community knowing about those, 
they haven't come up on anybody's radar, then we have had a 
failure of the U.S. National security program, rather than just 
at a checkpoint.
    Mr. Swalwell. I would just conclude, Mr. Chair, by saying, 
you know, for 11 years we have not had an incident, since 
September 11, and I think largely because of a lot of the good 
work TSA has done and so that is why I am asking, why now, and 
why do we want to go back?
    So thank you, Administrator.
    Mr. Pistole. Thank you, Congressman.
    Mr. Hudson. Thank the gentleman.
    The Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Oh, rookie mistake.
    The Chairman now recognizes the Congresswoman from Indiana, 
Mrs. Brooks.
    Mrs. Brooks [continuing]. Having been a former United 
States attorney, I actually served at the time that TSA was 
formed, and have been a member of the Joint Terrorism Task 
Force--have helped lead that effort, and have been involved 
with law enforcement and our former agency the FBI for quite a 
number of years, and have been a defender of TSA and have even 
visited TSA in my new role at the Indianapolis International 
Airport just within the last month, and visited with TSA David 
Kane running that agency there.
    I have certainly been impressed by the manner in which TSA 
and your previous agency of FBI goes about making the threat 
assessments, goes about making changes in rules and regulations 
and the amount of time and effort that goes into making those 
changes, and have incredible faith in our law enforcement 
agencies.
    I know that the Indianapolis Airport is now part of, as we 
talk about changes, whether it is in the type of items allowed, 
but you have also just started a risk-based security program as 
you have mentioned called Managed Inclusion.
    It is being piloted at the Indianapolis Airport as well as 
Tampa. Can you please expand on that a bit about Managed 
Inclusion?
    What the experience has been, what the customer experience 
has been, how it is being administered, and how it is impacting 
not only the efficiency, but what your hope is with respect to 
the safety of the passengers and of those who travel, certainly 
the pilots and the flight attendants who travel.
    How is managed inclusion brought into the whole risk 
assessment procedures that TSA is administering?
    Mr. Pistole. Well, thank you Congresswoman Brooks.
    Yes, managed inclusion is a natural outgrowth and one of 
the initiatives of risk-based security from the standpoint that 
I have heard from this committee many times and from many 
Members of Congress and the flying public, the fact that 
virtually everybody traveling every day is not a terrorist, so 
why treat them as such?
    So the idea is to have a PreCheck lane where those who are 
in PreCheck and we have had over 7 million people now go 
through PreCheck including Indianapolis and I have received 
positive reports from David Kane, the FSD there, Federal 
Security Director in terms of the interaction and hopefully you 
have had a positive experience also.
    Managed inclusion is the recognition that if we can assess 
with some confidence that travelers who are in a regular lane 
do not have an explosive device on them such as we saw in the 
video, something like that through a passenger screening 
canines who--a dog that screens basically the vapor so it 
doesn't pick up on that and then the--protection officers don't 
observe any suspicious behavior, then if the regular queue is 
busy and the PreCheck lane is not so busy, then people could be 
invited to go through that. So we started that November 1 in 
Indianapolis.
    The day before Thanksgiving, which everybody knows is a 
fairly busy travel day, at that checkpoint, of course one of 
two checkpoints in Indianapolis, we actually had 31 percent of 
the traveling public go through the PreCheck lane and again, it 
was a matter of as they went through, they are allowed to keep 
their jacket on, their belt, their shoes, their liquids, 
aerosol, gels, and their laptop in their carry-on bag.
    Then we basically asked them as they came through in terms 
of trying to get in terms of trying to get feedback from them, 
how was that--people almost unanimously said, hey great, 
appreciate this. So we give them cards, say well if you did 
enjoy this, basically as a free sample, sign up so you can have 
at least a high competency you would be able to go through that 
on a regular basis.
    So we are piloting it and we will continue that in 
Indianapolis, Tampa, and I mentioned Honolulu. We are looking 
at some other airports that it might make sense in, but it 
really helps us try to provide the most effective in the most 
efficient way for the most significant threats.
    Mrs. Brooks. Is that essentially the type of system you 
used after the Super Bowl in New Orleans and that will there be 
those types of efforts at other airports where you have large 
conventions and large gatherings of people?
    Mr. Pistole. Exactly, Congresswoman.
    So the notion that in New Orleans as I mentioned, where 
there are special events, where there is a huge influx of 
people, we actually sent in over a hundred security officers 
and then as we reconfigured the--one of the main checkpoints 
where there were six lanes to make five of them basically 
PreCheck lanes. So there, even though there are long lines with 
these 39,000 people, they, people were moving instead of just 
standing there for minutes at a time, people were moving 
virtually the entire time and got very positive feedback from a 
number of people, especially Ravens fans.
    Mrs. Brooks. Absolutely.
    Thank you very much.
    I yield back.
    Mr. Hudson. Thank the gentlelady. I see that the gentlelady 
from Hawaii, Ms. Gabbard has also joined us today. I ask 
unanimous consent that she be permitted to participate.
    Without objection, so ordered.
    At this time, the Chairman will recognize the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    Congratulations for your leadership of the committee. 
Congratulations to my friend and colleagues, Mr. Richmond for 
his service as the Ranking Member. Mr. Pistole, welcome, and as 
you know, we have had a very strong working relationship along 
with the Ranking Member over a number of years.
    I remember distinctly the creation of TSA being on the 
Select Committee on Homeland Security and I remember distinctly 
sort of directing the TSO process of recruitment to be more 
effective way before your time to reach out into neighborhoods 
across America and I think you have generated a team that is 
committed. I have supported you in your uniform change. I have 
supported you in the sense of the law enforcement concept. I 
congratulated you on the Democratic Convention and how 
professional those individuals were.
    Let me also acknowledge, Tom McDaniels, who I know is well-
trained having come from this committee who is here with you 
right in back of you.
    But let me say that process is obviously a concern and I 
have always commented that to hear an announcement in the news 
however a Member might have missed some other notice to their 
office is really both disappointing and challenging because you 
are associated with TSOs and I have spent a lot of my 
legislative career defending the competency of such.
    Let me just ask a quick question, how will sequester impact 
you--it needs to be quick--I understand there might be a 
thousand that is going out by attrition and others. Can you 
just say yes, about a thousand will go out through attrition or 
retirement?
    Mr. Pistole. Yes, about a thousand through the end of May--
--
    Ms. Jackson Lee. Will you cut any others on top of that?
    Mr. Pistole. Well so we have not put a hiring freeze on yet 
and we are just starting to limit overtime slightly but as----
    Ms. Jackson Lee. So there may be longer lines?
    Mr. Pistole. There may be later this spring clearly going 
into summer.
    Ms. Jackson Lee. When I said was sequester, no one knows 
until we get to the epicenter, the crisis, the school let-outs, 
et cetera.
    So today, as we speak and on April 1, can a mother with two 
or three children carry her bottle of water and specialty-type 
orange juice through the line?
    Mr. Pistole. No, now you say special types, obviously is 
uniquely necessary liquid----
    Ms. Jackson Lee. Well, let me just say, she likes a special 
brand, it is not sold in the concessions so these innocent 
bottles of orange juice and water cannot be taken in.
    Mr. Pistole. They cannot.
    Ms. Jackson Lee. If I was to splash a flight attendant with 
orange juice and water, and I know there are flight attendants 
there and I have great respect for them, I assume they would 
still be standing. If it was a bottle of water and I was a 
disgruntled passenger----
    Mr. Pistole. Yes, yes.
    Ms. Jackson Lee [continuing]. They would be okay.
    Mr. Pistole. Yes.
    Ms. Jackson Lee. We would think. Certainly wouldn't want 
them to be thrown but if you just took the water, they would be 
okay?
    Mr. Pistole. Sure.
    Ms. Jackson Lee. So here is the question and let me be 
above-board. You may have had a meeting with the flight 
attendants. Over the years I have introduced legislation for 
mandatory defensive training. You had an answer to a question 
that I would beg to differ. You are absolutely right, my good 
friend is going to allow me just to share his example.
    I thank him for his leadership. You are probably right, Mr. 
Pistole, that the airplane would not go down. But what you have 
is a compact area that flight attendants are dealing with 
passengers and under the new laws, no doors will be open for 
their relief.
    My question to you, I am going to either leave out the 
little manicure set, but if I was to take this knife, and I 
like my friend very much, and to go like this to him, would he 
bleed?
    Mr. Pistole. I assume.
    Ms. Jackson Lee. Would he bleed?
    Mr. Pistole. If you are saying you stabbed him?
    Ms. Jackson Lee. That is correct.
    Mr. Pistole. Yes.
    Ms. Jackson Lee. All right.
    Mr. Pistole. I assume he would bleed.
    Ms. Jackson Lee. So what we would have is either an 
organized series of activities that might injure every single 
flight attendant that is on that plane making that plane almost 
a moving disaster target.
    Now we know that we have some very energetic passengers 
potentially that would come to the aid of these flight 
attendants. But as far as I am concerned it would be a 
demobilized and a crisis situation that would occur and I 
understand the logic that says my TSOs have more important work 
to do. But my concern is, if it can injure then it is a 
problem. Your suggestion is that these are not eligible because 
they equate to something that could be explosive.
    Some years ago we were talking about technology to detect 
what this might be. I am sorry we didn't get to that point. But 
the very fact that we have--and I will not do anything to my 
good friend--let me clear the record, nor would I do anything 
on an airplane.
    But we cannot in any way suggest that someone with some 
sort of mental illness, some sort of situation that brings 
about a tragedy, some series of incidences that we have had 
with a airline pilot who had some sort of medical emergency 
that required him to be tied down and as I--as I know, let me 
just say this, generally speaking, domestic flights--generally 
speaking, air marshals are there but no one knows what the 
schedule is. I just want to leave it at that. Is that accurate 
sir?
    Mr. Pistole. Yes ma'am.
    Ms. Jackson Lee. All right.
    So here is my final point to the Chairman. A final point 
is, it is very difficult for me to believe that we don't have 
mandatory training for our flight attendants, that the solution 
will be that we will add voluntary hours, and you can answer me 
whether you have the money to voluntarily train them I am not 
sure, I know it is an airline issue, but that the fact that 
that you are allowing a weapon that can cause a terrible injury 
and you are allowing it to come on without pausing for a moment 
with the concerns of Members of Congress.
    I would like this to go back to the drawing table and I 
would like Congress not to have to have to introduce 
legislation, though I intend to do so for that reason. You need 
to stop this now. These cause bleeding, these cause injury, 
these can cause a terrible tragedy and I don't want to take it 
to the next length, it can possibly cause someone to lose their 
life.
    Mr. Pistole. If I may respond.
    Mr. Hudson. Yes, thank the gentlelady and I will allow the 
administrator a brief moment to respond.
    Mr. Pistole. Yes, and first, Congresswoman, let me thank 
you for your strong support for the workforce at TSA. You have 
been a true champion of the workforce throughout your tenure, 
so thank you for that.
    I think there is a fundamental disagreement of philosophy 
as to whether TSA should be responsible for disruptive 
passengers who are not terrorists, so I view what the enabling 
legislation of TSA and our mandate is to keep terrorists off 
planes. So whether the object as I had for almost 27 years as 
an FBI agent having a weapon on me, a hand gun when I traveled 
because I was authorized to carry that, that not of concern 
because my--there was no intent to do harm.
    If the suggestion is that we should somehow be able to 
screen for mentally and unbalanced or people who drink too much 
on flights and to try to keep them off the plane, I believe 
that is outside the scope of our mandate and we sure don't have 
the budget to do that. So, I don't think you are suggesting 
that but I just wanted to be clear that that is not what we are 
focused on.
    The fact is, there are so many objects already on flights 
that can cause the type of harm you are talking about, my 
question would be what is the intent of the person with that 
dangerous object? If it is a person as you describe versus a 
terrorist, then it is a challenge and I think it is a good idea 
to work with the airlines to provide additional training on a 
four flight crew, everybody involved and we do not have the 
funding for that.
    Thank you.
    Mr. Hudson. I thank the administrator for the answer.
    We understand we have a hard stop at 4:30 and so I want to 
get through Mr. Payne and Ms. Gabbard's questions, and my hope 
is we can get through a second round as quickly as possible.
    Ms. Gabbard. I thank the Chairman.
    Mr. Hudson. At this point, the Chairman recognizes the 
gentleman from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I would like to thank the Ranking Member, Mr. Richmond on 
the committee, and also the Ranking Member of the whole 
committee, for being here.
    You know, in just listening to you, Mr. Pistole, you know, 
I don't remember hearing you say that the TSO has more 
important things to do, but, you know, I don't think there is 
anything more important than making sure and securing the 
safety of passengers. Irrespective of what size the knife is, I 
think it is a flawed policy.
    If for the reasons that you must mentioned, why give anyone 
another opportunity if they are intoxicated, if they are 
mentally ill, to--for them to be in the position to have 
something that they then could use is a problem. So--but that 
is not my main focus. The committee has done a great job in 
bringing that issue to light.
    I represent the 10th Congressional district of New Jersey 
that includes Newark Airport, which has unfortunately had a 
troubling security record over the last several years. It is 
interesting, you know, one of the planes that emanated in 9/11 
came out of Newark, and the reason that this committee exists 
now because of that tragic event, you know, 11 years ago.
    Major security breaches continue to occur there. So I am 
deeply concerned that the proper resources are not being 
allocated to Newark Liberty, and that insufficient training is 
being--is not being conducted to ensure that TSA management has 
the resources and the ability what was necessary to make travel 
safe and secure for the people in my district and the millions 
of people who use that airport every year.
    You know, these breaches are nothing less than alarming. 
Just last week, the press reported on some very disconcerting 
results of a covert so-called ``red team'' test that was 
conducted by TSA at Newark International Airport. It was 
reported that the TSA had failed to detect a fake bomb being 
carried through the airport by an undercover TSA investigator.
    Now, in its response to this, TSA stated that due to the 
security-sensitive nature of these tests, TSA does not publicly 
share the details about how they are conducted and what 
specifically is tested or the outcomes.
    You know, nevertheless, you know, I opened a newspaper 
today to read another report stating TSA does not report all 
incidents to its management and that Newark Airport is one of 
the worst offenders.
    Now, if the details of security-sensitive-nature tests are 
not being released to the public, I want to know how I read 
this in the press. So my first question to you is: What is 
being done to make sure that these major breaches at one of the 
most busy airports in the Nation are not reoccurring?
    Mr. Pistole. Thank you, Congressman.
    First, we have a strong Federal security director there, 
Don Drummer, who works closely with the Port Authority police. 
I met with Mr. Foye--the head PAP--Pat Foye last week and head 
of security with the Port Authority in New York to go over some 
of those issues, because we have had some incidents at Newark.
    The whole purpose of the red team testing--those are our 
folks who I would describe as ``super terrorists,'' because 
they know exactly what the technology's capabilities are of 
detection. They know exactly what our protocols are. They can 
create and devise and conceal items that only the best 
terrorist in the world would be able--not even the best 
terrorists would be able to do. So these are super terrorists 
in terms of covert testing.
    I would be glad to give you--show you the exact item that 
was used in that covert testing. I did that yesterday with the 
flight attendants' representatives in a classified setting. So 
you can see what the object is and how it was concealed. I will 
tell you exactly what happened. We just don't publish that 
because we don't want terrorists to----
    Mr. Payne. I am not very concerned about what the item is. 
I am concerned how it got through.
    Mr. Pistole. Well, I think if you saw the item and got a 
description of what the covert test was, you would have an 
appreciation for how it got through and where we did not do the 
job we should have. So we give immediate feedback to the 
security officer who was close, but missed it. Then we then use 
that as a training tool for the rest of our workforce.
    Mr. Payne. So, you know, I am very concerned about the 
press getting this if it is a covert operation. You know, 
terrorists read newspapers as well.
    Mr. Pistole. I am concerned about that also, Congressman. 
That--they should never become public. Somebody leaked that 
information. I don't know who. We are looking into that. If we 
find out who leaked that information, whether it was a TSA 
employee or another agency, there is a number of--we did--that 
happened on February 9, and then it was briefed 2 weeks later. 
It was the day of the briefing to a number of people where it 
got leaked to the New York Post.
    Mr. Payne. Okay.
    Mr. Hudson. I thank the gentleman.
    Mr. Payne. I yield back.
    Mr. Hudson. The Chairman now recognizes the gentlelady from 
Hawaii, Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman. Thanks to 
you and the Ranking Member and Members of the committee for 
allowing me to participate.
    I just have one question. I will try to keep it brief.
    Administrator Pistole, thanks for being here.
    In your prepared testimony, you cited TSA's efforts to 
expand active military members' access to PreCheck. I applaud 
this effort. I have had the honor and privilege of serving with 
many amazing heroes in our country, but have some concerns that 
have been brought up by the Wounded Warrior Project that the 
screening of severely injured and disabled service members and 
veterans is frequently a confusing and humiliating process.
    The screening that we have heard is often inconsistent with 
published TSA protocols and results in some negative 
experiences for these great individuals, such as removing 
clothing items, belts or shoes can be difficult with someone 
who has lost an arm or a leg, for example. We have also heard 
of complaints about the--scope--which your screeners use, that 
it can be viewed by others, and veterans being asked to remove 
clothing in front of other travelers or remove their 
prostheses, despite guidance that the screening can be done 
without that removal.
    So I am aware of the call center that has been established. 
Two questions--I am curious how many people actually use the 
call center, as well as besides that what is being done to 
ensure that they receive a screening experience that is 
dignified?
    Mr. Pistole. Well, thank you, Congresswoman, for your 
interest. I share your concern about the way we treat these 
heroes. We are making progress in terms of how we deal with 
wounded warriors, particularly--local here, where they are 
released from Walter Reed and they go to Reagan or Dulles 
Airport and it is their first flight.
    We do have much improved protocols there because we see a 
number of wounded warriors. Part of our challenge is around the 
country, and in Honolulu, I will take a look at that.
    I don't know the answer--the number off-hand in terms of 
the call center. We do receive most of the calls are questions 
of information, rather than complaint. I would be glad to share 
that with you. I just don't have those details.
    We are putting out a new overall policy and protocols for 
persons with disabilities which could encompass a wounded 
warrior. So anybody with a medical situation, anything that 
could be considered out of the norm where they may need 
additional assistance, customer engagement, we have in all 450 
airports designed what we call ``passenger support 
specialists.'' This is something Congress urged us to do a 
couple of years ago. We have put that in place now.
    So there is an individual at every airport that can--is 
there to assist, particularly the wounded warriors who need 
that.
    I am given a note on the call center. In fiscal year 2013 
thus far, we have had 20,000 calls. I would be glad to give you 
a breakdown of that.
    Ms. Gabbard. Thank you. I would appreciate that information 
mostly because, as you said, this may be working for the first 
flight, for people who are leaving the hospital and making 
their way back home. But as you know, these are people who are 
facing incredible challenges for prolonged periods of time, not 
only for themselves, but for their families, and should not be 
subjected to this type of treatment.
    Thank you.
    Mr. Hudson. I thank the gentlelady.
    We are up against a 4:30 hard stop. We will try to get in a 
second round of questions here. I will begin by recognizing 
myself.
    Administrator Pistole, it appears to me that every year, 
even with budget cuts, the number of personnel at TSA continues 
to grow. Just last week, we also saw on the news an order for 
$50 million in new uniforms that were partially made in Mexico, 
and learned that as part of the union-led agreement, the 
Transportation Security Officer's uniform allowance nearly 
doubled to $446 per year, which is more than the basic uniform 
allowance for service members in the Army, Air Force, Coast 
Guard, and Marines and Navy.
    This leads me to wonder, is risk-based security failing to 
work? Or are we ignoring the efficiencies that it is supposed 
to bring about?
    Mr. Pistole. Thank you, Chairman.
    First, that we had a contract expiring February 17 on the 
uniforms. DHS writ large started an initiative 2 years ago, I 
believe it was, for all departments of officers with uniforms 
to have a consolidated contract to achieve efficiencies and 
save money. That is still in process, so we had a contract 
expire on February 17.
    The $50 million is actually the cap for 2 years, rather 
than what has been reported that--for 1-year cost. So that is 
for 2 years. It is up from 2012. Part of that is because of the 
collective bargaining agreement. We did increase the uniform 
alliance. That is one of the 11 items that we agreed to 
negotiate with the union on.
    So we did give them an additional allowance. It is still 
well below the OPM allowance, the overall allowance. I have a 
chart that I would be glad to share with the subcommittee 
comparing it to DOD in terms of officers and enlisted and how 
that all comes out. There has been a lot of misreporting on 
that, I will say, and so we will be glad to give you the 
figures to address--exactly address that.
    So I share your concern about the costs and will look to 
keep that in line.
    Mr. Hudson. But in terms of personnel growth, is it that 
risk-based security is not working? Or is it that for some 
reason we haven't seen the ability to find efficiencies?
    Mr. Pistole. No. Actually, we have found efficiencies. I 
will say there was a significant increase between 2010 and 
2011. Also in 2011, we had additional officers which was a 
response--administration-Congressional response to the 
Christmas day attack of 2009. Then additional advances in 
technology and staffing to try to detect those nonmetallic, 
along with VIPERs, K-9s, and inspectors. So those were all 
things that were added to our budget so then that was--we have 
the increase from that.
    So that was really the defining point. I do expect to see 
some efficiencies down the road as risk-based security matures 
and we are able to put more people through the PreCheck lanes. 
I just don't have the figures for you now, but I look forward 
to working with you on that.
    Mr. Hudson. Absolutely. That will be my interest, as well 
as looking for ways to find these efficiencies to reduce the 
cost to the taxpayer as we get smarter and leaner at what we 
are doing, so thank you.
    I am gonna yield back the balance of my time to allow the 
Ranking Member an opportunity to follow the question.
    So at this time, I recognize the gentleman from Louisiana, 
Mr. Richmond.
    Mr. Richmond. Administrator Pistole, what I will do is just 
ask all of my questions up front so that you can answer them, 
and I will try to leave some time for the Ranking Member of the 
full committee. I will leave some time for him, but, like I 
say, the Ranking Member of the full committee.
    Going back to what Congresswoman Gabbard said about our 
wounded warriors, if there is any set of people in this country 
that deserve to have their own PreCheck, Trusted Traveler, or 
Global Entry, then it is our wounded warriors. Then I would 
just ask that we consider putting them in a Trusted Traveler or 
PreCheck so that they don't do it.
    I have personally witnessed it happen to wounded warriors. 
It is not something that they deserve. I know that you share 
that sentiment.
    Mr. Pistole. I would agree.
    Mr. Richmond. So I am asking that we really look into 
figuring out a program for them, whether it is a pilot, whether 
it is including them in another.
    In with that, I have been getting a lot of complaints from 
my local airport about the treatment of TSA officers that are 
there. I know that there are some EEOC complaints and some 
others.
    I think that in the court documents, you have--your office 
has argued that you all are exempt from a lot of those 
employment laws. Besides--can you give me a list of the ones 
that you think you are exempt from?
    Mr. Pistole. I am not sure what the individuals will be 
referring to, Congressman. When Congress created us and the 
administration created us, they did create us as a hybrid or a 
unique organization that was not necessarily Title V, the 
normal employment rules in there.
    We have been in discussions about other opportunities for 
employees, and I would have to look at in detail what they 
would be referring to.
    Mr. Richmond. Well, I will get you that list. I will also 
get you a letter detailing the complaints that I have received 
from my local agents as I walk through the airport. Now it is 
turning into e-mails and phone calls about just unfair work 
conditions and harassment and retaliation.
    I would just give you an example, because I think Super 
Bowl was a phenomenal success.
    Mr. Pistole. Thank you.
    Mr. Richmond. The airport and TSA provided the workers on 
the line with water. The water was 3 years old. It was visibly 
dirty from storage. So that I think is just an unacceptable 
treatment for people who are really working very hard and who 
are partners with us.
    So I will get you a list. I don't want to take any more 
time because I want the Ranking Member to have it. But I would 
like a response to those when I get it to you.
    Mr. Hudson. I thank the gentleman.
    The Chairman now recognizes Ranking Minority Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for any questions he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Pistole, last Congress this committee identified a 
security gap that would allow an individual on the no-fly list 
to take flight training on a plane with a maximum take-off 
weight of more than 12,500 pounds.
    I would like to have the clerk put on the screen a 
situation that occurred in 2010 in Austin, Texas, what happened 
when a plane hit buildings like that.
    Is that still the case today?
    Mr. Pistole. So, there have been steps taken under risk-
based security to assess vulnerabilities and the consequences 
of something like this happening.
    As I recall now, the Cessna single engine may be 3,000 
pounds or something. So, what we have done is work with FAA to 
limit the time that a person would be able to be FAA--get an 
FAA airman certificate before they would be able to solo. Then, 
of course, they have the medical exam requirements.
    So that time is down to within a few days.
    But, to answer your question, yes, there still is a--a gap 
there that somebody--a U.S. citizen, not a non-U.S. citizen--a 
U.S. citizen could--but they would not be able to solo. They 
would be with a flight instructor. So a lot of the issues that 
were raised previously have been addressed, but there is still 
that--issue.
    Mr. Thompson. I can appreciate it. But right now, we can 
train a person to fly who is on the no-fly list. There is 
nothing to prevent us from training.
    Mr. Pistole. So they could be trained in the sense that 
they would be with an instructor and then they would submit 
their application or they could get the temporary FAA 
certificate. But they would not be able to solo. They would not 
be able to----
    Mr. Thompson. I understand. But if I am a bad guy, I don't 
need the certificate or anybody else. You have taught me how to 
fly the plane.
    Mr. Pistole. Yes.
    Mr. Thompson. I am on the no-fly list.
    Mr. Pistole. Yes.
    Mr. Thompson. At this point, that is still the case.
    Mr. Pistole. That is the case. That still is an issue that 
has to be addressed.
    Mr. Thompson. What is your plan on addressing it?
    Mr. Pistole. Yes, so, it is--out there and I welcome 
Congress' look at how that could be addressed. But it really is 
a matter of the timing of making sure that the check against 
the terrorist watch list is done prior to certification.
    Mr. Thompson. Can you just set a policy that----
    Mr. Pistole. Well, sir, FAA also, so we need to work with 
FAA. We can set the policy but they are the ones who issue the 
certificate.
    Mr. Thompson. So, are you prepared to tell the committee 
that since we can train somebody to fly who is on the no-fly 
list, it is your recommendation that that person not be allowed 
to fly unless they are first pre-cleared to not be on the no-
fly list?
    Mr. Pistole. Well, that would be the best security. There 
is a lot of aspects to that.
    Mr. Thompson. I guess I am not trying to do semantics, Mr. 
Pistole. Right now, some of us see that as a problem, that we 
can still train people to fly who are on the no-fly list. I 
think if that requires legislation, which it should not, and I 
think we will talk to you and people at the FAA to see if we 
can get it resolved.
    Mr. Pistole. So far, you have just addressed that briefly. 
The other aspect, which you are not asking about, but is the 
intelligence collection which a no-fly person----
    Mr. Thompson. I asked the question that I wanted to. It 
doesn't matter whether I didn't ask about anything else.
    Mr. Pistole. I was offering additional information that may 
help----
    Mr. Thompson. That is fine. All I want to know is: Do you 
train people to fly who are on the no-fly list? The answer I 
would assume is yes.
    Mr. Pistole. Some private flight schools can train anybody 
who comes in.
    Mr. Thompson. That is fine.
    Mr. Pistole. Hopefully, if they are on the no-fly list, my 
former organization, Joint Terrorism Task Force, would know 
that person is going to a flight school, and that is my point.
    Mr. Thompson. Right, Mr. Chairman, do you plan to cooperate 
with EEOC on their investigation with TSA?
    Mr. Pistole. We have been cooperating. We plan to continue 
cooperating on whatever issues there are.
    Mr. Thompson. Thank you.
    Mr. Pistole. Thank you.
    Mr. Hudson. I thank the gentleman, I thank Administrator 
Pistole for his testimony, and Members for their questions. 
Members of the committee may have some additional questions for 
the witness, and we will ask that you respond to these in 
writing.
    Without objection, the committee stands adjourned.
    [Whereupon, at 4:33 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairman Richard Hudson for John S. Pistole
    Question 1. As you know, this subcommittee has previously expressed 
interest in the status of the Repair Station Security Rule that has 
been pending now for a decade. The consequence of this Government 
inaction and the subsequent ban on FAA's ability to certificate new 
foreign repair stations impedes U.S. manufacturers' and aviation 
maintenance companies' ability to compete in the global marketplace. At 
the same time, TSA in 2011 communicated to industry that the rule would 
be completed in the fourth quarter of 2012. It is the committee's 
understanding that TSA had sent the rulemaking to DHS late last summer 
and DHS finished their review of the rulemaking early this year. 
According to the Office of Management and Budget, however, they have 
not yet received the rule. What is your understanding of the status of 
this rulemaking? Should we ask for a time frame?
    Answer. Response was not received at the time of publication.
    Question 2. We've heard positive feedback from the air cargo 
industry about TSA and CBP's Air Cargo Advance Screening pilot. Can you 
provide us an update on that program? Are you close to issuing new 
regulations?
    Answer. Response was not received at the time of publication.
    Question 3a. You recently said that by the end of this year, 25 
percent of all travelers would be eligible for some form of expedited 
screening.
    How confident are you that TSA will achieve that goal?
    Answer. Response was not received at the time of publication.
    Question 3b. Can you explain how you intend to reach the 25 
percent?
    Answer. Response was not received at the time of publication.
    Question 3c. What percentage of passengers currently goes through 
expedited screening?
    Answer. Response was not received at the time of publication.
    Question 3d. How many PreCheck airports will there be by year 2014?
    Answer. Response was not received at the time of publication.
    Question 4. We've received notification that NetJets and several 
other charter companies have had difficulty or have been denied from 
joining the Known Crewmember Program despite the fact that they must 
undergo the same rigorous safety training and background checks as 
commercial pilots. Can you provide this committee with information 
regarding the reasoning behind TSA's decision to exclude these 
particular groups?
    Answer. Response was not received at the time of publication.
    Question 5. Furthermore, there have been reports of harassment and 
invasive searches performed on these pilots as a result of their 
appearance as commercial air crew, but inability to prove Known 
Crewmember status. In several cases at White Plains, NY, Columbus, 
Ohio, and Manchester, NH, it appears as though there has been a 
concerted effort by TSA to single out NetJets' pilots, even going so 
far as to humiliate them by announcing their arrival at security over 
the terminal's PA system. Can you assure this committee that you will 
look into these reported incidents and that if they have occurred you 
will work to rectify the situation?
    Answer. Response was not received at the time of publication.
    Question 6. Don't you think it's a little confusing to have so many 
trusted traveler-type programs within the Department of Homeland 
Security? I count 7--PreCheck, Active Duty Military, People under 12 
and over 75, Known Crewmember, Global Entry, NEXUS, and SENTRI. 
``Global Entry Light'' makes 8. Has there been any effort to 
consolidate these programs?
    Answer. Response was not received at the time of publication.


 TSA'S EFFORTS TO ADVANCE RISK-BASED SECURITY: STAKEHOLDER PERSPECTIVES

                              ----------                              


                        Thursday, April 11, 2013

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:03 p.m., in 
Room 311, Cannon House Office Building, Hon. Richard Hudson 
[Chairman of the subcommittee] presiding.
    Present: Representatives Hudson, Rogers, Brooks, McCaul, 
Richmond, Jackson Lee, Swalwell, and Thompson.
    Mr. Hudson. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order. The 
subcommittee is meeting today to hear testimony from 
transportation security stakeholders on TSA's risk-based 
security programs. I now recognize myself for an opening 
statement.
    I would like to thank our distinguished panel of witnesses 
for taking the time to prepare for and participate in this 
hearing. TSA's risk-based security has many stakeholders, all 
with a vested interest in seeing continued security and 
efficiency success. These include domestic and international 
airlines, airports, flight crew personnel, passengers, State 
and local governments, freight forwarders, manufacturers, and 
many others. The purpose of this committee is to provide an 
open process for these voices and many others.
    Stakeholders across the board have been very vocal about 
the changes that TSA is making to its operations, and today's 
hearing represents just one of many opportunities to examine 
these alterations. While today's time frame does not allow for 
every group to be represented on the panel, we have invited 
several to submit a written statement for the record.
    We all may not agree on the decisions that should be made, 
but I hope we can all agree that these are incredibly important 
discussions and debates that we are engaged in. Moving forward, 
I hope that we will continue to work together in order to 
better understand how we can improve passenger safety, ease of 
travel, and ultimately implement leaner, more efficient 
policies throughout the system.
    One of the key ways to accomplish this is to work directly 
with TSA to ensure that expectations are met and standards 
assured. However, for this to occur, TSA must become more 
transparent and communicate more effectively. This will allow 
travelers and all stakeholders to gain a greater understanding 
of why they are being subjected to one type of screening versus 
alternate methods, for example.
    Carie Lemac, whose mother, Judy Larocque, died on American 
Airlines Flight 11 on September 11, made a critical point in a 
recent op-ed. She said, and I quote: ``When travelers are aware 
that the threat is real, they are the largest and most likely 
effective group of behavior detection officers we can hope for. 
But right now, they are not aware.''
    TSA's failure to work with all stakeholders and effectively 
message new policies has consistently led to pushback. This 
particular snag is where TSA has repeatedly demonstrated a 
lackluster performance.
    At this time, I would like to submit Ms. Lemack's op-ed, as 
well as a written statement from Ms. Lemack, for the hearing 
record. Without objection, so ordered.
    [The information follows:]
         Editorial Submitted For the Record by Chairman Hudson
         carie lemack: tsa's knife reversal is part of its job
TSA's decision to remove some banned items is less important than 
        behavior detection.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Carie Lemack, March 14, 2013.--Last week, the Transportation 
Security Administration announced its decision to allow weapons onto 
planes. A little more than a decade has passed since terrorists boarded 
the same flight as my mom, Judy Larocque, and used box cutters as their 
weapon of choice to begin the deadliest attack on our Nation's soil. 
Now TSA officials are permitting passengers to carry on small blades, 
bats and other potentially deadly items. Have they forgotten?
    The answer is, no.
    TSA, like so many of us directly affected by 9/11, operates with 
the memory of the attacks etched into every fiber of the organization. 
At first glance, I want to condemn its officials for allowing weapons 
back on planes. But I am obliged to understand the reasoning behind the 
changes, and perhaps more important owe it to my mom and to the many 
others who were lost, to support efforts to improve our Nation's safety 
and security, even when it is uncomfortable to do so.
    It is far too easy to decry TSA's changes to the prohibited list of 
items allowed to be brought onto a plane, though some have good reason 
to do so. I do not fault flight attendants and others who feel their 
safety and security are at risk, because it is. However, it is not 
TSA's role to remove all threats to people on planes.
Role of the agency
    According to its website, TSA ``was created to strengthen the 
security of the Nation's transportation systems and ensure the freedom 
of movement for people and commerce.'' As officials have repeatedly 
claimed, their goal is to prevent a catastrophic attack, not one that 
affects a handful of people. Not much comfort to a flight attendant 
accosted by an unruly passenger with a newly approved small blade, but 
then again, any sharp object, be it a pen or a first-class passenger's 
metal silverware, can be used to cause harm by someone bent on doing 
so.
    And that is the crux of the issue. For years, security experts have 
been calling for ``risk-based'' approaches to aviation security. Focus 
on keeping the bad guys off the plane, not the bad items. It's how the 
Israelis, largely considered the gold standard in aviation security, 
have been doing it for decades.
    In my view, perhaps the biggest challenge posed by the change in 
the prohibited items list is that of the message it sends to other 
travelers. Too many think the changes reflect a decrease in the threat 
to our aviation sector. This is simply not true. But too little 
attention is paid to reminding people (without scaring them) that 
dedicated terrorists remain determined to strike at American aircraft.
    Remember Richard Reid (more commonly known as the ``shoe bomber''), 
or Christmas day 2009 (when the so-called underwear bomber tried to 
blow up a plane over Detroit), or the cargo planes scheduled to 
transport doctored printer cartridges, timed to explode over U.S. 
airspace, had the plot not been thwarted at the last second.
Public awareness
    All risk-based approaches to security are founded on behavior 
detection. When travelers are aware that the threat is real, they are 
the largest and likely most effective group of behavior-detection 
officers we could hope for. But right now, they are not aware. And this 
is where TSA has fallen down on the job.
    If TSA wants to focus on a risk-based approach to security, 
allowing certain weapons on planes is not the complete picture. It 
needs a full cadre of specially trainer officers (today fewer than 10% 
of screeners are fully trained in behavior detection) and system-wide 
adoption of the technique (currently, only a handful of airports fully 
utilize the system).
    But perhaps most important, officials need to clearly inform the 
American public that the threat is real, and that it will take each of 
us doing our part to defend against it. Whether it means paying more 
attention in public areas, being prepared when going through security 
lines so the officers can more efficiently do their jobs, or advising 
authorities when spotting something that does not look right, we all 
need to chip in. And if we do, let's just hope we can be ready should 
someone decide to pick a knife fight in the sky.
    Carie Lemack is a daughter of Judy Larocque, who was killed on 
American Airlines Flight 11, and director of the Homeland Security 
Project at the Bipartisan Policy Center.
                                 ______
                                 
    Statement of Carie Lemack, Director, Homeland Security Project, 
  Bipartisan Policy Center and Daughter, Judy Larocque (passenger on 
                                 AA11)
                             April 11, 2013
    Mr. Chairman, Ranking Member Richmond, Members of the committee, I 
appreciate the opportunity to submit my thoughts on the need for the 
Transportation Security Administration (TSA) to conduct risked-based 
security, as well as the need for thoughtful public discourse by our 
lawmakers and all stakeholders on the issues surrounding the safety and 
security of the American people.
    The recent proposed changes to the prohibited item list (PIL) and 
the ensuing outcry from certain stakeholders remind me how important it 
is that we not allow our emotions nor complacency to restrict us to a 
narrow view of what transportation security needs to be. Rather, our 
safety and security depend on keeping the big picture in mind, on 
remaining vigilant to the constant, real, and ever-evolving threat our 
transportation sector faces.
    Sadly, my family knows far too well what happens when complacency 
and a narrow view of what can happen dictate how we handle security. On 
the morning of September 11, 2001, the morning that my mom, Judy 
Larocque boarded American Airlines 11, the prevailing views were that 
hijackings were crimes committed by political activists, not suicide 
bombers. We now realize that the threat is far greater than to those 
who simply work and travel on aircraft. The threat whose last line of 
defense is at an airport security checkpoint is against thousands of 
innocent people potentially hundreds of miles from the airport itself.
    I never expected to become an expert in aviation security, and 
would gladly have traveled down another career path, one my mom would 
have supported and cheered me on in. I do not have that luxury. Today 
my sister and I have to live a life without my mother. Mom will never 
know her grandchildren. She will never give us another hug, nor ever 
say our names again.
    It is because of what happened to her that I am submitting 
testimony today. Transportation security is too important to allow 
politics or misunderstandings to come in the way of what is best for 
the American public. It disheartens me that the discourse I have seen 
since the proposed PIL changes were announced are not as productive as 
I hope they could and should be.
    TSA is proposing to allow small blades on planes. When I first 
heard the news, I admit I was shocked. But I have met with many 
Transportation Security Officers (TSOs), many officials who work at TSA 
headquarters, and even two TSA administrators. I know these people on 
the whole to be as concerned with the safety and the security of the 
American public as I am. They are intelligent individuals who I believe 
would not want to endanger the traveling public. I decided not to let 
my initial emotional reaction be the only thing to color my view of the 
change.
    So I listened and learned. I found out that the new PIL would be 
more in line with international regulations, though more strict. Having 
flown on a large number of international carriers around the globe, I 
recognized that if I had not let their standards affect my willingness 
to fly then, why would I change my mind now?
    I also realized that while it felt uncomfortable to say ``knives 
will be back on planes'', the reality is, they are already are. First-
class passengers receive knives with their meals. Knitting needles, 
tweezers, and so many other sharp objects are permissible under today's 
standards. And, as we all know, it is simply a fact that an active 
imagination can turn even the most innocuous-seeming object on an 
aircraft into a lethal weapon, should they have the intent.
    And that is how I ultimately came to my most important decision--
the only way to have truly risk-based security is to focus on the 
dangerous people, not just the dangerous objects. I cannot claim to 
have invented this notion. As anyone who has flown into or out of Ben 
Gurion Airport outside of Tel Aviv knows, this is exactly how the 
Israelis handle transportation security. Risk-based security is a 
method that, to date, has worked with great success for them and can in 
the United States as well if given the chance and resources.
    However, this approach is neither simple nor inexpensive. TSOs need 
proper training. Currently, less than 10% of the work force has had 
such training, and behavior detection, as this type of security is 
called, is implemented in only a handful of airports. I hope this 
committee will focus on the need for more training and for broader 
implementation of the one method that, if correctly executed, is 
considered to be the gold standard of aviation security.
    It saddens me that so much of the rhetoric surrounding the proposed 
changes to the PIL has focused on whether or not small blades can cause 
harm. Of course they can. No one disputes that. Does a flight attendant 
have every reason to worry about an unruly passenger assaulting him or 
her with a blade? Of course he or she does. But that threat already 
exists, and will continue to exist even if all blades are banned. There 
are simply too many ways one can hypothesize that a member of the 
flight crew or a passenger could be harmed on an aircraft for that to 
be the discussion.
    TSA's role is ``to strengthen the security of the Nation's 
transportation systems and ensure the freedom of movement for people 
and commerce.'' Even the 9/11 Commission, led by Governor Tom Kean and 
Congressman Lee Hamilton, now co-chairs of the Bipartisan Policy 
Center's Homeland Security Project, recognized the need to focus on the 
threats to the entire aircraft, recommending in their report that ``The 
TSA and the Congress must give priority attention to improving the 
ability of screening checkpoint to detect explosives on passengers'' 
(The 9/11 Commission Report: Final Report of the National Commission on 
Terrorist Attacks Upon the United States: Official Government Edition, 
2004).
    While no one wants to see anyone injured on an aircraft, least of 
all those whose job it is to keep people safe, TSA simply cannot 
protect against every conceivable type of possible injury. Rather, TSA 
is looking to prevent catastrophic attacks, and they have come to the 
reasoned decision that those items proposed to be taken off the PIL 
cannot cause a catastrophic attack. I note that the box-cutters and 
mace instrumental to the attack on my mom's plane remain on the PIL.
    I may be naive, but I remain hopeful that ALL stakeholders (and I 
believe that is the entire American public) can agree that TSA has a 
very difficult, but important job, and that we all must come together 
to help them do it. If we disagree with a decision, we need to come up 
with a practical solution to the issue being addressed, not just 
complain. Instead of mocking the men and women who chose to be on the 
front lines of transportation security on shows like ``Saturday Night 
Live'' (something I will note would never be acceptable to do to other 
law enforcement or military personnel), we need to stand with them and 
accept that our safety and security is something we all need to be 
engaged in.
    Finally, we need to remember that the threat facing our 
transportation sector is very real. While Richard Reid (who you might 
remember as the failed shoe bomber), Umar Farouk Abdulmutallab 
(otherwise known as the ``underwear bomber''), and Ibrahim Hassan al-
Asiri (the al-Qaeda explosives expert believed to have constructed the 
printer cartridge bombs in 2010) may not be household names, their 
colleagues are still bent on causing destruction to American aircraft 
and American lives. We cannot rest on the success of TSOs, intelligence 
officials, and countless others who have kept us safe since the day my 
mom boarded AA11--we must be one step ahead of those looking to board 
future flights with intent to harm. We need to unite as a Nation in 
this effort, and remember that we are all on the same side. I am 
grateful for the time and effort that you and your dedicated staff are 
devoting to this most important issue and thank you for the opportunity 
to contribute to this hearing.

    Mr. Hudson. Every day, TSA's operations impact millions of 
travelers directly through their screening operations, but 
there are millions more Americans whose taxes help fund TSA, 
even if they have never set foot inside an airport. As an 
advocate for my Congressional district, for example, as all of 
us up here, we represent approximately 750,000 potential 
fliers. The Charlotte Douglas Airport, right outside my 
district, saw over 41 million travelers in 2012.
    Helping to facilitate this travel in a safer, easier way 
benefits everyone. Whether it is a business transporting 
freight, families taking a vacation, a salesman traveling for 
work, or Grandma trying to visit for the holidays, beyond the 
dollars and cents, there is a human element to risk-based 
security, or RBS.
    With that in mind, I make some specific points, and I look 
forward to discussing these and other issues in great detail 
today. No. 1, RBS is in desperate need of private-sector 
ingenuity. Take PreCheck, for example. The administrator's goal 
is to have one in four travelers go through some form of 
expedited screening by the end of the year. While this is 
certainly a worthy goal that I support, the Federal Government 
simply can't do it alone.
    Marketing the programs to travelers, streamlining agency-
wide operations, and simplifying the screening experience will 
take private-sector innovation. TSA must be willing to partner 
in order to reach this goal.
    No. 2, these programs allow our screeners to be more 
efficient. Spending less energy on those that are low-risk 
means that screeners are able to spend more time looking for 
those items that present the greatest threats to passengers and 
crewmembers. RBS allows us to prioritize in a manner that 
better ensures security while easing the burdens on travelers, 
businesses, and screeners.
    No. 3, we must find a way to conduct screening at a lower 
cost. Risk-based security is not only about targeting resources 
towards the threats; it is also about reducing wasteful 
spending on screening low-risk people and goods.
    We must look for efficiencies in the current system, and 
while many have been proposed by experts and the Government 
Accountability Office and other groups, and through such 
programs as the Screening Partnership Program, there remain 
several recommendations that deserve to be fully evaluated. The 
bottom line is, TSA must do a better job of generating tangible 
cost savings as a result of risk-based security.
    Yesterday, Congress received the President's fiscal year 
2014 budget, which included $7.4 billion for TSA. While I am 
pleased to see that there is a slight reduction in the current 
funding levels, given our fiscal situation, as well as a strong 
emphasis on risk-based security on the budget, I am 
disappointed that TSA was unable to find more significant cost 
savings overall. I believe risk-based security is an excellent 
opportunity for finding efficiencies and saving tax dollars. I 
intend to press TSA on that issue and look forward to our 
witnesses' testimony and perspective on that, as well.
    The Chairman now recognizes the Ranking Minority Member of 
the subcommittee, the gentleman from Louisiana, Mr. Richmond, 
for any statements that he may have.
    Mr. Richmond. First, let me thank Chairman Hudson and the 
Ranking Member of the full committee, Mr. Thompson, from 
Mississippi, for their work and leadership that they have 
provided.
    I want to welcome the witnesses today, because you all are 
the stakeholders in TSA's risk-based screening effort, and I 
look forward to hearing your thoughts. One of the things that I 
try to pride myself on is knowing what I know, but more 
importantly, knowing what I don't know and relying on those 
people who do it every day for their expertise.
    So as we develop policy from the sky down, we really need 
to get the input from people who are on the ground and have to 
implement it and know how practically to get it accomplished.
    Last month, Administrator Pistole testified before the 
subcommittee and presented his vision for TSA as an 
intelligence-driven, risk-based counterterrorism agency. I 
appreciate the administrator's efforts to implement policies 
that reject a one-size-fits-all security philosophy. He has 
modified several screening processes to accommodate passengers 
with disabilities, children, and the elderly. He continues to 
work on expanding a Trusted Traveler program which will 
hopefully expedite screening operations and reduce lines at 
checkpoints.
    I was very happy to learn of the administrator's recent 
announcement that TSA will allow active-duty members of the 
military to participate in the PreCheck program. He has also 
agreed to establish a program that will ease screening active-
duty wounded warriors and veterans.
    These efforts demonstrate a commitment to engaging in a 
rigorous risk analysis and making common-sense changes to 
policies impacting the flying public. In addition to being 
common-sense changes, these new policies are entirely 
consistent with TSA's mandate to ensure the safety and security 
of the traveling public against acts of criminal violence.
    The successes of these risk-based strategies are a direct 
result of the active engagement and involvement of 
stakeholders. That is why it is important that we hear from 
those stakeholders today, those who work in the airports with 
the traveling public and the contractors who supply services to 
TSA. As we all know, the people working in the trenches are the 
first to know and understand when something will not work. We 
need to understand the issues they face and how they believe 
TSA can better secure the flying public.
    Last, Mr. Chairman, in recent weeks, there has been much 
controversy surrounding the administrator's announcement to 
remove certain knives from the prohibited items list. There is 
no doubt in my mind that the process of bringing in 
stakeholders and soliciting their advice could have been 
handled a whole lot better.
    As I said at the hearing last month, I do not believe that 
decisions like these can be made in a vacuum. There must be a 
conversation and advanced warning to stakeholders, especially 
those implementing the changes and those most affected by them.
    Moving forward, we must be deliberative in our efforts to 
institute risk-based policies and utilize existing mechanisms 
like the Aviation Security Advisory Committee to engage all 
stakeholders before making final policy decisions.
    With that, Mr. Chairman, I will yield back.
    Mr. Hudson. I thank the gentleman.
    The Chairman now recognizes the Ranking Minority Member of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any statement that he may have.
    Mr. Thompson. Thank you, Mr. Chairman. I would also want to 
thank our witnesses for appearing today.
    Since TSA's policy change regarding the prohibited items 
list was announced, Members on both sides of the aisle have 
expressed deep frustration with TSA's failure to formally 
engage the stakeholders impacted by the decision, such as 
flight attendants and the front-line workforce.
    Two weeks ago, I, along with over 130 other Members of 
Congress, wrote the TSA administrator to express our concerns 
about the failure to formally consult stakeholders before 
implementing a policy change that will permit passengers to 
carry knives on a plane. If anyone doubts the potential danger 
of small knives, I hope that Tuesday's tragic event at Lone 
Star Community College will serve as a wake-up call.
    Unfortunately, despite these tragic events, it is my 
understanding that the knives on a plane rule will take effect 
as planned. In an effort to avoid such missteps by TSA in the 
future, I recently introduced a bipartisan Aviation Security 
Stakeholders Participation Act of 2013. This legislation 
requires TSA to formally engage key stakeholders through the 
Aviation Security Advisory Committee when developing policies 
that impact millions of passengers and stakeholders. Today, 
this committee will demonstrate the value of consultation with 
those affected by the policy decisions that we in Congress and 
the administration make.
    I look forward to hearing from all the witnesses we have 
here today. I am particularly eager to hear from Mr. Borer, the 
general counsel for the American Federation of Government 
Employees, regarding the impact TSA's recent decision to remove 
knives from the prohibited items list will have on screeners 
and the directions they have received from TSA.
    Regardless of the policy at issue, its implementation can 
only be successful if the front-line workforce has clear 
direction on how to carry it out. I am also interested in 
hearing from the witnesses regarding their thoughts on TSA's 
shift to a so-called risk-based security model. While the term 
risk-based sounds appealing at first glance, I believe we need 
to give a close examination of how TSA is defining what 
constitutes risk and have a serious discussion about the levels 
of risk we are willing to accept.
    Prior to 9/11, we accepted the risk of having passenger and 
baggage screening conducted by private security companies. In 
the aftermath of that tragic day, Congress overwhelmingly 
supported Federalizing the screener workforce in an effort to 
lessen the risk of another such tragedy occurring.
    With time, however, I feel that memories of that day and 
the lessons learned have begun to fade, leading the cause for a 
massive and even force transition back to a privatized 
screening workforce. Last year, in their on-going efforts to 
expand the use of contract screeners, critics of TSA placed 
language into the conference report for the FAA Authorization 
Act allowing subsidiaries of foreign-owned companies to obtain 
contracts for screening at domestic commercial airports and 
stripping the administrator of his discretion to approve or 
deny an airport's application to privatize its screeners 
through the Screening Partnership Program.
    They did so without any public debate on the changes and 
without this committee, the committee of jurisdiction, having a 
single Member assigned as a conferee. The Government 
Accountability Office recently reported that TSA's evaluation 
of contract screeners are insufficient to determine how their 
performance compares with Federal screeners. TSA has reported 
numerous security breaches by contract screeners, including the 
failure to detect prohibited items, improperly clearing 
passengers at SPP airports, and mishandling sensitive security 
information.
    In addition to concerns about performance, there are 
serious concerns about cost. According to data provided by TSA, 
it cost taxpayers 46 percent more to use contract screeners at 
Rochester International Airport in 2012 than it would have cost 
to use a Federalized workforce. In response to these concerns, 
I, along with Representative Richmond and Lowey, introduced 
H.R. 1455, the Contract Screener Reform and Accountability Act, 
yesterday. This legislation will prohibit subsidiaries of 
foreign-owned corporations from obtaining contracts for 
screening services at domestic commercial airports, require all 
security breaches at airports with contract screeners to be 
reported, require training for the prior proper handling of 
sensitive information at SPP airports, and mandate covert 
testing of contract screeners and impose penalties of 
compromising testing.
    I am pleased that Senator Brown of Ohio has introduced 
companion legislation in the Senate. I look forward to working 
with the Members of this committee to fix the problems 
associated with the use of contract screeners prior to calling 
for their expanded use.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Hudson. Thank you, Mr. Thompson.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have several distinguished witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire written statements will appear on 
the record.
    First witness, Mr. Ken Dunlap, currently serves as the 
global director for security and travel facilitation at the 
International Air Transport Association. The International Air 
Transport Association, IATA, is the trade association for the 
world's airlines, representing approximately 240 airlines and 
84 percent of total international air traffic. IATA supports 
many areas of aviation activity and helps formulate industry 
policy on critical aviation issues. The Chairman now recognizes 
Mr. Dunlap to testify.

  STATEMENT OF KEN DUNLAP, GLOBAL DIRECTOR, SECURITY & TRAVEL 
     FACILITATION, INTERNATIONAL AIR TRANSPORT ASSOCIATION

    Mr. Dunlap. Chairman Hudson, Ranking Member Richmond, 
Ranking Member of the committee Mr. Thompson, and Members of 
the subcommittee, it is really a pleasure to be here to speak 
to you today.
    You know, aviation is responsible for making the world a 
better place, both in terms of the human spirit, connecting 
people and cultures, and driving economic growth. It is safe 
and secure, and we profoundly thank those who work tirelessly 
to keep it so.
    There are, though, two central challenges facing civil 
aviation here in the United States. First, the Department of 
Homeland Security is confronting persistent adversaries engaged 
in a cycle of fashioning increasingly sophisticated attacks, 
and we all need to be ready. This committee has heard 
intelligence estimates describing devices such as the printer 
cartridge bombs, underwear bomb No. 1, and the enhanced version 
2.0, and that is not to mention gel- and liquid-based 
explosives.
    Second, passenger numbers are increasing, and we need to 
make more room and lessen the hassle. In 2012, airlines 
globally carried more than 2.9 billion passengers; 787 million 
passengers traveled to, from, and within the United States, and 
of that, 718 million passengers flew on U.S. airlines. By 2030, 
the footprint of aviation will cover nearly 6 billion 
passengers, 82 million jobs, and $6.9 trillion in economic 
activity.
    These challenges imply that in the future, TSA will need 
improved security infrastructure, streamlined operations, and 
perhaps most importantly, enhancing focus on risk-based 
security. Let me just spend a minute talking about risk-based 
security.
    So everything comes with risk. You cross the street, you 
take a shower, you eat a meal, you go to a conference, you even 
testify before Congress, and there is risk, and that is just 
life.
    Air transport is not any different. However limited, there 
is risk. One of the biggest challenges today is striking the 
correct balance between risk and regulation. Let me be clear: 
We cannot accept 100 percent risk. Any regulation that 
completely would eliminate risk would shut down this industry. 
That is an equally unacceptable solution.
    What is needed is a pragmatic approach that balances the 
two, and that means changing our mindset when we regulate. We 
have to put desired results at the center of our efforts. We 
have to understand that a proliferation of bureaucracy and 
rules don't equate to effective passenger security. We have to 
recognize that 99.9 percent of all the passengers in all the 
air freight we travel--and perhaps even a higher percentage 
than that--pose no threat to aviation.
    So these are principles that lead us to risk-based 
security. So I know that is utopia, but where are we today? 
Well, we are spending a lot of money, $8.4 billion a year and 
rising, to support security system mandates that have grown 
exponentially since 2001, and this is just what the airlines 
are required to spend. This is well-intentioned, but not 
effective spending.
    Next, risk-based security is still in its infancy here in 
the United States. TSA has made 14 policy changes in support of 
RBS, but they only touch really a small subset of airlines and 
passengers. TSA needs to be given the chance to evolve as much 
of the system as possible so that the majority of passengers, 
airlines, and crew members benefit, and consultation and 
collaboration need to be the cornerstones of risk-based 
security. Frankly, we are not there yet.
    Government and industry have a strong history of working 
together on safety. It is a well-developed model for our 
collaboration and security.
    Last, I want to note that the industry is taking up the 
challenge to develop risk-based measures, as well. IATA is 
working with public and private partners around the world to 
modernize and improve the passenger screening process through 
our Checkpoint of the Future program, and we hope that by 2020 
passengers can be screened and experience an uninterrupted 
journey from curb to aircraft door.
    In conclusion, business as usual is simply not an option 
anymore for aviation security. Rigid requirements and formulaic 
processes need to be replaced by risk assessments, global 
standards, and outcome-focused targets.
    Chairman Hudson, Ranking Member Richmond, Mr. Thompson, 
Members of the committee, thank you again for the opportunity 
to speak here. The future of aviation is bright, and your 
collaboration is vital to our continued success.
    Thank you.
    [The prepared statement of Mr. Dunlap follows:]
                    Prepared Statement of Ken Dunlap
                             April 11, 2013
 tsa's efforts to advance risk-based security--stakeholder perspectives
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee it is a pleasure to provide a stakeholder perspective on 
TSA's efforts to advance risk-based security.
    IATA's 240 member airlines crisscross the globe every day, safely 
carrying passengers and cargo to their destinations. Aviation is 
responsible for 56.6 million jobs globally and 3.5% of global GDP. Here 
in the United States, it contributes $669 billion dollars to the GDP 
which is equivalent to 4.9% of the U.S. economy. In 2011, airlines 
carried more than 2.8 billion passengers. You've heard all of this 
before. But these numbers are expected to grow globally over the coming 
years, with nearly 6 billion passengers, 82 million jobs, and $6.9 
trillion in economic activity by 2030.
    With this projected growth will come the need for improved security 
infrastructure, streamlined operations, and, perhaps most importantly, 
next generation passenger and cargo screening.
    Despite the difficult decade that we have been through, the 
industry did not take its eye off of the ball on the top priorities of 
safety, security, and sustainability.
  <bullet> We committed to carbon-neutral growth from 2020 and to cut 
        our net carbon emissions in half by 2050 compared to 2005.
  <bullet> Last year was the safest in aviation history with just 1 
        accident for every 5 million flights on Western-built jet 
        aircraft. And there were no hull losses with Western-built jets 
        among IATA's 240 member airlines.
  <bullet> And we developed a roadmap through 2020 to build a passenger 
        Checkpoint of the Future.
    That said every activity comes with risk. Cross the street, take a 
shower, eat a meal, go to a conference, and there is risk. That's life. 
Air transport is not different. However limited, there is risk. One of 
the biggest challenges today is how we strike the correct balance 
between Risk and Regulation.
    We cannot accept 100% risk. And any regulation that completely 
eliminated risk would shut the industry down--an equally unacceptable 
solution. A pragmatic approach is needed to balance the two. But I am 
not sure that we have achieved a common understanding on defining where 
that balance should be with regulators.
    If we don't find that balance soon we will lose the goodwill of our 
passengers and shippers, clog our airports, slow world trade, and bring 
down the level of security that we have worked so hard to build up.
    IATA believes that the prevailing one-size-fits-all proscriptive 
model for security is not sustainable. If we don't evolve, the system 
will grind to a halt under its own weight.
    That means changing our mindset:
  <bullet> We must put desired results at the center of our efforts. If 
        we want to keep bombs off of airplanes, it does not matter 
        whether we use machines, dogs, intelligence, or any combination 
        thereof.
  <bullet> We must understand that bureaucracy and rules do not equate 
        to effective security. The Transportation Security 
        Administration's (TSA) consolidation of their Emergency 
        Amendments for international carriers is a step in the right 
        direction . . . and we need more of it.
  <bullet> And we must recognize that 99.9999% (if not more) of 
        passengers and freight pose no threat to aviation. So we need 
        to make better use of the information that is available to 
        assess the risk of the people, objects, or situations that can 
        pose threats.
    These principles would lead to security that is driven by the 
desired outcomes not the processes, which is pragmatic not 
bureaucratic, and that is efficiently focused on mitigating risks 
rather than on mechanistically repeating procedures ad infinitum.
                           passenger security
    If that is utopia, where are we today?
    We are spending a lot of money--some $8.4 billion a year and 
rising--to support a security system that has grown exponentially since 
2001. And this is just what airlines spend, let alone the cost to 
passengers and on other parts of the value chain. This is well-
intentioned spending. Air transport is secure. But there are 
inefficiencies. For example, our most trusted employees and people with 
high-level security clearances--even Members of Congress--are screened 
in the same way as our least-known passengers.
    Processes are cumbersome. Before 9/11 the average checkpoint 
processed 350 passengers per hour. Today it is below 150.
    Resources are being stretched. The TSA admits it is concerned that 
we are running out of space to accommodate the growing footprint of the 
security areas at airports.
    And customers are unhappy. IATA research found that wait times at 
checkpoints were the most frequently-cited gripe in the security 
process. 37% of our passengers think that security screening is taking 
too long.
    But how do they define too long? According to our survey about 27% 
of passengers would like to see a wait of no longer than 5 minutes. 51% 
of travelers would be satisfied if the maximum wait was no longer than 
10 minutes. 21% believe times between 10 and 20 minutes are acceptable. 
So these measurements indicate that a target wait time of 5-10 minutes 
would make nearly 73% of passengers satisfied with the checkpoint wait. 
Interestingly, when we ask this question of business and leisure 
travelers the results are nearly the same.
    We think that this is an important number that regulators need to 
aim for as they design new checkpoints and immigration lanes and try to 
optimize existing ones.
    Our collective failure to get full buy-in from air travelers means 
that they are not partners in the process, merely silent and sometimes 
intimidated and resentful participants.
    We have a growing problem. I emphasize ``we.'' Security is the 
responsibility of states but delivering it effectively requires the 
cooperation of the whole value chain. We are accountable to our 
passengers and they do not care if the delays and hassles they 
encounter are the result of Government, airline, or airport processes. 
All they remember is an unpleasant experience making them less willing 
to travel by air and sending ripples across the economy. With enough of 
those ripples a city may see connectivity decline.
    Government and industry have a strong history of working together 
on safety. It's a well-developed model for our collaboration on 
security. The Department of Homeland Security (DHS), for example, has 
revitalized its aviation security advisory committee and added an 
international subcommittee. I want to thank DHS Secretary Janet 
Napolitano and TSA Administrator Pistole for their leadership on this. 
There is still plenty of room to improve engagement between industry 
and Government in the United States and elsewhere, and this sets a good 
example.
Risk-Based Security
    Integral to risk-based security and IATA's Checkpoint of the Future 
is the concept of differentiation to ensure that we deploy our 
resources where they will have the biggest impact on reducing risk. But 
you can only differentiate if you have the information for risk-based 
decisions.
    As I said earlier, the vast majority of our passengers pose no 
security risk. Yet we screen them identically. We need a model that 
allows us to match limited security resources to the level of risk. We 
are not advocating for profiling based on religion or ethnicity . . . 
or proposing infringements on privacy. The proposal is to use 
information that is already being provided to governments for purposes 
of border control. Advance Passenger Information (API) and Passenger 
Name Record (PNR) information could also be used to provide automated 
guidance for decisions on the level of screening each passenger 
receives.
    Such pre-screening is an important part of risk-based security and 
not surprisingly our passengers understand this as well. In the same 
survey we asked passengers whether they would voluntarily share 
additional information in exchange for faster security screening. 73% 
reported back that they would. If you compare the responses of business 
travelers against those of leisure travelers you see strong support in 
both groups, with business travelers slightly more favorable. If you 
look at those business travelers who travel 10 or more times per year 
nearly 85% would volunteer information in exchange for quicker 
screening.
    The importance of these findings is two-fold. One, for the first 
time we can document overwhelming support from the traveling public to 
voluntarily provide information in exchange for expedited screening. 
Two, business travelers and leisure travelers equally support the idea. 
This shatters the old myth that only business travelers who fly a lot 
would find sharing information of value.
    In the mean time, passengers are already seeing some of what the 
future holds. Voluntary ``Known Traveler'' programs are already used by 
25 or more immigration and security authorities. For example, under 
Homeland Security Secretary Napolitano and Transportation Security 
Administrator Pistole we have seen an important move to a risk-based 
approach to screening by rolling out PreCheck. I would add that such 
programs maintain a random element to eliminate predictability.
    IATA estimates that known traveler lanes can improve checkpoint 
throughput by as much as 30%. Creating a separate screening area for 
those travelers requiring additional attention will boost efficiency 
another 4-5%. That is a 34-35% increase in passenger processing 
capability, without adding infrastructure.
                        checkpoint of the future
    The industry is taking up the challenge to develop risk-based 
measures as well. IATA is working with public and private partners 
around the world to modernize and improve the passenger screening 
experience through the Checkpoint of the Future program. Our vision for 
2020 is simply an uninterrupted journey from curb to aircraft door, 
where passengers proceed through the security checkpoint with minimal 
need to divest, where security resources are allocated based on risk, 
and where airport amenities can be maximized.
    The goals of the Checkpoint of the Future are:
  <bullet> Strengthened security.--Through focusing resources based on 
        risk, increasing unpredictability, making better use of 
        existing technologies, and introducing new technologies with 
        advanced capabilities as they become available.
  <bullet> Increased operational efficiency.--By increasing throughput, 
        optimizing asset utilization, reducing cost per passenger, and 
        maximizing space and staff resources.
  <bullet> Improved passenger experience.--Reducing lines and waiting 
        times and using technology for less intrusive and time-
        consuming security screening.
    Allow me now to highlight the scope and the roadmap of the 
Checkpoint of the Future project. Over the last 3 years the program has 
evolved into an industry-led and IATA-supported initiative. That means 
that airports, security equipment manufacturers, Interpol, 
universities, governments, and airlines are working together to make a 
new checkpoint a reality. We can put numbers behind the collaboration. 
Our Advisory Group, which provides oversight, has 16 key senior 
executives from every corner of aviation. They guide 110+ experts who 
are working to assemble the technology, policy, and procedures needed 
for a checkpoint of the future. All have volunteered I would add.
    To date this team has developed a concept definition and blueprints 
to take us through checkpoint evolutions from today to 2014, 2017, and 
2020. In addition, the stakeholders have developed an Operational Test 
and Evaluation Program (OT&E) that will evaluate the key Checkpoint of 
the Future components in light of our overall goals.
    I am happy to report that we concluded component trials in 2012 
with our airport partners at Geneva, Heathrow, and Amsterdam. For 2013, 
we are planning a dozen new trials that will support rollout of the 
first checkpoint in 2014. We certainly hope that we can bring several 
of these trials to airports in the United States.
    So what will the checkpoint look like in the future?
    With a view toward the near term, the Checkpoint of the Future in 
2014 focuses on integrating new procedures to facilitate risk-based 
screening and decision making, optimizing resource and asset 
utilization, and integrating available technology and repurposing 
existing equipment. The emphasis is therefore to introduce new and 
innovative procedures that maximize the opportunities presented by the 
existing checkpoint configuration.
    The 2017 Checkpoint of the Future, or the medium-term vision, is 
focused on updating technologies and processes to increase the security 
value of the checkpoint, while maintaining a strong focus on customer 
service to enable greater passenger satisfaction. It includes some 
major advances in risk assessment, dynamically delivering a result to 
the checkpoint to enable greater automation, and a better passenger 
experience. It envisages increased use of biometrics and remote image 
processing, coupled with advances in screening technologies and 
targeted algorithms to achieve less divesting and faster throughput.
    From 2020 and beyond it is envisaged that the passenger will be 
able to walk through the security checkpoint without interruption 
unless the advanced technology identifies a potential threat. A 
passenger will have a level of security screening based on information 
from states of departure and arrival through bilateral risk assessments 
in real time. In terms of the passenger experience, there will no 
longer be the burden of divesting by default, and there are expected to 
be little to no lines as a result of the enhanced speed at which 
screening can occur.
    Just as one-size-fits-all is not a desirable situation for 
screening today, neither will it be for the next generation of 
screening. The Checkpoint of the Future project offers many options and 
suggestions that can help move screening towards being more efficient, 
effective, and passenger-friendly. We are confident that the important 
collaboration between the airline industry, airports, manufacturers, 
ICAO, and global regulators will continue to improve security and 
efficiency in passenger screening.
    Early on I referred to a security utopia. This would see rigid 
requirements and formulaic processes replaced by an approach guided by 
realistic risk assessments, global standards, and outcomes-focused 
targets. Air travel would be more secure. And we--industry and 
Government--would be prepared to address efficiently and rapidly new 
and emerging threats in the knowledge of what data tells us.
    Our success in safety has many lessons to point us in the right 
direction. Over decades, industry and governments have built global 
standards and processes that improved safety performance and adapted to 
emerging concerns. We have made aviation safer while also largely 
having processes invisible to the passenger. Passengers take safety for 
granted. That should be our inspiration for security--effective and 
hassle-free security for both passengers and cargo.
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you again for the opportunity to speak to you today 
about the future of aviation security. IATA applauds your commitment to 
improving aviation security and making the experience more enjoyable 
for passengers. The future of flight is bright, and your collaboration 
is vital to our continued success as an industry.

    Mr. Hudson. Thank you, Mr. Dunlap, for your testimony.
    Our second witness is Ms. Sharon Pinkerton. Ms. Pinkerton 
is the senior vice president for legislative and regulatory 
policy at Airlines for America. Airlines for America is the 
trade organization of the principal U.S. airlines, representing 
the collective interest of airlines and their affiliates who 
transport more than 90 percent of U.S. airline passengers and 
cargo traffic.
    The Chairman now recognizes Ms. Pinkerton to testify.

   STATEMENT OF SHARON L. PINKERTON, SENIOR VICE PRESIDENT, 
    LEGISLATIVE AND REGULATORY POLICY, AIRLINES FOR AMERICA

    Ms. Pinkerton. Thank you, Mr. Chairman, Mr. Ranking Member, 
Mr. Thompson, and Members of the subcommittee for inviting 
Airlines for America to talk to you today about this important 
issue. We want to thank you for your leadership. We were very 
interested in the meeting, the hearing you held with 
Administrator Pistole.
    There are a few issues that touch our Nation's National 
security and our Nation's economy the way risk-based security 
does. We share a common goal with TSA and with Members of this 
subcommittee, and that is the safety and security of our 
passengers and our employees. That is our highest priority.
    Because of that priority, we have been pleased to work 
cooperatively with TSA on programs like Known Crewmember and 
with CBP on Global Entry and cargo screening programs like 
ACAS.
    Since you all travel very frequently, I know, you know well 
that effective security and efficient movement of passengers 
and cargo are not and should not be mutually exclusive goals. A 
risk-based security approach is an indispensable tool in 
achieving effective security in a way that actually facilitates 
travel and commerce.
    We think risk-based security ought to accomplish three 
goals: Enhanced security, streamlined passenger screening, and 
expedite the movement of goods and cargo. A risk-based approach 
recognizes that one-size-fits-all security is no longer the 
optimum response to threats. It reflects the realization that 
potent intelligence resources and better use of technology in 
the screening experience produce a far more sophisticated 
security assessment than in the past.
    Risk-based intelligence-driven analysis has been widely 
accepted as an approach to aviation security for some time 
around the world. Risk-based security is not, though, a stand-
alone solution. It is part of a multi-layered approach that TSA 
has embraced.
    TSA's PreCheck and Known Crewmember programs and customs 
Global Entry program represent what I would call the beginning 
of these known traveler programs. They do not--I want to 
emphasize--represent the full realization of those programs. A 
lot of important work remains for each of them.
    Moreover, these programs have to be pursued recognizing the 
need for timely coordination and communication with 
stakeholders. Our primary recommendation to you all today for 
improving the PreCheck programs, Global Entry, Known 
Crewmember, is that these programs must be expanded. We can't 
stress enough the importance of allowing TSA to focus their 
very limited resources on unknown and elevated threat 
passengers.
    Expansion of PreCheck shouldn't be airport-centric, nor 
should it be airline-centric. We don't need that program 
limited to a small group of people. We need to enlarge the 
group of people who are included in those programs.
    Broader-based recruitment of qualified passengers is 
needed, and TSA should provide the leadership and ownership of 
this program. We completely agree, they can take some good 
lessons in innovation from the private sector, and we support 
that, and we will continue to work them. At the same time, they 
do need to provide some leadership in this area.
    Their recent announcement that they are pursuing efforts to 
expand PreCheck through third parties or Global Entry Light, as 
the administrator mentioned, are good steps in the right 
direction. However, we would caution that the multiplicity of 
programs, whether it is SENTRI down on the Southern Border, 
NEXUS on the Northern Border, Global Entry Light that the 
administrator talked about, PreCheck, third-party PreCheck, it 
is confusing for travelers and stakeholders and sometimes 
Members of Congress. TSA needs to consolidate Trusted Traveler 
programs into one recognizable branded program and increase 
their efforts to recruit eligible passengers.
    We have got good news on Known Crewmember. I heard the 
bell's reached, so I am going to run through the rest of my 
testimony. We have done great work on Known Crewmember. We have 
processed 5 million crew members. We are also supportive of 
TSA's managed inclusion program. I think we need to recognize 
these programs are growing around the world and, as such, we 
need to think about mutual recognition with other trusted 
countries programs so that we can expand that way.
    Then last, but certainly not least, in light of the 
President's budget that was released yesterday, we have to say 
that we are opposed to this incredible increase in taxes that 
was proposed in the President's budget. The TSA--the whole 
purpose behind risk-based security is to try to drive 
efficiencies to increased safety and security, but also to 
reduce cost. A funny thing has happened in the past 5 years. 
While aviation has been hit by a global downturn, high fuel 
prices, TSA's budget has increased by 8 percent, while 
passenger traffic has actually decreased by 4 percent.
    So we would urge you to consider that, as we already pay 
close to $4 billion in DHS taxes and fees every year, we don't 
think raising taxes is in the answer.
    Thank you again for allowing us to have this opportunity. I 
will look forward to taking your questions.
    [The prepared statement of Ms. Pinkerton follows:]
               Prepared Statement of Sharon L. Pinkerton
                             April 11, 2013
    Mr. Chairman, Ranking Member Richmond, and Members of the 
subcommittee, my name is Sharon Pinkerton, and I am senior vice 
president of legislative and regulatory policy for Airlines for 
America, the trade association for the leading U.S. airlines. Today, 
A4A members and their affiliates transport more than 90 percent of all 
U.S. airline passenger and cargo traffic.
                                overview
    We share a common goal with the TSA: The safety and security of our 
passengers and employees is our single highest priority. As such, we 
have been pleased to work cooperatively with the TSA on programs 
including Known Crewmember and TSA PreCheck. As all of you who travel 
frequently know well: Effective security and the efficient movement of 
passengers and cargo, are not mutually exclusive goals. A risk-based 
approach to security is an indispensable tool in achieving effective 
security in a way that facilitates air commerce.
    Such an approach needs to accomplish three principal goals:
  <bullet> Enhance security overall;
  <bullet> Streamline passenger screening; and
  <bullet> Expedite the movement of goods.
    Prudent TSA policies, investment, and deployment of resources can 
make aviation security both more effective and more efficient. Those 
outcomes, in turn, enhance travel and trade, which benefits the 
customers and communities that airlines serve as well as our Nation's 
economy.
                    the case for risk-based security
    A risk-based approach recognizes that ``one-size-fits-all'' 
security is no longer the optimum response to threats. It reflects the 
realization that potent intelligence resources and extensive screening 
experience produce far more sophisticated security assessments than in 
the past. Risk-based programs consequently play to our Government's 
strengths in this area.
    Risk-based, intelligence-driven analysis has been a widely accepted 
approach to aviation security for some time. The 9/11 Commission, for 
example, in 2004 called for thorough, risk-based analysis in evaluating 
aviation-security issues.\1\ This, however, is not a stand-alone 
solution; it is part of the multi-layered approach to security that TSA 
has emphasized.
---------------------------------------------------------------------------
    \1\ In its final report, the Commission stated: ``The U.S. 
government should identify and evaluate the transportation assets that 
need to be protected, set risk-based priorities for defending them, 
[and] select the most practical and cost-effective ways of doing so . . 
. ''. Final Report of the National Commission on Terrorist Attacks Upon 
the United States, at 391 (2004).
---------------------------------------------------------------------------
    TSA's PreCheck<SUP>TM</SUP> and Known Crewmember programs, and 
Customs and Border Protection's Global Entry program represent the 
entry into the security mainstream of known traveler programs. They do 
not, I want to emphasize, represent the full maturation of those 
programs. Important work remains for each of them. Moreover, these 
programs should be pursued recognizing the need timely coordination and 
communication with stakeholders.
                 the need to expand risk-based security
    The known passenger programs--PreCheck<SUP>TM</SUP> and Global 
Entry--should be expanded to realize their full potential. This will 
allow limited resources to be focused on unknown and elevated-threat 
passengers. That is a goal that TSA shares. Expansion of 
PreCheck<SUP>TM</SUP> should not be limited to customers who are 
members of airline frequent-flyer programs--which is a point that we 
have made before--or who have signed-up for Global Entry. Broader-based 
recruitment of qualifying passengers is needed and we believe that TSA 
should provide the leadership for that effort. Finally, in 
collaboration with TSA and the representatives of flight-deck and cabin 
crewmembers, we continue to enlarge the Known Crewmember program.
    We also support TSA's Managed Inclusion pilot program. It enables 
TSA to assess passengers in the screening line and divert passengers 
deemed lower risk to expedited screening procedures.
    With respect to cargo security measures, passenger airlines have 
met the 9/11 Commission Recommendations Act requirement to screen 100 
percent of air cargo departing U.S. airports. In addition, with TSA's 
assistance we have met the screening requirement for international 
inbound cargo.
    The growing reliance on risk-based aviation security in the United 
States and elsewhere highlights the desirability of exploring the 
mutual recognition of security programs. We do not suggest that U.S. 
authorities aim for universal recognition of such programs. We believe, 
however, that in a limited number of instances the congruence of the 
programs may justify mutual recognition. This could benefit regulators, 
as well as passengers and shippers.
         the tsa security passenger tax should not be increased
    As the TSA is able to improve its efficiency through risk-based 
screening program, we see no need for additional tax funding at this 
time. It is simply common sense: If the TSA can more people to risk-
based screening, it should need fewer resources, not more, and as such 
we are strongly opposed to a provision in the Senate-passed budget 
resolution that would immediately double and eventually triple the TSA 
security passenger tax. Airlines, passengers, and shippers collectively 
paid a record $2.3 billion in TSA taxes and fees last year. Indeed, 
they already pay more than their fair share of Federal aviation taxes.
    TSA's budget has increased 18 percent since 2007 while the number 
of passengers carried by U.S. airlines fell 4 percent in that period. 
We believe there are opportunities to achieve greater efficiencies at 
TSA--without greater taxes. We look forward to working further with TSA 
and the administration to expand the risk-based security measures that 
the subcommittee is reviewing today. That is the appropriate way to 
handle TSA's operating costs
                               conclusion
    Risk-based aviation security has proven its worth. But more can be 
accomplished with it. We appreciate the subcommittee's continuing 
interest in assuring that risk-based security fulfills its promise.

    Mr. Hudson. Thank you, Ms. Pinkerton, for your testimony. 
As everyone heard the bells, we are going to try and plow 
through--continue for a few more minutes here. Our next witness 
is Mr. Geoff Freeman, the chief operating officer and executive 
vice president of the U.S. Travel Association. The U.S. Travel 
Association is a nonprofit trade organization that represents 
the common interest of the U.S. Travel Industry and promotes 
increased travel to and within the United States through 
marketing initiatives and advocating for beneficial travel 
procedures.
    The Chairman now recognizes Mr. Freeman to testify.

    STATEMENT OF GEOFF FREEMAN, CHIEF OPERATING OFFICER AND 
       EXECUTIVE VICE PRESIDENT, U.S. TRAVEL ASSOCIATION

    Mr. Freeman. Thank you, Chairman Hudson, and Ranking Member 
Richmond, Ranking Member Thompson, other Members of the 
committee. Appreciate you plowing ahead, as well as holding 
this hearing in the first place.
    As you know, travel is critical to each of your districts 
and to the American economy as a whole. That is why TSA's 
ability to build an effective risk-based security screening 
process is just as much an economic security issue as it is a 
National security issue.
    If we get it right, travel will increase, consumer spending 
will rise, and the number of jobs in your districts will grow. 
In fact, the 2010 survey found that if we could streamline 
aviation security screening, frequent travelers said they would 
take two to three more trips each year. That is the potential 
here if we get this right.
    Today, I would like to discuss how do we create this better 
environment by focusing on three areas; No. 1, the 
inefficiencies and costs in the current system today; No. 2, 
some successes and opportunities around risk-based screening; 
and, No. 3, several concrete recommendations for TSA, as well 
as Congress, as we move forward.
    When we look at the inefficiencies and cost drivers in TSA, 
the greatest challenges is that, until recently, we have 
embraced a one-size-fits-all approach that attempts to 
eliminate all risk. This approach led to a layer upon layer of 
security for the traveler, and it also led to millions of 
frustrated travelers and unsustainable costs at TSA.
    Over the past 8 years, TSA's budget has increased by more 
than 60 percent, while as the Chairman mentioned the number of 
travelers has remained flat. More striking than that is that 
DHS acknowledged in its 2012 budget request that the cost of 
screening per passenger had risen by 400 percent.
    As U.S. Travel, former Homeland Security Secretary Tom 
Ridge, and many others have said, there has to be a better way 
of doing this. That better way begins with managing risk, 
rather than a fruitless attempt to eliminate all risk. It is 
here that Administrator Pistole deserves great credit. PreCheck 
is the best example of a truly risk-based program that 
increases security and efficiency and could efficiency reduce 
TSA's cost.
    Also, as TSA develops its risk-based initiatives, it 
deserves credit for seeking greater input from the travel 
industry and passenger advocates. The reconstituted Aviation 
Security Advisory Committee is a positive step in the right 
direction. There is room for improvement, however, in TSA's 
communications with stakeholders, as we recently saw on the 
prohibited items list, but the trend is favorable.
    There is also three areas for improvement in PreCheck that 
I would like to highlight. First, PreCheck enrollment today is 
limited and cumbersome. A traveler in New Orleans would have to 
travel 5 hours to Houston to go for an interview and come back. 
This process is not sustainable when it comes to growing 
enrollment in this program. Travelers will also have to spend, 
we estimate, upwards of $10,000 with a single airline to enter 
PreCheck through that mechanism.
    Second, the unpredictability once enrolled remains too 
high, even for those travelers who are members of Global Entry 
and have received a background check.
    Finally, the current low utilization rates can frustrate 
other travelers and certainly isn't the best use of precious 
limited resources.
    So with those challenges before us, there are three 
recommendations that we have for TSA. One is to partner with 
the private sector to market and enroll travelers into 
PreCheck. It is time to provide the private sector with an 
incentive to go out and grow this program. We support TSA's 
move in this direction and are proud to join the company CLEAR 
in its proposal to TSA.
    Second, TSA should grant enrollees access to PreCheck lanes 
when flying on any eligible airline at a participating airport. 
This will require more partnership with the airlines to 
complete.
    Third, TSA can increase predictability by using in-depth 
background checks and approved identity verification, which 
will lead to lower rates of randomized screening.
    The final recommendations we have are for you and for other 
Members of Congress. First, Congress should encourage TSA to 
revise or roll back security screening procedures as long as 
TSA's decision is accompanied by sound intelligence and a 
continued focus on the most dangerous threats.
    Second, Congress should support TSA's efforts to partner 
with the private sector, support increased funding for CBP 
staffing to clear the backlog of those who wish to join the 
Global Entry program, and strengthen passenger advocacy within 
TSA.
    Finally, Congress must resist the temptation to eliminate 
all risk. Risk management is TSA's best approach to preventing 
catastrophic events and efficiently processing millions of 
travelers.
    Thank you for your time today. Thank you for holding this 
hearing.
    [The prepared statement of Mr. Freeman follows:]
                  Prepared Statement of Geoff Freeman
                             April 11, 2013
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee: I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the National, non-profit organization 
representing all sectors of America's travel industry. U.S. Travel's 
mission is to increase travel to and within the United States.
    The travel industry provides good, domestic jobs that cannot be 
outsourced. In 2012, travel spending in the United States totaled $855 
billion, which generated a total of $2 trillion in economic output. The 
travel industry also directly supported 7.7 million jobs and was among 
the top 10 employers in 48 U.S. States and the District of Columbia.
    For example, travel directly employs more than 9,500 North 
Carolinians in the 8th Congressional District and contributes over $952 
million annually to the local economy. Similarly, travel directly 
employs more than 24,000 Louisianans in the 2nd Congressional District 
and contributes more than $2 billion to the local economy.
    Travel is not only a vital economic engine--it is a hallmark of our 
free and open society, and its various components are essential to our 
daily lives. I applaud the subcommittee for holding this important 
hearing on TSA's implementation of risk-based security. The U.S. Travel 
Association firmly believes that security and efficiency are equal and 
obtainable goals--and both protect our country and safeguard our 
economy. Moving too aggressively in one direction imperils the other, 
and that's why we are such strong advocates of risk-based security.
    My testimony today will focus in three areas. First, I'll examine 
major drivers of inefficiency and cost in passenger screening. Second, 
I'll highlight key successes and opportunities for improvement in risk-
based security. And third, I'll offer U.S. Travel's recommendations for 
what TSA and Congress can do to build a more efficient and secure 
aviation system.
                    drivers of inefficiency and cost
    Many of today's problems in aviation security stem from a refusal 
to acknowledge or accept any risk in the system. In the past, continual 
layers of security were added to address almost every conceivable 
threat. What's worse is that few efforts were made to scale back, 
eliminate, or tailor these layers for fear of being perceived as 
``weak'' on security.
    As a result, travelers were stuck with an inefficient, one-size-
fits-all security screening process that hurt our economy and burdened 
American taxpayers.
    A 2010 survey conducted by Consensus Research found that travelers 
would take two to three more flights per year if the hassles in 
security screening were reduced. These additional flights would add 
nearly $85 billion in consumer spending back into the U.S. economy and 
help support 900,000 jobs. A similar survey conducted in 2011 found 
that four of the top five passenger frustrations relate directly to the 
TSA checkpoint.
    Rapid budget growth is also driven by a one-sized-fits-all 
screening process. In its fiscal year 2012 budget request, DHS 
acknowledged that the cost of screening per passenger rose by over 400 
percent between 2001 and 2011. And from 2004 to 2012, the TSA's budget 
increased by more than 60 percent, while the number of passengers 
screened remained almost flat.\1\ After just 11 years, TSA's budget is 
now roughly equal to the Federal Bureau of Investigation (FBI).
---------------------------------------------------------------------------
    \1\ U.S. Travel Association, ``A Better Way: Building a World-Class 
System for Aviation Security.'' http://www.ustravel.org/sites/default/
files/page/2011/03/A_Better_Way_032011.pdf.
---------------------------------------------------------------------------
                security, efficiency, and tsa's mission
    U.S. Travel believes these trends can only be reversed by using a 
risk-based approach to aviation security. In 2010, U.S. Travel 
commissioned a Blue-Ribbon Panel (BRP)--headed by former Secretary of 
Homeland Security Tom Ridge--to examine problems in aviation security 
and recommend solutions.
    First and foremost, the BRP challenged TSA, Congress, and all 
aviation security stakeholders to set aside the notion that security 
and efficiency are mutually-exclusive goals. Specifically, the final 
BRP report states:

``Some in Congress appear to have calculated that there are no 
political consequences to an inefficient and costly system, but great 
political consequences to a successful terrorist attack. This is a 
classic Hobson's Choice that the American traveling public repudiates. 
The debate Congress must engage in is not strong security versus weak 
security, but rather how to create a world-class aviation security 
system that effectively manages risk, increases efficiency, and 
embraces the freedom to travel.''

    The Blue-Ribbon Panel was also unanimous in its support for risk-
based security and laid out three critical elements of a risk-based 
strategy in its final report. First, TSA and Congress must clearly 
identify the types of threats TSA is responsible for preventing. 
Second, relying on the latest intelligence, TSA must apply its limited 
resources to the highest-priority threats. And third, TSA should always 
strive to provide the greatest level of efficiency in passenger 
screening, while maintaining security.
                tsa's successes in risk-based screening
    With support from Congress and the private sector, TSA is now using 
a more risk-based approach to aviation security and Administrator 
Pistole deserves our gratitude for his leadership on these issues.
    Specifically, U.S. Travel applauds TSA for creating and rapidly 
expanding PreCheck. This program is the best example of a truly risk-
based initiative that increases security and efficiency, and could 
eventually reduce budgetary costs.
    In addition to PreCheck, as TSA expands its risk-based efforts, 
Administrator Pistole and TSA are improving their outreach to 
stakeholders, travelers, and non-traditional partners. For the first 
time since 2006, TSA reconstituted the Aviation Security Advisory 
Committee (ASAC) and I'm proud to serve as chair of the newly-created 
Passenger Advocacy subcommittee. TSA is also hosting roundtables and 
listening sessions with travel businesses around the country to hear 
their suggestions for improving aviation security.
                     opportunities for improvement
    Going forward, TSA can still improve its outreach to stakeholders, 
as we saw with their recent decision to change the prohibited items 
list. TSA can use the ASAC to brief stakeholders in a classified 
setting and to receive their candid feedback.
    There are also three aspects of PreCheck that must be improved if 
the program is to reach its full potential.
    First, there are far too many barriers preventing a large number of 
ordinary travelers from joining and using PreCheck. One barrier is the 
sheer difficulty of enrollment through the U.S. Customs and Border 
Protection's (CBP's) Global Entry program, which features a cumbersome 
and confusing on-line application process, and is a prime example of 
the difficulty a Government agency can have in creating streamlined and 
customer-friendly services.
    To be a part of Global Entry, CBP requires an in-person interview--
but only offers these interviews at 33 permanent locations. Chairman 
Hudson, your constituents are fortunate, in that they would only have 
to travel some 30 miles to Charlotte International Airport for a Global 
Entry interview. However, Ranking Member Richmond, your constituents 
would have to travel much further. If a person living in New Orleans, 
wishes to join Global Entry, the closest CBP interview location is in 
Houston, Texas, and requires a 5-hour, 340-mile round trip drive--or, 
of course, a flight. Clearly, this is not convenient for millions of 
low-risk travelers.
    Of course, if an individual does not want to be part of Global 
Entry and instead wants to be enrolled via an airline, there are many 
difficulties associated with this enrollment process as well. Perhaps 
the most significant obstacle is the cost of joining PreCheck through 
an airline frequent flier program. If a person wishes to qualify for 
PreCheck through a sponsoring carrier, U.S. Travel estimates that it 
would cost roughly $10,000 in airfare paid to a single airline in order 
to accrue enough frequent flier miles.\2\
---------------------------------------------------------------------------
    \2\ TSA considers enrollment criteria for PreCheck<SUP>TM</SUP> to 
be Security Sensitive Information. The U.S. Travel Association 
calculated an estimate of the cost to join PreCheck<SUP>TM</SUP> by 
multiplying the average 2010 passenger yield (the average fare paid by 
domestic passengers per mile flown) of 13.49 cents by 75,000 (the 
number of miles needed to become Platinum customer on Delta airlines).
---------------------------------------------------------------------------
    Second, PreCheck can be too unpredictable and is inconsistent 
across airlines. For example, while passengers should always be subject 
to randomized screening, we believe that this level could be lowered if 
passengers could offer more personal information, have a security 
threat assessment conducted and have biometric credentialing employed 
to verify identity. By gathering more background information from 
individuals who wish to provide it, TSA would offer a more risk-based, 
predictable, and expedited screening process.
    Unfortunately, the current airline-based structure does not allow 
for the collection of more information--instead, the airline PreCheck 
enrollment process uses flying history as the central element of 
additional background data. Because TSA has decided that this level of 
information merits a high randomization rate, PreCheck contributes to 
the overall inefficiency of the current system by forcing too many 
people to go through the standard screening process.
    Furthermore, PreCheck's structure as an airline-by-airline, 
airport-by-airport effort is not particularly risk-based. Once a 
traveler is enrolled in PreCheck through a frequent flier program, they 
can only use the expedited screening lanes when flying with that 
particular airline. In our opinion, risk should not be determined 
customer loyalty.
    Limited enrollment and high unpredictability lead to the third area 
of improvement for PreCheck--low utilization rates. While TSA is to be 
applauded for having screened some 7.5 million passengers through 
PreCheck to date, this number is small when compared with the roughly 2 
million people who fly each day in the United States and the roughly 
700 million passengers who fly each year. We must do better, and more 
people must be part of this program for it to be a true risk-based 
solution to aviation security.
                        recommendations for tsa
    To improve PreCheck, we recommend that TSA focus its efforts on 
three high-priority areas.
    First, TSA should partner with the private sector to create more 
accessible and secure enrollment options. U.S. Travel fully supports 
TSA's request for private sector proposals to expand PreCheck and U.S. 
Travel is proud to join CLEAR--a risk-based security technology 
company--in its proposal to TSA.
    We believe CLEAR can:
  <bullet> Rapidly expand PreCheck through its existing customer base;
  <bullet> Continue to grow the program through effective marketing 
        strategies and partnerships;
  <bullet> Increase security through its verified identify platform and 
        in-depth background checks, and
  <bullet> Provide improved levels of customer service for enrolled 
        travelers.
    Through an innovative public/private partnership with TSA, private-
sector companies can quickly help the agency boost enrollment and 
utilization rates for PreCheck, and reduce TSA's budget by shifting 
operational costs from TSA to the private sector. These types of 
partnerships also provide new, important revenue streams to local 
airport authorities, an added benefit in tight budgetary times.
    Second, TSA and DHS can make PreCheck truly risk-based by allowing 
travelers to qualify for the program by aggregating their frequent 
flier miles across multiple airlines. Additionally, once a passenger is 
enrolled in any DHS low-risk traveler program--through either CBP, an 
airline, or any future enrollment platform--those passengers should 
automatically be granted access to every PreCheck lane until they no 
longer qualify.
    TSA can also offer enrollment opportunities that can reach beyond 
the CBP Global Entry by harnessing other Government programs that 
assess the security of populations--like the Transportation Worker 
Identity Credential and the Hazardous Materials Enrollment program--and 
granting them access to PreCheck.
    Third, TSA can increase predictability through better line 
management, the use of biometric credentialing, and more in-depth 
background checks. In-depth background checks and secure forms of 
identification enable TSA to know more about a passenger and lower 
rates of random screening. TSA can also increase efficiency by allowing 
PreCheck passengers selected for randomize screening to move 
immediately to the standard screening lane, rather than the back of the 
waiting line before the travel document checker. Line management, the 
use of biometric identity verification, and in-depth background checks 
are all functions that could be carried out by approved private-sector 
providers for PreCheck.
                      role of congress and closing
    Finally, Congress can also do three things to support TSA's risk-
based screening efforts.
    First, Congress should encourage TSA to revise or roll back 
security screening procedures whenever possible. As TSA considers new 
measures to enhance security based on risk and intelligence 
information, there should be a continuous assessment of existing 
screening protocols and standard operating procedures to see what's 
become obsolete or unnecessary. Without a continuous assessment of 
security layers that can be removed, or that have been replaced by 
something better, we risk needlessly bogging down the system.
    Unfortunately, as we've seen recently with the change to the 
prohibited items list, when TSA does remove layers, or change standard 
procedures, there tends to be little engagement with stakeholders and 
with the flying public. We hope that TSA can do better in this regard 
so that changes, when made based on risk, are also discussed in advance 
with constituencies that need to understand the changes, and why they 
were made.
    Second, Congress can assist and improve TSA's risk-based programs 
through legislation. Legislative priorities should include expansion of 
PreCheck through private-sector partnerships, support for increased 
Customs and Border Protection staffing to clear the backlog of Global 
Entry interviews, and strengthening passenger advocacy within TSA.
    Last, in everything you do, remember that security and efficiency 
are equal and obtainable goals. TSA is vital to security but the agency 
also impacts businesses, jobs, and our quality of life. The country 
that put a man on the moon, and has led the world for centuries in 
innovation and technology, can have a world-class, efficient, and 
secure aviation system.
    Again, thank you Chairman Hudson, Ranking Member Richmond, and all 
Members of the subcommittee for inviting me to testify today. I look 
forward to answering your questions.

    Mr. Hudson. Thank you, Mr. Freeman, for your testimony.
    I apologize to our witnesses and the folks here 
participating, but we are down to about 5 minutes to make it to 
this vote. So, without objection, the subcommittee is in recess 
subject to the call of the Chairman. The subcommittee will 
reconvene 10 minutes after the conclusion of the last vote in 
this series.
    [Recess.]
    Mr. Hudson. The subcommittee will come to order. I 
certainly appreciate everyone's patience for dealing with our 
vote interruption there. Did want to point out that Mr. Freeman 
had to leave. We appreciate him giving his testimony before he 
left. Members will be--have the opportunity to submit questions 
to Mr. Freeman in writing.
    At this point, we will move directly back into witness 
testimony. Our fourth witness is Mr. Michael Mullen, who 
currently serves as the executive director of the Express 
Association of America. The Express Association of America 
represents the four large integrated express delivery 
companies, including DHL, FedEx, TNT, and UPS, and focuses on 
issues that affect shipments requiring expedited, time-
definite, door-to-door transportation, logistics, and 
warehousing services into and out of the United States.
    The Chairman recognizes Mr. Mullen to testify.

  STATEMENT OF MICHAEL C. MULLEN, EXECUTIVE DIRECTOR, EXPRESS 
                     ASSOCIATION OF AMERICA

    Mr. Mullen. Thank you, Chairman and Ranking Member 
Richmond. I appreciate this opportunity to be with you today.
    As I have testified to this committee before, the Express 
Association of America has led the partnership with the U.S. 
Government in the development of the Air Cargo Advanced 
screening, or ACAS, pilot. ACAS is a voluntary pilot project in 
which the security data on U.S.-bound shipments is submitted to 
the National Targeting Center as early as possible in the 
supply chain, and the NTC completes the risk assessment much 
earlier than previously.
    ACAS represents a new partnership between the 
Transportation Security Administration and U.S. Customs and 
Border Protection, in which the two agencies have jointly 
staffed an air cargo targeting and risk assessment center. Over 
the past 2\1/2\ years, over 70 million shipments have been 
analyzed through the pilot. Less than 6,000, or less than 0.1 
percent, have required additional screening to verify the 
contents. No shipments have been identified as a threat to the 
aircraft or required a do-not-load response.
    ACAS represents a significant step forward in TSA's 
participation in a risk-based security effort that has both 
improved security and facilitated a smoother flow of goods 
across borders. In addition to the four integrated express 
delivery companies which began the pilot, five passenger 
carriers and three freight forwarders are operational 
participants in ACAS. Twenty additional companies are in 
various stages of testing in anticipation of joining ACAS.
    A high level of very productive cooperation among TSA, CPB, 
and the private sector continues to be a hallmark of the ACAS 
pilot, with frequent meetings to discuss both policy and 
technical issues. We have conducted realistic tabletop 
exercises to explore the operational procedures in place to 
respond to do-not-load scenarios and have tested the 
communications and information dissemination paths that would 
be used in the event of a real-world incident.
    The process of co-creation that works so effectively in 
establishing the ACAS pilot will also be used for drafting the 
regulation, and the private sector will be fully engaged in 
this effort.
    But one issue has come up that threatens to derail the 
progress made under ACAS. One option being proposed for the 
ACAS regulation is to require the shipment data, which is the 
house air waybill, to be linked to the conveyance data, or the 
master air waybill. For some participants, this would represent 
a real step backwards, which EAA members strongly oppose.
    Separating the shipment data from the conveyance data has 
been critical to the success of ACAS, and it should continue. 
We hope the Government will continue to maintain the 
flexibility that allows ACAS to accommodate various business 
models in the air cargo industry.
    So I would like to mention six key lessons that we have 
learned from the ACAS pilot, and the rulemaking effort to 
formalize ACAS through regulation should incorporate these 
lessons. First, the air cargo industry has made enormous 
investments in security. Before any new regulations are 
proposed to improve what is already a very secure system, 
Government agencies should consider the operational impacts and 
weigh those against the marginal increase in security. This is 
the real backbone of risk-based security.
    Second, limited data can be used effectively to target 
risk.
    Third, penalties should only be imposed in cases of gross 
negligence or willful circumvention of the rules, and not for 
the timeliness or accuracy of information.
    Fourth, the Government is capable of adapting IT systems 
and operational procedures to accommodate various business 
models, and this flexibility is critical to ensure security 
measures do not create competitive disadvantages.
    Fifth, relevant Government intelligence regarding a 
specific shipment must be shared with the private sector when 
appropriate.
    Sixth, international harmonization of the air cargo 
security programs is critical to find a common global solution 
that recognizes the different air cargo business models and 
shares risk assessment results.
    TSA has made significant progress in adopting a risk-based 
approach to air cargo screening requirements over the past 
year. Through the mutual recognition agreement with the 
European Union, TSA has taken a major step toward improved 
trade facilitation. This agreement required extensive work to 
ensure that correct standards were in place across the entire 
European Union, and TSA deserves great credit for persevering 
through the negotiations to reach the final goal.
    I very much appreciate the opportunity to discuss these 
issues with you, and I am looking forward to your questions.
    [The prepared statement of Mr. Mullen follows:]
                Prepared Statement of Michael C. Mullen
                             April 11, 2013
  i. progress of the air cargo advance screening (acas) pilot project
    As I have testified to this committee before, the Express 
Association of America--which includes DHL, FedEx, TNT, and UPS--has 
led the partnership with the U.S. Government (both U.S. Customs and 
Border Protection (CBP) and the Transportation Security Administration 
(TSA)) in the development of ACAS. Over the past 3 years, this pilot 
has expanded significantly both in terms of countries covered and 
industry participants. Today, over 70 million shipments have been 
analyzed through the pilot. Less than 6,000, or less than .1 percent, 
of these shipments have required additional screening to verify the 
contents. No shipments have been identified as a threat to the aircraft 
or required a ``do not load'' response.
    Several additional participants have joined the project. In 
addition to the four integrated express delivery companies which began 
the project, 5 passenger carriers and 3 freight forwarders are 
operational participants in the ACAS pilot. Twenty additional companies 
are in various stages of testing in anticipation of joining ACAS.
    A high level of very productive cooperation among TSA, CBP, and the 
private sector continues to be a hallmark of the ACAS project. Frequent 
meetings are held among these three parties to discuss both policy and 
technical issues. We have conducted realistic table-top exercises to 
explore the operational procedures in place to respond to ``do not 
load'' scenarios that have tested the communication and information 
dissemination paths that would be used in the event of a real-world 
incident. The lessons being learned from the pilot, addressed below, 
are the basis for continually expanding our mutual understanding of 
optimizing the air cargo security environment of the future and are 
pointing the way forward to a regulatory approach that will meet the 
needs of both the Government and industry. The process of ``co-
creation'' that worked so effectively in establishing the ACAS pilot 
will also be used for drafting the regulation, and the private sector 
will be fully engaged in this effort.
    But one issue has come up that threatens to derail the progress 
made under ACAS. One of the keys to the success of ACAS to date has 
been the Government's willingness to accept the information on a 
shipment basis, separated from the data on the conveyance that will 
bring the shipment to the United States. This separation allows ACAS 
participants to send the data far in advance and allows the Government 
to complete the risk assessment early in the supply chain, often before 
the shipment is loaded on a plane. Recently CBP has been indicating 
that when ACAS is regulated, they will require the shipment data (house 
airway bills) to be linked to the conveyance data (master airway bill), 
which would represent a real step backwards. The problems with this 
approach are explained in more detail below. The express industry 
strongly opposes this step and hopes CBP can continue to maintain the 
flexibility that allows ACAS to accommodate various business models 
within the air cargo industry.
                          ii. lessons learned
    The ACAS pilot has demonstrated that a close partnership with 
industry and across Government agency jurisdictions in development and 
execution of new security measures can improve the safety and security 
of global networks while minimizing negative operational and economic 
impacts. Several key lessons have been learned during the pilot, and 
any rulemaking effort to formalize ACAS through regulation should 
consider the following:
  <bullet> Industry and Government Working Together As Partners.--
        Seeking industry input before proposed rulemakings are drafted 
        allows for broader operational impacts to be considered in 
        order to improve effectiveness. The absence of penalties during 
        the ACAS pilot phase reduced ``threshold anxiety'' as a barrier 
        to participation. Penalties should only be imposed in cases of 
        gross negligence or willful circumvention of the rules, and not 
        for the timeliness or accuracy of information (for reasons 
        outlined immediately below).
  <bullet> Limited Data Can Be Used Effectively To Target Risk.--
        Separation of shipment and transport data was a necessary 
        precondition to providing information earlier in the supply 
        chain. The limited information on the shipment transmitted for 
        ACAS is available much earlier than other data required for 
        customs clearance, and ``risk-based targeting'' against this 
        limited data set has proven effective to provide a risk 
        assessment sufficient to qualify a shipment as ``trusted''. 
        Further, the threat is posed by the shipment itself, not the 
        route that a package takes. To date, targeting has been 
        successfully done on the house bill data associated with the 
        shipment. Mandating transport data such as the master airway 
        bill (MAWB) routings or flight numbers, full Automated 
        Manifests System (AMS) manifests, Harmonized Tariff System 
        (HTS) numbers or any other commercial data as part of the 
        advanced security filing not only fails to significantly 
        improve targeting, but would also challenge the operational 
        feasibility to provide data in a timely manner. Therefore, any 
        decision to require the MAWB to be linked to the house bill 
        data in advance of the departure of an aircraft poses a 
        significant burden on the pilot--especially where the origin of 
        the shipment is in the same country as the ``last departure'' 
        airport for a flight bound for the United States--and could 
        threaten the success of ACAS. Further, data provided for ACAS 
        can be ``raw data'' where typographical or other clerical 
        errors do not substantially affect the targeting capabilities.
  <bullet> ACAS Analysis Is Limited To Security.--While it is tempting 
        to use advanced data for other purposes, the success of ACAS 
        has been in part driven by the common goal to prevent a bomb 
        from entering the network. This singular focus of utilizing air 
        cargo advanced data for security risk assessment remains the 
        top priority among private and public-sector participants. 
        Regulatory risk assessment to interdict IPR violations, illegal 
        drugs or other controlled substance trafficking, or other trade 
        functions can and should be the focus of CBP officers upon 
        arrival in the United States. Any attempt to expand the ACAS 
        scope to achieve the simultaneous completion of both security 
        and regulatory risk assessments pre-departure would undermine 
        achieving the primary goal of protecting the supply chain 
        against terrorist attacks.
  <bullet> Flexibility Is Critical For Effectiveness
    <bullet> IT Systems.--ACAS has demonstrated that data can be 
            transmitted via multiple types of IT systems and in various 
            formats. This flexibility in the interface reduces the 
            barrier to participation and avoids unnecessary costs and 
            time delays associated with updating a company's IT system. 
            Furthermore, the flexibility reduces the risk of 
            competitive disadvantages arising from existing differences 
            in the functionality and capacity of corporate IT systems. 
            The final IT filing system developed for ACAS must remain 
            flexible. It should continue to accommodate multiple data 
            submission formats and provide for the return messaging 
            options required by some business models of the entities 
            utilizing the system.
    <bullet> Operational Requirements for Different Business Models.--
            The air cargo industry is not one-size-fits-all; the 
            regulations and programs should not be either. Challenges 
            and opportunities differ between business models, and the 
            system can be flexible regarding who transmits the data and 
            when. While the jointly-held overriding goal is to 
            intercept a high-risk shipment as early as possible, data 
            can be transmitted by multiple partners, depending on who 
            may be in possession of the shipment data. No specific time 
            limit is necessary, as long as data can be transmitted in 
            raw form as soon as available. Further, the Government 
            targeters have the ability to prioritize shipment reviews 
            based on the urgency/timeliness of the shipment itself, 
            thereby helping to address concerns for last-minute 
            shipments in the just-in-time supply chain.
  <bullet> Information Sharing Remains Key.--The private sector is 
        providing shipment level data to the Government. At the same 
        time, any Government-held intelligence of concern regarding a 
        specific shipment must be shared with the private-sector ACAS 
        participants when appropriate. Information sharing should 
        include:
    <bullet> For a shipment that rises to the level of a DNL, the 
            carrier in possession of the shipment must be given all 
            information to quickly identify and isolate both that 
            shipment and others in the network that may be similar.
    <bullet> Other ACAS participants must also be made privy to the 
            full information--for them to identify and isolate similar 
            high-risk shipments.
    <bullet> Finally, a secure means to provide broader threat 
            information to the appropriately-selected security staff 
            within the ACAS carrier is needed. It would improve 
            internal risk targeting prior to a shipment ever entering 
            the network.
  <bullet> The Air Cargo Network Is Highly Secure.--Air cargo operators 
        are highly motivated to ensure their systems are not targeted 
        by a terrorist weapon and have made major investments in 
        creating a secure aviation network based on multiple layers 
        both from Government regulations and additional corporate 
        security measures. Of the millions of shipments screened 
        through ACAS over a period of more than 2 years, less than one-
        half of 1 percent has required additional measures to verify 
        the contents, and no terrorist threats have been detected. This 
        indicates that existing measures are working effectively to 
        deter attempts to exploit the network for terrorist purposes. 
        Before any new regulations are proposed to improve the security 
        of what is already a very secure air cargo system, Government 
        agencies should consider the operational impacts and weigh 
        those against the marginal increase in security. This is the 
        backbone of ``Risk-Based Security.''
  <bullet> International Harmonization Critical For Long-Term 
        Effectiveness.--Most of the industry partners involved in the 
        ACAS pilot are operating on a global scale. There are several 
        initiatives similar to ACAS being planned in multiple 
        countries, and preliminary pilots were conducted between the 
        express carriers and four European countries last year. It is 
        vital that the U.S. Government seek early alignment with 
        international organizations and other partners/countries to 
        develop internationally-recognized standards, procedures, and 
        processes for advanced shipment data provision to minimize the 
        level of variability of systems and requirements and avoid 
        duplication of data submission and security risk assessment 
        where possible. The goal should be to develop a common global 
        solution that recognizes and supports the different air cargo 
        business models and to achieve mutual recognition of security 
        programs and risk assessment results. The global solution 
        should harmonize data requirements and eliminate duplication by 
        ensuring shipment data is only submitted to one country for a 
        single security risk assessment that is accepted by the other 
        countries involved in that movement. This will allow 
        international trade partners to share information globally and 
        quickly, both reducing unnecessary cost and complexity while 
        improving governments' risk assessment capabilities.
                         iii. screening issues
    TSA has made significant progress in adopting a risk-based approach 
to air cargo screening requirements over the past year. By completing 
the mutual recognition of screening protocols and information sharing 
with the European Union last June, TSA more than doubled the size of 
the National Cargo Security Program (NCSP). The NCSP recognizes other 
countries with air cargo security protocols that provide a level of 
security comparable to the United States, and allows operators to 
conduct necessary screening much further upstream prior to a shipment's 
departure for the United States.
    Due to the mutual recognition agreement with the European Union, 
TSA has provided the air cargo industry with considerable more 
flexibility and taken a major step toward improved trade facilitation. 
This agreement required extensive work to ensure the correct standards 
were in place across the entire European Union, and TSA deserves great 
credit for persevering through the negotiation to reach the final goal.
    ACAS has served to illuminate issues around the operational 
protocols for screening shipments considered to be elevated risk. ACAS 
information analysis can result in a requirement to screen a shipment 
at origin, before it begins a trip to the United States that may 
involve several plane changes. Through the NCSP, the results of this 
screening, and the identification of a package as non-threat, stays 
with the shipment as it moves through the supply chain. TSA is 
continuing to engage in discussions with the private sector about how 
ACAS can be leveraged to reduce overall screening requirements through 
an automated approach to identifying shippers as ``known''. Carriers 
need to conduct necessary screening based on a shipper's known status 
at the time and the location in the supply chain that is operationally 
optimum, ensuring full compliance with TSA requirements. This principle 
needs to be the centerpiece of any future modifications to the 
screening regime based on the ACAS experience.
              iv. acas: the new public-private partnership
    ACAS represents a breakthrough in the development of public-private 
partnerships to achieve mutual security and trade facilitation goals, 
or, as the CBP Commissioner has described it, ACAS is a ``game 
changer''. To establish ACAS, CBP and TSA employed an approach that has 
come to be known as ``co-creation'', in which the private sector 
determined at the outset an operational concept for the project, how 
the data would be transmitted, and how the reaction to the results of 
the risk assessment would be managed. These pillars of the project were 
then discussed with the Government and refined to ensure the effort 
would meet their requirements. The private sector also decided the pace 
and direction of the expansion of ACAS to additional countries, within 
a set of priorities that was determined by CBP and TSA. This approach 
differs significantly from the normal method of allowing the business 
community to comment on the Government's approach to a security issue 
only after a regulation has been drafted.
    Based on the success of this approach, CBP and TSA intend to use a 
similar method to evolve ACAS toward a regulatory framework. After the 
pilot project has run for a sufficient amount of time and the results 
are analyzed, the ACAS private-sector participants will engage with CBP 
and TSA to draft a regulation that is based on the operational lessons 
learned from the pilot and that incorporates the flexibility and 
feasibility of the approach employed in the pilot. The regulation will 
also not attempt to employ a ``one-size-fits-all'' approach, but will 
recognize the different business models of the ACAS participants and 
provide a flexible approach to ensuring optimum security, tailored to 
the specific industry entities in the air cargo environment. While 
participation in ACAS is now voluntary, CBP and TSA have often pointed 
out that the primary benefit of engaging in the ACAS pilot will be the 
opportunity to engage in the regulation writing process.
    The private-sector ACAS participants have organized themselves into 
three working groups that are focusing on the policy aspects of the 
regulation, the messaging protocols to submit ACAS information and 
receive the Government's response, and screening issues. The three 
groups have been meeting since late last year and are prepared to 
engage with the Government to discuss the key issues the regulation 
will need to address and a framework for including the lessons of the 
pilot. That process is just getting underway, and is being conducted 
under the auspices of the Commercial Operations Advisory Committee, or 
COAC, which is CBP's main Federal advisory committee. The goal is to 
produce the first draft of the regulation over the next year.

    Mr. Hudson. Thank you, Mr. Mullen, for your testimony.
    Our next witness is Mr. Christopher Browne. Mr. Browne is 
the airport manager of Washington Dulles International Airport 
and is testifying on behalf of the American Association of 
Airport Executives. The American Association of Airport 
Executives is the professional association that represents 
airport management personnel at public use, commercial, and 
general aviation airports. The Chairman recognizes Mr. Browne 
to testify.

STATEMENT OF CHRISTOPHER U. BROWNE, AIRPORT MANAGER, WASHINGTON 
   DULLES INTERNATIONAL AIRPORT, TESTIFYING ON BEHALF OF THE 
           AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Browne. Thank you very much, Mr. Chairman, Members of 
the committee. It is indeed a pleasure to be able to join with 
you today to discuss this important subject and why it is so 
important to airports across the country.
    As noted, I am here representing the American Association 
of Airport Executives and the thousands of airport 
professionals across the country who manage, build, and operate 
our Nation's airports.
    If I may, I would like to use a brief analogy, however, to 
help illustrate why airport supports RBS and how it plays into 
the broader context of what we are talking about. If you will, 
think of our aviation industry as a three-legged stool, where 
each of the legs are interdependent on each other for their 
cooperative success. The first leg of that stool, the airports, 
public agencies operated as businesses. The second leg of that 
stool, airlines, private companies using private capital for 
their business purposes. The third leg of the stool are the 
Federal agencies, FAA, CBP, and TSA, and this is where I think 
we are very different than any other industry that I can think 
of and, indeed, unique, because our Federal agencies play not 
just a regulatory oversight role, an essential one and one we 
very much need, but they play key operational roles, whether it 
is an FAA air traffic controller, a CBP inspector, or a TSA 
screener. These are folks that fulfill key operational roles 
that, if left unfilled or under-resourced, the business model 
for all of us fails.
    So for that reason, airports are very much vested in the 
success of the TSA and, in particular, this program. RBS, as 
you know, as has been discussed--and more particularly, 
PreCheck--is an opportunity where the TSA can use its resources 
to highest and best use, where they can begin to focus more of 
their resources on those folks that present higher risk and 
allow the vast majority of travelers to undergo modified 
screening protocols that are actually creating higher 
throughput at our checkpoints.
    It is important, I think, to remind ourselves of the 
obvious. Everybody that goes through PreCheck is, indeed, being 
screened. So it is important to us as airports that we achieve 
the benefits of PreCheck, primarily a much better use of 
limited resources among the TSA, much better customer service, 
and, in fact, enhanced security.
    Think of the difference it can make at Dulles, where today 
if we have a security screening checkpoint lane that can 
process 125 people an hour, what it means for that lane to then 
be able to screen 250 or more passengers per hour. That is 
better customer service, it is a better use of resource, and 
any business would see it as a huge productivity gain.
    The problem right now is that with PreCheck, the 
populations identified don't get us the numbers we need for 
success. Administrator Pistole has said that by the end of this 
year, 25 percent of all travelers in this country will be 
PreCheck-eligible. I can tell you we are nowhere near that 
Dulles today.
    Global Entry, elite fliers, children under 12, these are 
all good populations worthy for participation in PreCheck, but 
collectively they don't add up to the numbers needed. In fact, 
for PreCheck to really succeed, we need to see 50 percent, 60 
percent and more of the travelers qualifying for it. Then we 
really get the economies of scale and the highest and best use 
of these resources and, by the way, I truly believe, enhanced 
security.
    The problem thus far is that airports have not been able to 
participate at the level we can. Every passenger that comes 
through our front door is an airport customer, and I am 
agnostic as to whether they are Global Entry or not, first-time 
flyer, or frequent flyer. The fact is, it is a huge population, 
and we as airports need the opportunity to tap in and identify 
those folks among that population that qualify for PreCheck. 
That is why we have aligned with other airports and CLEAR, 
previously mentioned, the leading biometric technology company, 
to come up with a plan that we have submitted to the TSA for 
their approval that would allow us to identify these 
populations and significantly grow PreCheck.
    We urge the TSA to act quickly on this proposal, allow us 
and other airports to test it, and then maybe by the end of the 
year, we might start seeing the kind of 25 percent numbers 
Administrator Pistole has spoken to.
    In closing, you know, RBS and PreCheck is a win-win for all 
of us. I think we need to do everything we can to enhance 
customer service, enhance security, and be mindful of the smart 
and intelligent use of limited resources that the TSA will have 
with or without sequestration. Airports are very much willing 
and anxious to play a significant role in that process.
    With that, I will close, and I would be happy to take any 
questions you may have. Thank you.
    [The prepared statement of Mr. Browne follows:]
              Prepared Statement of Christopher U. Browne
                             April 11, 2013
    Chairman Hudson, Ranking Member Richmond, Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to offer the views of airport executives on the Transportation Security 
Administration's efforts to advance risk-based security. I am 
testifying today on behalf of the American Association of Airport 
Executives (AAAE), which represents thousands of men and women across 
the country who manage and operate the Nation's airports. I am actively 
involved with AAAE as vice-chair of the association's Transportation 
Security Services Committee. In addition to my work with AAAE, I 
currently serve as vice president and airport manager of Washington 
Dulles International Airport.
airport executive support precheck and want to facilitate rapid program 
                               expansion
    Mr. Chairman, I want to focus the majority of my comments today on 
TSA's PreCheck program, which, as you know, offers expedited screening 
and a better travel experience to low-risk passengers who have 
voluntarily provided information about themselves for Government 
vetting.
    Airport executives are enthusiastic supporters of PreCheck, and we 
believe that Administrator Pistole and his team deserve immense credit 
for their leadership in moving forward with the program and other risk-
based initiatives. The work of TSA to bring 40 airports on-line to date 
with PreCheck is notable, and we are encouraged by the goal established 
by Administrator Pistole to expand the program further as part of 
broader efforts to provide expedited screening by year-end to 25 
percent of individuals currently processed through security screening.
    In today's difficult budget environment and with passenger levels 
increasing at many airports across the country, it is imperative that 
TSA deploy limited Federal resources effectively. PreCheck offers great 
promise in that regard--although steps must be taken in short order to 
greatly expand the number of eligible individuals who participate in 
the program. Absent a robust, critical mass of participants, the 
program will ultimately fail to fully achieve its objectives of 
enhanced security and efficiency.
    A lack of program participants could also exacerbate wait time 
problems for the majority of travelers who must use ``non-PreCheck'' 
lanes for screening--a situation that neither the traveling public nor 
you as policymakers will accept in the long-term. While we appreciate 
the action the agency is taking in the short term through the ``Managed 
Inclusion'' pilot and other initiatives to more fully utilize PreCheck 
lanes for expedited screening, it is clearly in the long-term interest 
of the agency and the traveling public to ensure that as many 
individuals as possible are enrolled in and utilizing the PreCheck 
program and associated processes.
    The steps that TSA has taken to this point through its largely 
airline-centric approach to facilitate participation from a limited 
pool of elite fliers and with Global Entry participants have provided a 
good start, but the agency must greatly accelerate enrollment in the 
program to gain widespread participation. Airport executives have a 
long history of facilitating participation in trusted traveler 
programs, such as Registered Traveler, and we are eager to play a more 
active role in the days ahead to significantly grow enrollment in 
PreCheck.
    Ultimately, airport executives would like to see the program 
expanded to accommodate as many additional, qualified travelers as 
possible through a community-based, airport-centric approach that 
allows vastly larger populations of travelers to enroll and participate 
in PreCheck-approved programs on an airport-by-airport basis and to 
become trusted through Government-approved vetting protocols.
    Unfortunately, airports currently lack the ability to enroll our 
customers into a TSA-approved system for vetting and program 
participation, leaving a prime opportunity for program expansion 
unutilized. By simply establishing security standards and technical 
specifications and allowing airports to enroll our customers into the 
program--just as participating air carriers currently do--TSA could 
significantly increase the opportunity for program participation and 
set us on a course for meeting the growth necessary to make PreCheck a 
success. Airport operators--as a regulated entity with deep ties to the 
communities they serve--are uniquely situated and qualified to 
facilitate enrollment in the PreCheck program, and we are eager for the 
opportunity to do so.
    Mr. Chairman, from my perspective as an airport manager, I want to 
make sure that customers who utilize my airport have a predictable, 
consistent, efficient, secure experience through the screening process 
to the fullest extent possible. PreCheck has great potential for 
helping to achieve those goals, but the program must evolve to cover a 
much wider pool of participants at our facilities beyond Global Entry 
members or those who are fortunate enough to have status on a 
particular air carrier.
    Airports hold the key to ensuring the future success of the program 
by encouraging additional enrollment and by designing an approach that 
makes sense at individual airport facilities, which can vary 
dramatically in terms of passenger mix, airport layout, and other 
critical factors. With robust airport involvement, the program can and 
should grow and give qualified participants assurances that when they 
fly out of Dulles International or any other particular airport, they 
will have the predictable, consistent experience they need and value.
airports are eager to partner with tsa to expand precheck participation
    AAAE and airports have long supported the trusted traveler concept 
that underlies PreCheck, and we are actively working with TSA in an 
effort to rapidly expand the population of passengers participating in 
the program. We are also working collaboratively with TSA to address 
related issues affecting program expansion, including checkpoint 
configuration, queue management, modified LEO response expectations, 
and public outreach and communication.
    Airports long ago recognized that there was great potential value 
in terms of enhanced security and efficiency with the deployment of 
trusted traveler programs. Airports have also understood that they are 
uniquely situated to bring interested parties together to chart a 
course that would result in the successful deployment and operation of 
these types of programs.
    Over the past decade, AAAE and individual airports have worked 
closely with TSA and the technology community to implement other 
specific trusted traveler programs, including Registered Traveler. In 
roughly 1 year, the RT program enrolled more than 250,000 travelers at 
24 airports, proving the security and efficiency benefits that adoption 
of these programs provides. AAAE is encouraged by and supportive of 
recent private-sector initiatives aimed at facilitating the wide-scale 
utilization of the trusted traveler approach at airports across the 
country.
    Based on our prior success with trusted traveler initiatives, AAAE 
has encouraged TSA to utilize community-based, airport-centric 
enrollment options to facilitate the flow of additional information to 
the agencies on a significantly expanded number of low-risk passengers 
for eligibility in the PreCheck program. In addition to providing the 
volume of passengers necessary for TSA to realize the operational 
efficiencies for which the programs are designed, airport-specific 
public enrollment options will allow airport operators to proactively 
and directly participate in and promote the risk-based programs that 
they support.
    By playing such a key role, airport operators will also benefit 
from local implementation of National programs that enhance security. 
Airport involvement will also bolster the relationship between airport 
operators and local TSA staff, increase affinity to airports, and 
assist TSA in reducing the complexity while enhancing the customer 
experience at passenger screening checkpoints. The success of TSA's 
efforts to advance intelligence driven risk-based security approaches 
is a top priority for AAAE and its airport leadership.
    Airports are confident that in partnership with TSA they can help 
facilitate the deployment of robust trusted/known traveler programs 
that focus on enhanced security above all else in addition to 
expediting the travel experience. These two pillars are the primary 
values that air travelers want and that each of you as policymakers 
rightly will demand. By bringing efficiency back into the Nation's 
airport screening checkpoints, TSA screeners will be able to better 
focus their resources on the critical task of providing more rigorous 
screening to individuals about whom we know less than those who use the 
system the most and have voluntarily submitted background information 
for extensive vetting and clearance.
tsa must remain focused on its primary mission of passenger and baggage 
                               screening
    While not the primary focus of today's hearing, we also wanted to 
bring to the subcommittee's attention our concern with proposals that 
continue to emerge to expand TSA's authority beyond its primary mission 
of passenger and baggage screening. Expanding the agency's reach and 
responsibilities--particularly to areas already in capable local 
hands--runs contrary to efforts to more effectively align scarce 
resources with the areas of greatest threat in a risk-based approach.
    As you know, airports play a critical role in aviation security, 
serving as an important partner to TSA in helping the agency meet its 
core mission of passenger and baggage screening. The significant 
changes that have taken place in airports over the past decade with the 
creation of the TSA and its assumption of all screening duties have 
been aided dramatically by the work of the airport community, and we 
will serve as a critical local partner to the agency as it continually 
modifies its operations, including some of the risk-based security 
initiatives that are under discussion today.
    In addition to partnering with TSA to meet its core mission, 
airports as public entities provide a critical local layer of security, 
performing a number of inherently local security-related functions at 
their facilities, including incident response and management, perimeter 
security, employee vetting and credentialing, access control, 
infrastructure and operations planning, and local law enforcement 
functions. These important duties have long been local responsibilities 
that have been performed by local authorities in accordance with 
Federal standards and subject to Federal oversight. Airport operators 
meet their security-related obligations with a sharp focus on the need 
to protect public safety, which remains one of their fundamental 
missions. The professionals who perform these duties at airports are 
highly trained and have the first responder authorities and 
responsibilities that we all value immensely.
    From a security and resource perspective, it is critical that 
inherently local security functions--including incident response and 
management, perimeter security, employee vetting and credentialing, 
access control, infrastructure and operations planning and local law 
enforcement--remain local with Federal oversight and backed by Federal 
resources when appropriate. We urge the subcommittee and Congress to 
reject efforts to Federalize local security functions at airports.
   airport credentialing and access control should remain with local 
                            airport control
    One area of particular concern for airport executives that we are 
compelled to highlight for the subcommittee is an on-going effort to 
``harmonize'' or ``modernize'' various aspects of existing 
transportation worker vetting programs. In the aviation environment, 
the background check process for workers operates successfully as a 
Federal/local partnership with the Federal Government holding sole 
responsibility for security threat assessments and other necessary 
Government checks for prospective workers and with local airport 
authorities operating and managing enrollment, credentialing, badging, 
criminal history background check adjudication and access control 
systems in accordance with strict Federal standards.
    The current system for aviation ensures the highest level of 
security by combining the unique local experience, expertise, and 
knowledge that exists at individual airports with Federal 
standardization, Federal oversight, and Federal vetting assets. Local 
involvement provides a critical layer of security and gives airports 
the operational control they require to ensure that qualified employees 
receive the credentials they need to work in the airport environment.
    In contrast to the long-standing locally controlled credentialing 
and access control apparatus that exists in the aviation environment, 
the credentialing/access control system in place in the maritime 
environment with the Transportation Worker Identification Credential 
(TWIC) program is relatively new. Under the TWIC model, the Federal 
Government or its contractors are responsible for virtually all aspects 
of the process, including worker enrollment, applicant vetting, 
credential issuance and some elements of access control. In our view, 
the early results of TWIC have been uneven at best despite hundreds of 
millions of dollars in Federal investments. The existing system in 
aviation operates at no cost to the Federal Government.
    Some have suggested abandoning the successful local systems and 
processes already in place at airports with badging and access control 
to expand TSA and the Federal Government's control over more of the 
process as is the case with TWIC in the maritime environment. Airport 
executives oppose any move to shift any additional functions in 
aviation to the Federal Government as is contemplated under the 
agency's Universal Enrollment System (UES) and believe that such a move 
would diminish security by reducing or eliminating a critical, extra 
layer of security that is already in place in airports and absent with 
the TWIC approach.
    Pursuing such an approach as planned under the UES would scuttle a 
successful local/Federal model that has worked well for decades, 
eliminate local operational control, stymie significant efforts already 
under way at airports across the country to upgrade and biometrically 
enable existing airport badging and access control systems, and 
significantly increase costs to the aviation industry with no 
demonstrable security benefit.
    While the desire to centralize and Federalize the process for all 
transportation worker vetting programs in the name of modernization or 
harmonization may be understandable from the Federal Government's 
perspective, airport executives are concerned about Federal intrusion 
into existing processes that have worked well for decades. Airports are 
also very concerned about having to help foot the bill for these 
initiatives--estimated at $633 million through 2025 in appropriations 
and new fees as part of the Technology Infrastructure Modernization 
(TIM) program and associated UES--for changes that provide them with no 
demonstrable security or operational benefit. The current system in 
aviation operates efficiently and effectively at a fraction of the cost 
of other transportation vetting programs and at no cost to the Federal 
Government. We want to ensure that remains the case.
    TSA can and should continue with its efforts to modernize and 
harmonize its internal vetting programs without the need to expand the 
Federal Government's responsibilities to include credentialing and 
access control in the aviation environment. As the subcommittee and 
Congress consider the TIM and UES programs, we urge you to exempt 
aviation from any new fees or requirements in recognition of the 
existing, successful, locally-controlled credentialing and access 
control model and the significant investments that have been made 
locally over the years to those systems. Efforts to Federalize any of 
these processes or functions are unnecessary and wasteful and should be 
rejected.
                               conclusion
    With Federal resources under severe constraint and with more than 
700 million passengers traveling through the U.S. aviation system each 
year--a number that is expected to grow significantly in the years 
ahead--it is imperative that TSA remain focused on its primary mission 
of passenger and baggage screening while pursuing risk-based approaches 
to enhance security and efficiency. AAAE and airport executives are 
encouraged by TSA's recent efforts with PreCheck, and we are eager to 
partner with the agency to expand the program to additional populations 
and airports through community-based, airport-centric approaches.
    I appreciated the opportunity to be here today and look forward to 
any questions you have.

    Mr. Hudson. Thank you, Mr. Browne, for your testimony.
    Our final witness is Mr. David Borer, who currently serves 
as general counsel for the American Federation of Government 
Employees. The American Federation of Government Employees is 
the largest Federal employee union, representing 650,000 
Federal and D.C. Government workers Nation-wide and overseas. 
The Chairman recognizes Mr. Borer to testify.

    STATEMENT OF DAVID A. BORER, GENERAL COUNSEL, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Borer. Thank you, Mr. Chairman and Ranking Member 
Richmond, Members of the subcommittee. On behalf of the over 
650,000 Federal employees, including 45,000 transportation 
security officers represented by AFGE, I thank you for the 
opportunity to testify today.
    I also want to express our union's appreciation of Ranking 
Member Richmond and Mr. Thompson for the SPP bill introduced 
yesterday.
    AFGE is on record supporting the principle of risk-based 
security. It can focus TSA's work on genuine risks while 
eliminating unnecessary procedures and identifying low-risk 
individuals. PreCheck and Known Crewmember, as we have heard 
this afternoon, are promising, successful programs that we hope 
to see expanded.
    However, the decision to end the ban on knives was 
hopelessly flawed and failed to account for the very real risk 
posed by those knives. It is just common sense. Allowing knives 
through the checkpoint and onto the aircraft increases the 
safety and security risk. TSOs, air marshals, flight 
attendants, pilots, passenger groups all oppose the new policy. 
Even some airline CEOs have spoken out against lifting the 
knife ban, a rare consensus of opinion between labor and 
management in the airline industry.
    Despite all of the unfounded criticism, TSA and the 
officers that we represent have made air travel safer. Enormous 
quantities of deadly contraband, including knives, have been 
stopped at the security checkpoints. Where private security 
companies failed us on September 11, TSA has had an effective 
record in preventing further attacks.
    TSA's sudden policy change without consulting TSOs and 
their union makes no sense. TSOs know that a policy change like 
this will increase risks for themselves and others and will 
have unintended consequences like longer security lines. Their 
input could have prevented this dangerous policy change.
    While AFGE was not consulted, published reports indicate 
that lobbyists for the knife industry were. Those lobbyists now 
claim to have been instrumental in winning the change and even 
``an anonymous TSA official'' is thanking them for their 
``assistance'' in lifting the ban.
    The knife industry has no responsibility for aviation 
safety and security, only a commercial interest. They should 
have no role in this process.
    But my testimony today is not concerned simply with the 
failure to consult with AFGE and other key stakeholders or the 
lack of notice about the knife rule. This is about--as it 
states in the Aviation and Transportation Security Act, 
``ensuring the safety and integrity of all persons providing 
services with respect to the aircraft providing passenger air 
transportation.''
    Despite repeated statements by the agency, preventing the 
catastrophic loss of an aircraft is not TSA's only mission, and 
we reject the implication in that statement that collateral 
casualties in the cabin or at the checkpoint are therefore 
acceptable risks.
    The prohibited items list is a critical component of 
accomplishing TSA's mission. Small scissors and nail clippers 
have been allowed in the past. Other changes have been made. 
But under this latest change, items actually designed and used 
as weapons will now be allowed onto the aircraft.
    One knife manufacturer is already advertising the 
development of new knives for use as ``weapons'' on-board 
aircraft, knives that are designed to comply with TSA's new 
policy. The transition from an absolute ban on knives to a 
policy that requires a TSO to quickly determine the size and 
type of a knife will result in resistance from certain 
passengers. We are concerned about training for TSOs. We are 
concerned about long lines at the checkpoint. We are especially 
concerned about assaults by irate passengers.
    Assaults and batteries are already almost routine for TSOs. 
There have been two in the last 2 weeks. When our union 
contacted the TSO recently assaulted in Honolulu Airport, one 
of the first things she said was, ``What would have happened if 
that person had a knife?''
    The changes to the PIL have also caused outrage among the 
Nation's flight attendants. They, too, have seen a growing 
number of assaults and batteries, so much so that the term 
``air rage'' has now entered our collective vocabulary. While 
TSA notes that no flight attendant in the United States has 
been attacked with a knife, you should know, Mr. Chairman, that 
flight attendants in other countries have been attacked with 
knives as recently as 2011. Several of the terrorists on 
September 11 are known to have been armed not just with box 
cutters, but with pocket knives.
    Flight attendants are also confronted by the same irate 
passengers our TSOs deal with at the checkpoint. In fact, in 
some cases, passengers have committed an assault and battery on 
a TSO at the checkpoint only to be waived through by a 
supervisor and allowed to board an aircraft.
    In conclusion, if we learned anything from September 11, it 
is that desperate and fanatical people can wreak havoc and 
commit acts of death and destruction in air travel. Knives must 
continue to be banned from commercial aviation. TSA's mission 
is to reduce, not to increase, the risk in commercial aviation. 
Knives have no place on airplanes ever again.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Borer follows:]
                  Prepared Statement of David A. Borer
                             April 11, 2013
    Mr. Chairman, Ranking Member Richmond, and Members of the 
subcommittee, my name is David A. Borer, and I am the general counsel 
of the American Federation of Government Employees, AFL-CIO (AFGE). On 
behalf of the members of our union, which represents more than 650,000 
Federal employees, including 45,000 Transportation Security Officers 
(TSOs) working on the front lines of aviation security, I thank you for 
the opportunity to testify today regarding stakeholder perspectives on 
the Transportation Security Administration's (TSA) efforts to advance 
risk-based security.
                          risk-based security
    AFGE and the TSOs we represent are on record supporting the 
principle of risk-based security. Careful, risk-based analysis can help 
to focus TSA's work on genuine risks to safety and security, while 
eliminating unnecessary procedures and identifying low-risk individuals 
who require less scrutiny. However, risk-based security decision 
analysis like the kind that resulted in the decision to end the ban on 
knives, is not a model that should be duplicated. The decision to end 
the ban on knifes was hopelessly flawed and certainly failed to account 
for the risk posed by knives.
    Operational experience and common sense tell us that allowing 
knives through the checkpoint and onto the aircraft increases the 
safety and security risk to TSOs, crew members, and passengers. TSOs, 
air marshals, flight attendants, and pilots oppose the new policy 
because it increases the risk they face on the job. Even some airline 
CEOs have spoken out against lifting the knife ban; a rare consensus of 
opinion between labor and management in the airline industry.
    The TSOs represented by our union share with TSA the goal of 
ensuring the safety and security of air travel in the United States. 
Our TSOs are sworn to protect air travelers and their families and 
loved ones, as well as the hundreds of thousands of workers who make 
commercial aviation possible. Despite all the unfounded criticism 
heaped on TSA and these officers, the bottom line is that they have 
been successful in making air travel safer. There has not been a repeat 
of the September 11-style attacks since TSA was put in charge of 
aviation security. Enormous quantities of deadly contraband--including 
knives--have been stopped at the security checkpoints, preventing it 
from being carried onto the aircraft. Where private security companies 
failed us on September 11, TSA has had an effective record in 
preventing further attacks.
               failure to consult with afge and the tsos
    Against this background, TSA's sudden change of policy, without 
consulting TSOs and their union in any formal way, makes no sense. We 
understand that, to be successful, TSA must stay several steps ahead of 
terrorists through procedures and technology that evolve in response to 
real-time intelligence developments. TSOs have the hands-on operational 
experience to know that a policy change like this will increase risks 
for themselves and others, and will have other unintended consequences 
like longer security lines. Their input could have proven invaluable in 
the process leading up to the decision of whether to change the ban on 
knives. It seems illogical, then, that TSOs are often the last to be 
informed of screening changes they are to implement, and are routinely 
denied any meaningful input to inform those decisions. In this case, 
TSOs and AFGE were informed of the policy change, just minutes before 
the public announcement, by a TSA official who kept looking at his 
watch for fear that he was going to miss the announcement. The 
extremely short briefing permitted virtually no dialog, nor was our 
input sought in advance. TSA Administrator Pistole has referred to TSOs 
as ``effective'', ``professional'', and ``integral'' to the agency's 
mission. However TSA's refusal to engage with the largest segment of 
its workforce and their duly elected exclusive representative has 
actually hampered the agency's ability to seamlessly function as an 
intelligence-driven, risk-based operation.
    This failure to consult with key stakeholders on the front line of 
aviation safety and security became all the more intolerable when 
reports were published indicating that lobbyists for the knife industry 
were consulted. In fact, they now claim to have been ``instrumental'' 
in winning the change, and they quote an anonymous TSA official as 
thanking knife industry representatives for their ``assistance'' in 
lifting the ban. Administrator Pistole issued a brief denial that he 
had considered the views of knife industry representatives in making 
his decision, but TSA has not denied that the meetings took place nor 
disclosed what role they played in influencing TSA staff responsible 
for developing the policy for the administrator's review and approval. 
The knife industry has no role nor any responsibility for aviation 
safety and security, only a commercial interest. If they are to be 
considered a stakeholder at all, they must be considered subordinate to 
the stakeholders who have a direct role in keeping air travel safe and 
secure.
    Despite unlimited opportunities to engage AFGE--the exclusive 
representative of every one of the 45,000 TSOs working at our Nation's 
airports--since the summer of 2012, TSA defiantly and deliberately 
ignored every opportunity to hear first-hand the valid concerns of the 
workforce regarding the knife policy. There is nothing in the Aviation 
and Transportation Security Act (Pub. L. 107-71) that absolves TSA of 
the duty to engage AFGE as the exclusive representative of TSA 
employees. In granting a representation election for TSA employees, the 
Federal Labor Relations Authority (FLRA) stated that the following 
rights apply to exclusive representatives irrespective of the extent of 
collective bargaining. The FLRA wrote:

``For example,  7114(a)(1) provides exclusive representatives with not 
only the right to `negotiate collective bargaining agreements covering' 
unit employees, but also a separate right to `act for' those employees. 
Additionally,  7117(d)(1) gives certain exclusive representatives the 
right to `consultation rights[,]' separate and apart from the right to 
engage in collective bargaining. Further,  7114(a)(2)(A) entitles the 
exclusive representative to be represented at certain `formal 
discussion[s] . . . concerning any grievance or any personnel policy or 
practices or other general condition of employment [.]' In this 
connection, the Authority has held that the definition of `grievance' 
is not dependent on the scope of a negotiated grievance procedure. See 
*247 Luke Air Force Base, Ariz., 54 FLRA 716, 730 (1998), rev'd 208 
F.3d 221 (9th Cir. 1999). As such, the right of an exclusive 
representative to attend formal discussions under  7114(a)(2)(A) does 
not require the existence of a collective bargaining agreement. U.S. 
Department of Homeland Security, Transportation Security Administration 
and AFGE, 65 FLRA 242, 246 (2010).''

    Administrator Pistole himself also recognized both the obligation 
of the agency to consult with AFGE as the exclusive representatives of 
TSOs and the importance of labor-management consultation to assist the 
agency in accomplishing its mission of transportation security. 
According to the Determination dated February 4, 2011 (Determination), 
``Labor management relations must be results oriented, designed to 
solve problems and resolve issues rather than defer resolution through 
resorting to lengthy, multiple, adversarial avenues.'' The 
Determination further noted that ``TSA management must . . . act in a 
manner characterized by cooperative problem solving approaches to 
raising, addressing, and seeking resolution of issues.'' Determination 
at Page 5 and 15. President Obama also signed Executive Order 13522 to 
create labor-management forums throughout the Government to ``establish 
cooperative and productive labor-management relations'' throughout the 
Executive branch. AFGE is a member of Department of Homeland Security 
labor-management forum established in 2011 by Secretary Janet 
Napolitano.
    On March 21, 2013 Rep. Bennie Thompson, Rep. Eric Swalwell and Rep. 
Cedric Richmond, along with 133 other Members of Congress sent 
Administrator Pistole a letter expressing concern about the changes in 
the PIL and, in part, questioning the apparent lack of consultation 
with AFGE, unions, and other stakeholders. On April 3, 2013 
Administrator Pistole responded in a letter that included an enclosure 
in which the administrator mentions informal conversations with TSOs, 
and the National Advisory Council, a body with no standing that 
represents no one at the agency. Administrator Pistole even mentions 
2,000 votes in support of expanding the list of permitted items on the 
Idea Factory, a form of on-line poll at the agency. Considering TSA 
employs over 45,000 TSOs, a vote of support of slightly over 4% of the 
total TSO workforce indicates an overwhelming lack of support from the 
majority. This alleged worker ``input'' is contrary to the 
consultations with the exclusive representative required by the FLRA 
and the Pistole Determination.
               changes to the prohibited items list (pil)
    This is not simply about failure to consult with AFGE and other key 
stakeholders, or lack of notice, or a breakdown in procedures. This is 
about ``ensur[ing] the safety and integrity of all persons providing 
services with respect to aircraft providing passenger air 
transportation,'' as referred to in ATSA. 49 U.S.C.  
44903(h)(4)(C)(i), (emphasis added). TSA would have us believe that the 
agency's mission is limited to matters concerning the catastrophic loss 
of an aircraft. But, the mission is much broader, as the above passage 
from ATSA indicates, and the prohibited items list is critical to 
accomplishing that mission.
    TSA has previously modified its PIL to allow TSOs to clear 
passengers with items such as knitting needles, small scissors, and 
nail clippers through checkpoint. But in March, the agency announced 
that, for the first time since 2001 passengers would be able to carry 
items that not only can be used as weapons, but actually are weapons 
through checkpoints and onto planes. Make no mistake about it: A blade 
of 2.36 inches is a weapon whether it folds, locks, or is fixed.
    The transition from an absolute prohibition on knives to a policy 
that requires a TSO at a fast-moving checkpoint to determine the size 
and type of a knife will result in inevitable resistance by certain 
passengers. Although the administrator has stated TSOs will be trained 
to refrain from opening folding or pocket knives, AFGE fails to see 
what will prevent a determined passenger from opening the knife at a 
checkpoint. Assaults and occasional battery are already almost routine 
for TSOs. Under the new policy, those irate passengers will now be, 
potentially, armed with a knife, increasing the risk of injury or 
worse.
    That TSO is a member of AFGE. When the union contacted her after 
the incident to see if she needed our assistance, one of the first 
things she said was ``what would have happened if that person had a 
knife?'' Admittedly, this incident took place at the exit lane, not at 
the checkpoint screening equipment. But it demonstrates the threat TSOs 
face every day when they go to work; a threat that will only increase 
as more knives pass through the airport.
    Based on our members' experience, I predict that it won't be long--
perhaps days, maybe less--under the new policy before some passenger 
will start a verbal altercation with a TSO. An irate passenger will not 
be able to resist arguing over the length of the knife, its design, or 
other reasons a TSO may have decided it must be excluded. Passengers 
snatch items out of TSOs hands all the time. Now we face the risk that 
a passenger will say something like ``give me that knife, I'll show you 
it's not too long.'' Or, ``I'll show you it's not a locking blade.'' 
Suddenly there's an angry passenger with an open knife at the 
checkpoint.
    TSA's answer, at least informally, has been that no knives should 
be opened at the checkpoint, none will be measured. Management tells us 
it's a TSO judgment call and TSA will not second-guess the officer's 
decision. We're told if something happens, ``call a supervisor.'' 
Saying that is how the policy should be implemented is easy. But 
officers with thousands of hours of experience on the checkpoint know 
that making it actually work that way in the day-to-day operation, with 
millions of passengers streaming through the checkpoint, is impossible.
    The changes to the PIL have also caused outrage among the Nation's 
flight attendants. They too have seen a growing number of assaults and 
batteries, so much so that the term ``air rage'' has entered our 
collective vocabulary. TSA's carefully worded letter to Members of 
Congress notes that no flight attendant in the United States has been 
attacked with a knife. Several of the terrorists on September 11, were 
armed with pocket knives, not just box cutters. Flight attendants in 
other countries have been attacked with knives as recently as 2011. 
Beyond the everyday threat of terrorism, flight attendants are 
confronted by the same irate passengers our TSOs deal with at the 
checkpoint. In fact, in some cases, passengers have been known to 
commit an assault or even a battery on a TSO at the checkpoint, only to 
be waived through by a supervisor and allowed to board a flight.
    The new PIL also has the potential to increase screening lines at 
checkpoint at a time when sequester is thinning the ranks of TSOs 
through unfilled positions, loss of overtime, and possible furloughs in 
the future. TSOs also are concerned about training for the new PIL when 
the sequester has placed additional pressure on training time that was 
too limited to begin with. In short, TSOs are very, very concerned.
                               conclusion
    Finally, there is something very troubling about the dismissive way 
TSA treats the increased threat that knives pose to TSOs, flight 
attendants, and passengers. TSA management does not deny that there is 
some risk posed by knives. Yet, they just keep repeating the talking 
point: No catastrophic loss of the aircraft. That statement is a veiled 
reference to the cockpit door, locked and reinforced since September 
11, presumably impenetrable by assailants with small knives. By 
omission, TSA's statement concedes that there may be some casualties in 
the cabin as a result of knives on planes, just not enough to result in 
the catastrophic loss of the aircraft. Even the U.S. military is more 
open about what it considers to be acceptable collateral casualties. 
With this focus exclusively on catastrophic loss of the aircraft, TSA 
demonstrates an approach that is directly in conflict with the mission 
to ensure the safety and integrity of all persons providing services in 
the airline industry.
    If we learned anything on September 11 it is that desperate and 
fanatical people can wreak havoc and commit unspeakable acts of death 
and destruction in air travel. Knives must continue to be banned from 
commercial aviation because allowing passengers to carry knives 
increases the risk to safety and security at the screening checkpoint 
and on the aircraft. TSA's mission is to reduce or prevent breaches of 
safety and security, not increase them. If TSA does not reinstate the 
knife ban for the reasons cited above, then Congress should impose the 
ban. Knives have no place on airplanes, ever again.

    Mr. Hudson. Thank you, Mr. Borer.
    Before I begin questioning, we have some additional 
statements for the record that I would like to submit at this 
time. The first is from Paul Hudson--no relation--president of 
FlyersRights.org. The second is from David Whitmire, president 
and CEO of K2 Solutions Incorporated. The third is from Brandon 
Fried, executive director, Airforwarders Association.
    Without objection, so ordered.
    [The information follows:]
         Statement of Paul Hudson, President, FlyersRights.org
                             April 11, 2013
                        the tsa has lost its way
    A new policy announced by Transportation Security Administration 
(TSA) Administrator John Pistole on March 4 will allow knives in carry-
on baggage with blades under 6 centimeters (2.36 inches) starting April 
25. This shocking announcement was sprung on the public without warning 
with no vetting, public comment period, or input from those 
representing flight attendants, pilots, and passengers--those actually 
at risk.
    Terrorists will soon be able to board U.S. airliners with knives as 
sharp as the then-permitted box cutters and knives used by the 9/11 
hijackers. TSA screeners will also have a whole new set of complicated 
time-consuming inspections for knives that may further slow up airport 
security.
    The 9/11 Commission Report noted that the al-Qaeda hijackers used 
knives to kill several flight attendants and the pilots on all four 
hijacked flights, that were then used to kill nearly 3,000 by 
destroying the World Trade Center and damaging the Pentagon. The FAA in 
2001 did not prohibit knives with blades under 4 inches because: (a) 
They did not consider them dangerous, (b) some local laws permitted 
carrying knives, and (c) they were hard to detect so banning them could 
slow down security screening,
    Others have suggested that allowing knives will raise the 
consistently-poor performance test scores of screeners and thereby make 
the TSA look better. The 9/11 hijackers were also reported to have 
trained killing sheep with pocket knives and were well aware of the lax 
FAA policies on permitting small knives.
    TSA claims international standards required this change, but this 
is false. The International Civil Aeronautics Organization (ICAO), the 
special U.N. agency which makes aviation security recommendations, has 
no such requirement, standard, or recommendation. ICAO merely indicates 
that some nations permit knives under 6 cm and others do not, just as 
some permit gels and liquids and others do not. Some also permit 
smoking and others do not. No recommendation of ICAO calls for 
permitting knives in the passenger cabin. Anyone wishing to carry a 
knife may place it in checked baggage, and the TSA could supply mailers 
to return confiscated knives to their owners.
    On March 14, TSA Administrator Pistole told Congress ``terrorists 
don't use knives anymore'' and his internal studies show that looking 
for them distracts screeners from looking for bombs. He reaffirmed his 
new knife policy will be implemented as planned. Really, terrorists 
must be rejoicing at such revealing comments from the top aviation 
security official for the United States Government. This is one step 
from ``bring it on'' and ``oh by the way, we are not really ready to 
stop you.''
    Given my deep, 24-year involvement in aviation security, I have for 
months sought a meeting with Administrator Pistole to discuss this and 
other TSA policy issues. On December 21, 2012, after the Lockerbie/Pan 
Am Flight 103 memorial service at Arlington National Cemetery, 
Administrator Pistole personally gave me his word he would meet with 
me. I lost my beloved 16-year-old daughter Melina in that 1988 bombing 
and became an aviation security activist in her memory. Since December 
21, however, four requests to schedule that meeting have been ignored. 
If the head of TSA ignores his own promises to meet with 
representatives of those most affected, what chance does the ordinary 
citizen have for grievances to be addressed?
    The TSA now has 10,000 complaints per year, but has no effective 
system for resolving them. Administrator Pistole has arrogantly ignored 
numerous meeting requests to meet with stakeholders or provide for any 
public input prior to announcing the new knife policy on March 4. While 
the TSA performs a vital function of keeping terrorists from attacking 
America using civil aviation, unless it resolves its many problems, 
perhaps with new leadership, it may not survive in its present form.
                                 ______
                                 
        Letter From David W. Whitmire to Chairman Richard Hudson
                                     April 11, 2013
The Honorable Richard Hudson,
Chairman, Subcommittee on Transportation Security, United States House 
        of Representatives, 429 Cannon House Office Building, 
        Washington, DC 20515.

Re: Testimony in Support of the Transportation Security 
Administration's Effective Utilization of Canine Teams to Aid in the 
Advancement of Risk-Based Security

    Chairman Hudson, Ranking Member Richmond, and distinguished Members 
of the subcommittee: Thank you for the opportunity to present written 
testimony advocating for the effective utilization of canine teams for 
the Transportation Security Administration and the Department of 
Homeland Security in support of the United States' on-going efforts to 
improve and advance security measures. As president and chief executive 
officer of K2 Solutions, Inc., it is my distinct honor and privilege to 
provide you with pertinent information derived from extensive 
experience in the canine industry to assist in your efforts to resolve 
certain areas of concern within the TSA Explosives Detection Canine 
Program, as identified in the January 2013 report published by the 
Government Accountability Office, and to provide expert analysis on 
possible methods for enhancing the TSA's Risk-Based Security 
initiatives by leveraging successes from both the private and 
Government sectors.
    K2 Solutions, Inc. (K2), a Service Disabled Veteran Owned Small 
Business, is an industry leader focused on fulfilling customer 
requirements by providing solutions ranging from the rapid fielding of 
technology and systems integration to the deployment of security 
products and services. Taking concepts to combat, and offering tailored 
solutions to our clients within the public safety sector, is a by-
product of our diligence in research, development, testing, and 
evaluation. K2's leadership team, comprised entirely of Special 
Operations Veterans, has a deep understanding of asymmetric threat 
behavior and user requirements. This knowledge has been extensively 
relied upon and has served as a basis for enabling K2 to develop 
countering techniques, training, and rapid adaptation of security 
protocols to produce new systems in support of our clients' needs. In 
2007, K2 initiated a canine program in order to provide our troops with 
the capability to detect explosives and explosive pre-cursors during 
combat operations through the utilization of highly-trained explosives 
detection canines. Subsequently, K2 developed training techniques, 
which enabled us to provide the Department of Defense with canines 
capable of performing off-leash detection services. These canines 
currently are used by the DOD to fill the gap in Stand-off Detection of 
Explosives and Explosives pre-cursers (SDE2P).
    K2's success in providing highly-trained explosives detection 
canines for the administration of security services is evidenced by 
multiple DOD and military contract awards, follow-on contracts, and the 
exercise of contract options; but the truest and most rewarding 
testament to our efficacy lies within the stories imparted by members 
of the United States Military, who have nobly served this country and 
returned to tell tales of incredible achievement and sacrifice on the 
part of their canines. It is the inveterate awareness of precisely what 
is at stake, should a canine fail to detect an explosive, that compels 
K2's adamancy in accepting nothing short of excellence, 100 percent of 
the time.
    To date, K2 has successfully procured, trained, and assessed over 
1,570 canines, and provided certifications and re-certifications for 
more than 800 explosive-odor and narcotic-detection canines to 
military, law enforcement, and civilian clients around the world. This 
includes six major contract awards in support of the Marine Corps' 
Improvised Explosive Device Detector Dog (IDD) Program, U.S. Special 
Operations Command (USSOCOM), and the British Military Working Dog 
Program.
    The success of the canine programs we have been associated with is 
a result of the company's focus on three essential areas of practice: 
Comprehensive analyses of programs and training initiatives, including 
follow-on training; continuous support and facilitation of research and 
development; and formulation and use of innovative technologies and 
services, such as explosive detection solutions that provide safe 
standoff distance to personnel using the technology.
    One subject raised in the GAO report was concern regarding the 
Passenger Screening Canine Team evaluations, which are currently 
conducted internally by the TSA. While internal evaluations can be 
constructive if carried out regularly and uniformly, the TSA would 
realize a greater benefit by engaging external sources to administer at 
least some percentage of the evaluations. The use of external 
evaluation teams has proven highly effective in providing consistent 
and objective results. Under a contract with Johns Hopkins University, 
K2 executed initial training using in-house resources available at the 
K2 K9 training facility, followed by intensive on-site training, to 
provide the University of Maryland with canines capable of detecting 
person-borne explosives in a matter of 14 weeks. This type of detection 
capability is very similar to the type of detection for which the TSA 
PSC is intended. Because canine detection of person-borne explosives is 
a relatively new technology, it was imperative to seek external 
certifications to ensure objectivity and credibility. One of the main 
reasons this program has been so effective is that the International 
Police Work Dog Association (IPWDA) was engaged to provide the 
certifications for the University of Maryland Program. It is worthy to 
note that the outcome of the certification was a 100 percent rate of 
passage, and the canines in the program have continued to exceed 
expectations. Regular testing and evaluation by an accredited objective 
entity such as the IPWDA is a critical component of any successful 
canine program.
    A second issue noted in the GAO report relates to areas of weakness 
in PSC teams' effectiveness due to inadequate or insufficient training. 
PSC teams can provide invaluable security support when equipped with 
the proper initial training and requisite follow-on training. The PSC 
requires more specialized training than the traditional canine, and 
such training is every bit as essential for the handler as it is for 
the canine. The latest Person-Borne Explosives Detection Dog (PBEDD) 
Teams, trained for purposes almost identical to Passenger Screening 
Canines, have not only the ability to consistently detect person-borne 
explosives present in average amounts, but also to alert with 
remarkable accuracy on even trace amounts of odors. However, even a 
canine team trained to the highest degree of excellence cannot be 
expected to maintain such rates of success in the absence of follow-on 
training. The creation of effective PBEDD teams starts with the 
assessment and selection of the right canines, which subsequently 
undergo advanced training on a monthly basis to guarantee continued 
high-level performance. Furthermore, because canine teams are a 
partnership, training must be a team requirement; thus, training should 
always be provided to the canine and the handler concurrently.
    Perhaps the most pertinent of the issues addressed in the GAO 
report was the discovery of inconsistent and inaccurate explosives 
detection (e.g. false alerts) observed in some PSC teams. As stated, 
PSC teams can be inordinately valuable when they are properly trained 
and effectively utilized. In order for this to occur, the misconception 
that canines used for such purposes are capable of performing only for 
short periods of time, easily susceptible to fatigue or stress-related 
inadequacy in performance, must be quashed. Extensive operational 
experience in this area, along with data and information collected 
through comprehensive research and development conducted in conjunction 
with agencies such as the Office of Naval Research, has repeatedly 
demonstrated that the limitations of PBEDD teams are borne out of the 
handicaps of the human, not those of the canine. This fact is confirmed 
by the accounts of our military members, who offered stories of their 
canines' success under the most extraordinary and unexpected 
circumstances. Upon return from theatre, one Marine reported that his 
dog accurately alerted on an explosive during their eighteenth hour on 
patrol, saving the lives of the Marine as well as his teammates'. 
Another Marine recalled the evening he was playing fetch with his 
canine counterpart when the dog suddenly alerted on an explosive in a 
nearby field, and again, saved the lives of countless Marines occupying 
the base nearby.
    These stories, while anecdotal in nature, force unabated 
reflection; acutely resonating within, and compelling us to remove the 
rose-colored lenses and collectively establish a solution that 
addresses and abrogates the vulnerabilities within systems established 
for the very purpose of protecting our citizens and securing our 
Nation. The United States does not stand before terrorists and shake a 
weak fist; it targets, tracks, and destroys, countervailing their 
prospects and vitiating the contingency of execrable threats. The same 
resolve must be applied in the execution and sustainment of services 
implemented to protect our interests at home.
    Over the past decade, the United States has spent significant 
resources, and borne considerable sacrifice in developing battle-
proven, highly effective canine detection capabilities. One of the 
great benefits we have as a result of this effort is a clear template 
showing what works and what does not when it comes to optimizing canine 
detection programs. As our Nation shifts focus from theatres of 
operation to greater protection of the homeland against a wide array of 
threats, it is imperative that we responsibly transfer and repurpose 
our high-end canine capabilities to entities such as the Department of 
Homeland Security without degrading or losing them entirely. For the 
TSA, the roadmap is clear. In order for the TSA PSC learns to attain 
proficiency, strength, and consistency in performance, a commitment on 
the part of those facilitating the program to embrace innovation and 
utilize proven training techniques is imperative. Arming PSC teams with 
a quality canine, proper initial training, advanced follow-on training, 
and the knowledge and tools necessary to accurately document 
inconsistencies for further analysis will lead to prodigious success.
            Respectfully,
                                         David W. Whitmire,
                              President and CEO, K2 Solutions, Inc.
                                 ______
                                 
     Statement of Brandon Fried, Executive Director, Airforwarders 
                              Association
                             April 11, 2013
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you for this opportunity to present the views of 
the Airforwarders Association (AfA) on the Transportation Security 
Administration's (TSA) efforts to advance risk-based security.
    The Airforwarders Association represents 360 member companies 
employing tens of thousands of employees and dedicated contractors. Our 
members range from small businesses employing fewer than 20 people to 
large companies employing well over 1,000 and business models varying 
from domestic to worldwide international operations. Additionally, a 
few of our members operate their own aircraft. In short--we are the 
travel agents for freight shipments. We move cargo throughout the 
supply chain in the most time- and cost-efficient manner whether it is 
carried on aircraft, truck, rail, or ship.
    With respect to the subject of this hearing, the Airforwarders 
Association commends TSA's continuing review of policies and the 
movement to develop risk-based security strategies. Safety and security 
are at the core of our members' livelihood. We fully embrace the 
concept of risk-based, multi-layered security to balance risk and 
freedom of commerce. Our members have invested millions of dollars in 
security screening equipment, secure systems and facilities, employee 
background checks, and annual security training in an effort to secure 
our portion of the global supply chain.
    The Airforwarders Association also commends the efforts of U.S. 
Customs and Border Protection on its willingness to engage the private 
sector on the Air Cargo Advanced Screening (ACAS) pilot. As Mr. Mike 
Mullen notes, the pilot has proven to be extremely successful in the 
express operator domain. With respect to ACAS, we have three points for 
the U.S. Government to consider:
    (1) Ensure sufficient data from the airforwarder community before 
        moving to rulemaking.--While the express carriers have proven 
        that transmitting limited information on a shipment can enable 
        CBP to produce an adequate risk assessment, we believe that 
        additional analysis is warranted for the airforwarder 
        community. There are significant differences in the business 
        models of express carriers and airforwarders. To date, only 
        three airforwarders are currently in the operational phase with 
        several more transitioning to this critical stage. We urge that 
        CBP not move to rulemaking until additional airforwarders have 
        the opportunity to participate in the pilot at the operational 
        level. We believe that CBP will increase its knowledge of the 
        airforwarder community by extending the pilot and will 
        ultimately improve both the data quantity and the data quality 
        from the airforwarder community leading to a more thorough 
        integration and understanding of the different kinds of 
        transactions performed by forwarder participants.
    (2) Flexibility of data transmission.--The submission of ACAS data 
        must be flexible to allow freight forwarders to submit data 
        using various technology mechanisms.
    (3) International harmonization.--We also strongly encourage the 
        U.S. Government to advocate the benefits of harmonization to 
        our international partners. It is critical that the United 
        States work with the international community to develop 
        recognized standards, procedures, and data provision. Attaining 
        a global solution will allow international trade partners to 
        share data globally and allow for both the optimization of the 
        supply chain and a robust global risk assessment of cargo.
    Thank you for this opportunity to share the views of the 
Airforwarders Association.

    Mr. Hudson. I now recognize myself for some questions. The 
first question I would like to offer up and let each of you 
take a shot at, if you are interested, on a scale of 1 to 10, 
how would you rate TSA's performance over the last 2 years in 
terms of implementing risk-based intelligence-driven approach 
to security? Please explain your response. Why don't you start 
from my left to right, I guess.
    Mr. Dunlap. Mr. Chairman, I am probably not prepared to 
give a number, but I think in terms of recognizing the strides 
that TSA has made over the past 2 years, you have to say that 
they are a world leader in taking some of the theories behind 
risk-based security and turning those into procedures that we 
see at airports.
    They are very important in influencing other regulators 
across the globe to take a look at different risk-based 
procedures, so I think that the administrator and the 
Department have done a commendable job trying to move forward a 
policy that will be flexible not only for the new threats that 
are emerging, but also for the growing passenger numbers that 
we see.
    So I would like to see a larger group of passengers be able 
to benefit from all these risk-based measures. When the whole 
system is risk-based, then I think it would be fair and 
appropriate to come back to you with a number. But let's just 
say that there is a strong degree of leadership that we are 
seeing from the TSA, and we certainly appreciate that on the 
industry side.
    Mr. Hudson. Great.
    Ms. Pinkerton. I would echo that sentiment. I think the TSA 
has gone from talking about risk-based security to actually 
developing some real programs. I would give them very high 
marks for the Known Crewmember program. It is--as I mentioned--
had 5 million crew go through that program. It is only at 29 
airports. There is a commitment to spread that out across the 
system. So I think they have done--they get very high marks for 
Known Crewmember program.
    On PreCheck, again, I applaud them for standing the program 
up, but as you have heard today, quite a bit need--more needs 
to be done to really realize the full potential of that 
program.
    Mr. Mullen. Mr. Chairman, I would agree with my colleagues. 
On your scale, I would give them at least a nine in the area of 
air cargo. There were a couple of knee-jerk reactions right 
after the 2010 Yemen bomb incidents that required some 
discussion to get sorted out as to what they really wanted the 
private sector to do, but since then, they have been very 
transparent about the process. As I said in my testimony, they 
have engaged in frequent and robust discussions with us, where 
they have been very willing to adopt private-sector solutions 
to meet our common goals of improving air cargo security 
without imposing unreasonable and operationally-disruptive 
procedures on the industry, it would end up in a lot of 
additional cost with no perceptible increase in security. So, 
you know, I have heard some of the criticisms about their 
passenger operations, but in the air cargo world, they are 
really doing well.
    Mr. Browne. I, too, applaud Administrator Pistole for 
taking this on. It is obviously a very difficult, but timely 
effort. I don't share my colleagues' optimism quite yet with--
in terms of assessing a nine to it. I think we have got a long 
way to go with respect to PreCheck if we are going to get the 
numbers I have described in order to claim success.
    I think we have got a lot more ahead of us, I would say 
more ahead of us than behind us.
    Mr. Borer. Mr. Chairman, I think on the risk-based security 
side, they are doing a very good and thorough job. I think 
where we saw them go off the rails with the knife policy is 
more, I think, driven by some of the shortcomings we have seen 
on the labor relations side and not involving their employees.
    Our front-line officers understand what it takes to execute 
on some of these programs. I think more involvement there can 
help steer these things in a way that will be effective on 
execution.
    Mr. Hudson. Well, I appreciate those comments. I am running 
low on time. But I guess I would like to kind of throw back to 
you, very briefly, what do you see as the next steps in your 
area, in terms of advancing risk-based security with passenger 
cargo? What are your areas of expertise? If anybody wants to 
take a stab at that.
    Ms. Pinkerton. Well, I would say, with respect to PreCheck, 
the administration has floated a couple of ideas, Global Entry 
Light, as well as this third-party idea. I think they really 
need to decide which way they are going to go, make a decision, 
and then go for it, to expand the program, instead of trying to 
piecemeal the program in the way they have done to date.
    Mr. Mullen. Mr. Chairman, in the air cargo environment, I 
would say the next steps are to continue to implement the 
requirements for 100 percent screening of cargo on passenger 
planes in a way that incorporates flexibility and the 
willingness to look at innovative solutions there, conduct that 
screening as far upstream as it is possible to do it. So I 
think that is the area where they need to do some focus in the 
near future.
    Mr. Browne. I would suggest that we really need to work 
with private industry to leverage the benefits of technology to 
really make this scalable and to tap into the resources in 
particular that airports can provide this equation.
    Mr. Borer. I would just echo what the others have said. I 
think scaling up programs like PreCheck and Known Crewmember 
are a benefit to all parties here. It speeds up the process. It 
reduces the--what our officers are asked to do at the 
checkpoints so they can concentrate on the greater risks, so it 
is really a win-win kind of a program.
    Mr. Hudson. All right. Well, I thank you.
    The Chairman now recognizes the Ranking Minority Member of 
the subcommittee, the gentleman from Louisiana, Mr. Richmond, 
for any questions he may have.
    Mr. Richmond. Thank you, Mr. Chairman.
    Again, thank you to the panelists. This question is really 
for all the panelists, and you can weigh in as you want. But we 
know that Aviation Security Advisory Committee has been very 
active in the past, and your organizations have worked closely 
with TSA on Aviation Security Advisory Committee. Can you 
explain for the committee the benefit of TSA consulting with 
you all and the advisory committee prior to implementing 
policies and--that impact you all?
    Mr. Dunlap. Mr. Richmond, thank you. I need to preface my 
remarks by saying, I am a member of the Aviation Security 
Advisory Committee. My remarks are solely mine alone and they 
don't reflect the TSA, DHS, or the ASAC committee.
    I think one of the most important strides we have made in 
stakeholder consultation over the last at least 3 to 5 years is 
that the Department has revitalized, strengthened, and launched 
an Aviation Security Advisory Committee that has a rather 
broader portfolio than it did in the past to tackle some of the 
very important issues that are there.
    So I think as we look in the future, the talent that is 
assembled in this body, the support that it is receiving from 
the TSA only tells me that it has a bright future if it is 
asked to comment on some of the more controversial, 
contentious, or forward-looking proposals that are out there.
    So I can give you my commitment that I certainly am 
prepared to take on these important issues. I know that we have 
a structure in place that will. I am always, and always will 
be, a believer that more consultation that is with the industry 
and with stakeholders and with victims will give you better 
U.S. National policy as an end result.
    Mr. Richmond. Ms. Pinkerton.
    Ms. Pinkerton. Yes, thank you. I am also a member of the 
Aviation Advisory Subcommittee on Passenger Advocacy. So my 
observations would be this. I agree that having the structure 
in place is critical to engaging stakeholders. As you find with 
any other commission, committee, advisory committee, sometimes 
there is a tendency to talk amongst ourselves a bit too much 
and--but I think it is critical to have the structure, if it is 
utilized correctly, and the recommendations are actually 
implemented.
    Mr. Mullen. Congressman, I am a member, too, of the 
subcommittees of the ASAC. I mentioned in my testimony the 
process used to create the ACAS project became known as co-
creation, where the Government actually presented the problem 
to the private sector and let them develop a solution that came 
back and met both the requirements of business and Government.
    I think that is the kind of approach that the ASAC can use 
to really meet their goals much more effectively. That--it 
provides a forum for that kind of robust discussion, where they 
can thrash out all the issues with the relevant stakeholders 
before something is implemented in a rule or a regulation. So I 
think the process has tremendous value.
    Mr. Browne. It seems to me that decisions are going to be 
made and very often, many of us are going to disagree with 
those decisions. But it is particularly troublesome when 
decisions are made in the absence of consultation or 
collaborative discussions.
    Having been in this industry a long time, I will say that 
the TSA over the years has improved in this regard. But I will 
also say that it is pretty notable that in those instances 
where there seems to be the most uproar, it has been where 
there has been the least dialogue. It is almost not the 
decision itself. It is the process by which we get to the 
decision.
    The ASAC is a means of helping with that process. 
Certainly, we are very much committed to that.
    Mr. Borer. Certainly, the ASAC is a good program and more 
consultation is better than less consultation. The AFGE is not 
a member of ASAC, and in--it is an anomaly to me that you 
wouldn't include the front-line employees or representative of 
the front-line employees in such a labor-intensive operation.
    I think we have a lot of input that would be valuable. We 
would love to participate. So if anything, I think ASAC needs 
to be expanded.
    Mr. Richmond. Thanks--and I will follow up on that 
question, and if you all can answer yes or no, that would be 
great, because I have about 15 seconds left. Do you think it 
would be beneficial to codify ASAC into law so that you don't 
have a gap after expiration and everyone knows exactly what is 
expected in the consultation? So if you could answer that yes 
or not, it would keep me from going over too far.
    Mr. Dunlap. Yes, no, and we would like to see an 
information-sharing and advisory committee added, as well.
    Ms. Pinkerton. Yes.
    Mr. Mullen. Yes.
    Mr. Browne. Yes.
    Mr. Borer. Yes.
    Mr. Richmond. Thank you.
    Mr. Chairman, I don't have any time to yield back, but I 
will say it, because everybody else says it. I yield back.
    [Laughter.]
    Mr. Hudson. I thank the gentleman. I think we certainly got 
some unanimity on that last question.
    The Chairman now recognizes the gentleman from Alabama, the 
former Chairman of this subcommittee, Mr. Rogers, for any 
questions he may have.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Pinkerton, I read with some distress recent news 
reports that the Department of Homeland Security is close to 
finalizing an agreement with the UAE to place a CBP pre-
clearance facility at the airport in Abu Dhabi. I was in the 
airport in Abu Dhabi last week on my way to Afghanistan, and I 
can tell you first-hand, they don't have any United States 
carriers at that airport.
    It is the global hub for the UAE-owned Etihad Airways. I 
have two questions. No. 1, in your opinion, would this move fit 
a--would this agreement fit into the broader Department-wide 
efforts to implement risk-based security that we have been 
discussing here today? No. 2, what effects do you believe it 
would have on the American commercial aviation industry?
    Ms. Pinkerton. Well, thank you for that question, 
Congressman Rogers, because the nature of this agreement really 
strikes a blow at the U.S. airline industry. We were made aware 
of this decision earlier this week, and as you so correctly 
point out, what is distressing about this agreement is that it 
is going to be providing a service that is only going to 
benefit one airline, a foreign airline.
    At a time when U.S. carriers have been struggling to 
survive, we just earned 21 cents a passenger last year for the 
first time after a decade of losses, we expect the governments 
of Asia and the Middle East to do their best to make sure that 
their carriers succeed.
    But we are surprised when our Government goes to the aid of 
a foreign airline. It completely picks winners and losers on a 
competitive--global competitive field.
    Mr. Rogers. So what do you think its effect is going to be 
on our U.S. commercial aviation industry?
    Ms. Pinkerton. Well, frankly, we think the deal should be 
blocked. We have been working very, very closely with the 
airport community here in this country to try to address what 
have been persistent and excessive wait times at Dulles, at 
Miami, at JFK, and what we have done is we have joined together 
with our labor partners, with airports, with the travel 
industry, and we are asking Congress, Members of Congress to 
block this deal.
    Mr. Rogers. Okay.
    Ms. Pinkerton. We think we need to fix our issues here at 
home first before we start servicing other parts of the world.
    Mr. Rogers. Well, I agree, and I would also--before I move 
on to my next question, I do want to say, I wholeheartedly 
endorse your concept of unifying our Trusted Traveler programs 
into one well-branded, simple-to-understand entry program that 
can be used. I know as much about PreCheck as pretty much 
anybody in the Congress, and I am a member of PreCheck, I am a 
member of Global Entry, and I still have problems getting 
through with various airlines.
    TSA points to the airlines, and the airlines point to TSA. 
If it is driving me nuts, I can imagine what it is doing to 
somebody who is an infrequent traveler or less frequent 
traveler and who doesn't understand it. I think that would be a 
great step in the right direction to unify that system.
    Mr. Browne, I really think a lot of John Pistole. I think 
he is a sharp fellow and his heart is in the right place, but 
he recently stated that TSA would provide screening to 25 
percent of the individuals currently processed through security 
screening by the end of the year. That is an admirable goal, as 
I think you said in your opening statement.
    Do you know if he really meant just the Category X 
airports? Or did he mean 25 percent of the people who go 
through our airports in this country? You may not know. I just 
have heard the 25 percent, and I hate to believe that--I don't 
believe that is true. Do you know----
    Mr. Browne. I don't know specifically. I have understood it 
to mean, in the case of Dulles, that 25 percent of our 
passengers would be PreCheck-eligible by----
    Mr. Rogers. Oh, just Dulles?
    Mr. Browne. Well, no, sir, but I can speak only for Dulles 
being one of the 40 airports where PreCheck is offered. I would 
have to defer to Mr. Pistole to confirm whether that is system-
wide or only among the 40 airports.
    Mr. Rogers. Yes, I would ask the staff to try to get me a 
copy of that quote so I can see if he was just referring to 
Category X airports, because I just think it is--I think it is 
going to be impossible to do that, much less across all the 
airports.
    But what do you think is achievable? Let's just--and, 
again, I want to limit it just to the Category X airports. What 
do you think is achievable by the end of this year? I think 
right now, we are probably only moving 1 percent or 2 percent 
through. What is realistic by the 7 months from now, 8 months?
    Mr. Browne. I don't believe that we are going to achieve 
the 25 percent goal unless we bring significant new populations 
into the mix. It may be----
    Mr. Rogers. So by December 31 of this year, you think it is 
impossible to hit 25 percent in the Category X airports?
    Mr. Browne. Well, not necessarily. If we receive approval, 
for instance, airports and industry to roll out some of these 
trials where we can begin to enroll many of our other 
passengers who are in the other programs you have noted, it may 
be possible. I am not aware, but it may be that the TSA has 
other populations that they are considering for admitting into 
the PreCheck program.
    Mr. Rogers. Okay. My time is expired. Thank you very much.
    Mr. Hudson. I thank the gentleman.
    The Chairman recognizes the gentleman from California, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Before I begin, may I enter into the record and have 
unanimous consent that I enter opposition to TSA's announced 
change regarding the prohibited items list, letters from the 
committee--the Association of Flight Attendants--CWA and the 
Association of Professional Flight Attendants?
    Mr. Hudson. So ordered.
    [The information follows:]
Statement of Veda Shook, International President, Association of Flight 
                        Attendants--CWA, AFL-CIO
                             April 11, 2013
    We thank Chairman Hudson, Ranking Member Richmond, and all of the 
Members of the Transportation Security Subcommittee for your diligence 
on this important topic for aviation security. We appreciate the work 
of the subcommittee to review the TSA's efforts to advance risk-based 
security. On behalf of the 60,000 flight attendants we represent as 
members of the Association of Flight Attendants--CWA, AFL-CIO (AFA) I 
submit the following testimony for review as the committee considers 
``stakeholder perspectives.''
    AFA has testified on risk-based security and the work of the TSA on 
several occasions and most recently before the Subcommittee on Aviation 
of the U.S. House Committee on Transportation and Infrastructure on 
November 29, 2012. That testimony in support of the risk-based approach 
is relevant in the context of this hearing, but the recent announcement 
of an abrupt policy shift to lift the ban on knives in the aircraft 
cabin overshadows progress towards a risk-based security program. 
Today's testimony includes our objections to this policy change. We are 
concerned with the TSA administrator's process to reach this decision 
without considering the experience of flight attendants and other key 
stakeholders, and dispute inaccuracies put forth by the TSA 
administrator regarding the lack of notification of the policy change 
provided to me.
 knives in the cabin introduce risk--threaten safety of passengers and 
                                  crew
    At the most basic level, the question of whether to allow knives in 
the aircraft cabin for the first time since 9/11 is a simple one: Does 
such a policy change increase or decrease risk? No one can credibly 
argue that allowing thousands of knives onto aircraft every day 
decreases the risk to passengers and crew.
    TSA has attempted to dismiss this increased risk with a wave of the 
hand, stating repeatedly that ``small knives cannot cause a 
catastrophic loss of the aircraft.'' First, it should be noted that 
small knives did cause the loss of four aircraft on 9/11. To deal with 
that contradiction, TSA has continued the ban on certain small knives, 
like box cutters and tactical knives, dismissively saying that allowing 
them would be too ``emotional.'' Speaking on behalf of AFA flight 
attendants, I have to say that trying to berate our position as 
``emotional'' is insulting. It disrespects the lessons of our past, the 
heroes who were the first to die in a war we did not know we were 
fighting, and this the courage of this Nation's flight attendants who 
every day face the challenges of serving on the front lines of aviation 
security.
    But TSA goes further, saying that improvements in cockpit security 
since 9/11, including the locked and reinforced cockpit door, have 
eliminated the possibility that terrorists with small knives can take 
over the aircraft and cause a catastrophic loss. We have grave concerns 
with the lack of understanding of the necessary interaction between the 
cockpit and cabin in flight. Further, this cynical position assumes 
that casualties in the cabin are acceptable due to an attack by a 
terrorist or an irate passenger with a newly permissible knife, so long 
as the cockpit is not breached. Needless to say, flight attendants 
object to that callous calculation of acceptable casualties and we 
believe it fails to accurately recognize the mission of the TSA.
    The TSA administrator's excuse for the abrupt policy shift on 
knives and other potential weapons in the cabin is yet another in a 
long line of excuses that does not hold up. In discussing this issue 
with the media and on Capitol Hill the reaction has been surprise over 
how TSA could possibly have concluded that it was appropriate to remove 
knives from the prohibited items list. It simply does not make sense. 
The tragic knife attack at the Lone Star Community College this week in 
Houston highlights the dangers of a small knife in the hands of someone 
who wishes to harm others. Even in that setting, with multiple exits 
and the ability to call for additional help, 14 people were injured. It 
is critical that we recognize the dangerous scenario of a small knife 
in the wrong hands within the confines of the enclosed aircraft cabin 
and closely seated passengers traveling at thousands of feet in the 
air.
    TSA argues that relaxing the ban would merely put the American 
aviation security policy on par with that of Europe, Asia, and Africa. 
Never mind that we should be the leaders in aviation security, 
especially on this issue. This attempted justification exposes TSA's 
inconsistency. TSA has modified ICAO's standards to prohibit locking 
blades. So, the announced policy change will not harmonize the U.S. 
policy with the international standard and, therefore, any claimed 
benefit of such harmonization as justification of the policy change is 
illusory.
    TSA also claims that allowing a certain size of knife will actually 
reduce the time TSOs must take to screen baggage, thereby freeing them 
to concentrate on other prohibited items such as improvised explosive 
devices. Common sense dictates otherwise. A blanket prohibition of 
knives, as opposed to a case-by-case evaluation of knife size, is 
clearly the more expeditious procedure. No one could argue that setting 
the stage for a fight over the size of an open knife is a good idea for 
public safety. So, once again, the justification offered is simply 
illusory.
    This abrupt policy change does not make sense for combating 
potential terrorist attacks nor for de-escalating the daily 
disturbances we handle in aircraft cabins that are fuller than ever, 
while flight attendant staffing has been cut. On a daily basis, flight 
attendants address, de-escalate, and when necessary, direct other 
passengers to help contain disturbances on the aircraft.
    In April 2012, on a U.S. Airways flight from Los Angeles to 
Phoenix, a passenger suddenly charged down the aisle and tried to ram 
the drink cart into a flight attendant, all the while screaming threats 
against the lives of everyone on board. He was subdued with the help of 
passengers, several of whom had to sit on him for the duration of the 
flight.
    In November 2007, a United Airlines flight from Washington Dulles 
to Sacramento made an emergency landing in Fargo, North Dakota due to a 
serious threat to the air craft, the flight attendants and all of the 
passengers on the flight. A series of aggressive actions by a 25-year-
old man led flight attendants to prepare for the worst. Passengers were 
briefed to help, if necessary. The culmination of aggressive actions 
was when the man rushed up the aisle towards the cockpit while shouting 
that everyone on the plane was going to die. One flight attendant 
physically blocked him, and a second rushed forward to help while the 
third called to detail the threat for the cockpit. Not until flight 
attendants shouted forceful commands did passengers get up to assist 
and help contain the aggressor. The pilots locked in the cockpit later 
told investigators it sounded like a fist fight outside the door--and 
it was.
    Just last month, as a Delta Air Lines flight from Minneapolis to 
Atlanta began its final descent, cabin pressure change led to crying 
and tears for a 2-year-old boy sitting on his mother's lap. As the 
boy's mother tried to soothe him, the man sitting next to them 
allegedly used a racial slur and told the mother to ``shut up'' her 
son, then turned and slapped the toddler with an open hand.
    There are countless stories like this and that is why the 
experience of flight attendants has led to such strong opposition by 
our union and the entire Coalition of Flight Attendant Unions, 
representing 90,000 flight attendants across the industry. Introducing 
knives into any one of these scenarios could prove deadly and there is 
no question that it makes everyone in the cabin less safe.
    We support risk-based security, but it makes no sense to introduce 
risks into the system. Multi-layered security, including prohibition of 
items that could pose a threat, ensures U.S. aviation is the safest in 
the world. The ban on dangerous objects is an integral layer in 
aviation security. Not every decision can be presumed correct simply 
because it's labeled ``risk-based security.'' The decision to allow 
knives on planes is clearly not correct. We must always apply a risk-
based approach to solve for transportation security which includes the 
entire aircraft and all of the passengers and crew within it.
    Flight attendants take very seriously our role as aviation's first 
responders and, since 9/11, also its last line of defense. We promote 
improved security because we are the professionals who are charged with 
the safe passage of the travelers in our care. We are aghast at the TSA 
administrator's position that TSA's job is limited to guarding against 
``devices that could take down an aircraft,'' while failing to even 
consider the experience of flight attendants who know first-hand of the 
very real dangers of small knives in the cabin. TSA cannot explain nor 
justify this policy change to the more than 100,000 flight attendants 
who put their lives on the line every day for aviation security. Nor 
can TSA explain it to the millions of air travelers who fly every day 
and their families who expect them to arrive safely. Surely, the 
traveling public deserves better.
    policy should never take effect without stakeholder involvement
    Air Marshals, Transportation Security Officers, and pilots agree 
with flight attendants, as do many airline CEOs. There is a consensus 
among those in aviation security. The people on the front lines know 
this is a bad idea. At times, the TSA administrator has asserted that 
these stakeholders and 9/11 families were advised on some level prior 
to the announcement of the new policy. In each of these cases, that has 
turned out not to be accurate. TSA has the ability to review policy 
changes with the Aviation Security Advisory Committee, which includes 
certain stakeholders in aviation security. AFA has our own security 
expert who serves on this committee. Even this committee, which is set 
up to interact with TSA on a regular basis for review of security 
issues, was not consulted. Genuine engagement and consultation with 
stakeholders demands a much more open and honest approach.
    Although the key stakeholders in aviation security were not 
consulted, we have learned that lobbyists for the knife industry were 
consulted. This causes us to question whether the policy change is 
indeed based on misplaced efforts to improve security, or instead 
driven by corporate interests. Already we are experiencing the 
chilling, disrespectful effects of an industry emboldened by what they 
believe is a boon to business. Note the following on-line description 
from ``Gear Patrol'' of a knife that has already been created based on 
the new TSA policy:
                          emerson hummingbird 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Bonus: Best TSA-Approved Premium Holdout.--Ernest Emerson, the 
maker of high-end tactical folders popular with military and law 
enforcement, is rumored to be modifying his Hummingbird blade to be 
TSA-compliant. A craftsman who focuses on utility over art, Emerson is 
a proponent of knives as both tool and weapon, and he designs and 
builds them for hard use, with 154cm high carbon steel and a chisel-
grind edge. While we advocate you remain seated with your seatbelt 
securely fastened during flight, an Emerson would be the EDC [``every 
day carry''] you'd want if you get the call, ``Let's roll''.

    This description is found at: http://gearpatrol.com/2013/04/05/
keep-calm-carry-ons-5-best-tsa-approved-pocketknives/.
    The 60,000 members of the Association of Flight Attendants--CWA who 
still grieve the loss of our member heroes on United flights 175 and 93 
along with the members of Association of Professional Flight Attendants 
who were crewmember heroes on American flights 11 and 77, are not only 
disgusted by this advertisement, but horrified that this is what we 
will face on our aircraft after April 25 if this policy is allowed to 
take effect.
    Flight attendants and passengers did not know what they faced on 
September 11, 2001. We were trained to survive a hijacking, to keep 
everyone calm and safe until the aircraft could land. It was the heroic 
actions of flight attendants on those flights that ensured our country 
had some of the first intelligence of that horrific day. That 
intelligence made its way to the flight attendants and passengers on 
flight 93 and they in turn acted without reservation to sacrifice their 
own lives to save countless others on the ground. They are heroes and 
we will never forget their actions, nor will we ever disgrace their 
memory by forgetting the lessons we learned. Let not one more American 
have to make the heroic choice they made that day. Let us not invite 
another tragedy by failing to apply what we know can happen today.
    Let us not allow the heroism of that day to be exploited for dirty 
profits. And do not set up a scenario where flight attendants must 
attempt to handle a knife fight that breaks out when passengers take it 
upon themselves to enforce a disturbance in the cabin.
    These are the scenarios that the traveling public and the Nation's 
flight attendants will face because those on the front lines of 
aviation were not consulted in this process.
           afa was not notified or consulted on policy change
    In an April 3, 2013 letter, TSA Administrator Pistole responded to 
a letter from Congressman Bennie Thompson and 133 Members of the House. 
In his response, TSA Administrator Pistole states that on November 30, 
2012 he ``provided notice of his pending decision [to AFA] . . . and 
asked for [my] input.'' His letter goes on to state that ``TSA received 
no feedback from AFA until after TSA Administrator Pistole's March 5, 
2013, announcement.''
    Nothing could be further from the truth. On November 29, 2012 I had 
the honor to testify before the House Aviation Subcommittee of the 
Transportation and Infrastructure Committee. The purpose of that 
hearing was to discuss ``TSA Impacts on Passengers & Industry.'' At the 
hearing, I defended TSA's risk-based approach as well as the important 
work the Transportation Security Officers perform.
    At the end of the hearing, Congressman Ribble indicated that his 
daughter-in-law, a Southwest Airlines Flight Attendant was not in favor 
of knives being in the aircraft cabin and that he was likewise 
concerned. In response, I strongly agreed with his position and stated 
on the record:

`` . . . I used to take my knife to work . . . I am much more thankful 
to know not that I don't have a knife, but that nobody else has a knife 
on the plane. While I miss that aspect of being able to travel with 
that, I feel much more confident to know that the potential threat does 
not exist.''

    At that hearing, I clearly reiterated AFA's long-standing position 
on prohibiting knives in the aircraft cabin.
    On November 30, 2012 I received a phone call from TSA Administrator 
Pistole thanking me for my supportive testimony. The vast majority of 
our brief conversation focused on AFA's support of TSA's comprehensive 
risk-based approach to security. As a momentary aside, I even expressed 
my disbelief over a fellow witness's advocacy for permitting knives in 
the cabin. As I recall, TSA Administrator Pistole casually mentioned 
that he was reviewing the prohibited items list, which of course 
includes knives, and I responded that I understood his responsibilities 
as part of risk-based screening to ``look at everything.'' At no time 
during or after the conversation was I left with the impression that 
TSA Administrator Pistole was planning to amend the prohibited items 
list nor did I reverse our position that knives do not belong in the 
cabin. Between my testimony and our phone conversation, there should be 
no doubt that both my union and I personally support the continued ban 
on knives. Nothing that the TSA Administrator said in that brief call 
can legitimately be called ``notice'' of the pending policy change, and 
certainly nothing approaching ``consultation'' took place.
    As additional facts have come to light, it is clear that the TSA's 
abrupt policy change was actually considered over a number of years. 
But, it was not until 30 minutes before TSA announced its policy shift 
that I received a phone call from TSA informing me that the agency was 
about to announce that knives would be allowed back on the aircraft for 
the first time since 9/11. There was never any notice. Never any 
meaningful dialog. Never any attempt to engage in consultations with 
AFA on behalf of the tens of thousands of flight attendants we 
represent who, as the head of the Air Marshall's union has said, ``will 
be sitting ducks'' if this policy change is allowed to go into effect.
    Bottom line: The TSA administrator attempts to distract attention 
from the real issue at hand by mischaracterizing a call he initiated to 
thank me and my union for standing up for risk-based security.
                               conclusion
    The April 25 effective date is fast approaching and serious 
concerns are mounting about the risks created by the policy change. 
This committee is right to look into problems with how TSA engages its 
stakeholders. But, let me be absolutely clear that our primary concern 
is that knives should never be in the air craft cabin. In our view, an 
appropriate process of consultation would have prevented TSA from 
concluding that such a change should be implemented.
    We encourage the Transportation Security Subcommittee to do 
everything in its power to extend the April 25 implementation date and 
to ultimately ensure a ban that would keep knives out of our aircraft 
cabin permanently.
    Let us learn from the lessons of our past and make sound decisions 
for our future.
                                 ______
                                 
 Statement of Laura R. Glading, President, Association of Professional 
                           Flight Attendants
Proudly Representing the Flight Attendants of American Airlines
                             11 April 2013
                              introduction
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you for allowing me the opportunity to submit the 
following testimony. Furthermore, thank you very much for your recent 
strong statements regarding TSA's policy-making process. Although we 
may not all agree on the recently announced change in the prohibited 
items list, I believe there is bipartisan agreement that the decision-
making process did not include input from each critical stakeholder. I 
appreciate your support in holding TSA accountable for this oversight.
    The attacks of September 11, 2001 changed the commercial aviation 
industry, and the flight attendant profession in particular, 
dramatically and forever. The protocols and security measures that were 
instituted after those tragic events had one single intention: To keep 
us all safe. On March 5, 2013, Administrator John Pistole of the 
Transportation Security Administration announced a policy change that 
would once again allow knives of a certain size on-board aircraft 
departing from U.S. airports. The policy is ostensibly justified by the 
``risk-based analysis'' this hearing seeks to better understand. 
Although we support risk-based security and the periodic review of 
TSA's prohibited items list, the Association of Professional Flight 
Attendants, representing over 16,000 American Airlines employees, 
vehemently rejects the TSA's attempt to make such a sweeping policy 
change without the input of key stakeholders. As first responders and 
the final layer of security on-board the aircraft, flight crews are 
critical resources and should be involved in TSA's decision-making 
process. Had flight attendants and others been involved from an early 
point in the discussion, Administrator Pistole would not have arrived 
at such an ill-advised conclusion.
                       the 9/11 commission report
    The official report of the events leading up to the attacks of 
September 11, 2001, details, to the extent possible, the tactics 
employed by the terrorists who perpetrated the attacks. According to 
the report, which references the heroic efforts of American Airlines 
Flight Attendants Betty Ong and Amy Sweeney to relay information to the 
ground throughout the hijacking, the terrorists used knives to stab 
passengers and flight attendants and gain entry to the flight deck.
    Among the passengers stabbed on American Airlines Flight 11 was 
Daniel Lewin who had served 4 years as an officer in the Israeli 
military. Despite his training, he was stabbed and incapacitated while 
attempting to stop two of the hijackers who had been seated in front of 
him in first class.
    Small knives and pepper spray irritants were the weapons employed 
by the hijackers. APFA remains convinced that such weapons, in the 
hands of highly-motivated, coordinated, and trained criminals, pose a 
significant threat to the security of an entire airplane. There is no 
justifiable reason to allow small knives into airplane cabins.
                             tsa's mission
    In the wake of the attacks of September 11, 2001, Congress passed 
the Aviation and Transportation Security Act which was signed into law 
by President Bush in November 2001. According to the Act, the function 
of TSA is to secure all modes of transportation. This is reflected in 
the following statement from the agency's website:

    ``Today, more than a decade since its creation, TSA has grown and 
evolved yet remains committed to its mission. The agency employs a 
risk-based, intelligence-driven, multi-layered strategy to secure U.S. 
transportation systems, working closely with stakeholders in aviation, 
rail, transit, highway, and pipeline sectors, as well as the partners 
in the law enforcement and intelligence community.'' (``September 11, 
2001 and TSA.'' Web. 17 March 2013)

    In the opinion of the APFA, the TSA has completely vacated its 
mission and obligations with regard to this policy decision. Not only 
does the introduction of knives to the airplane cabin put U.S. 
transportation systems at risk, but the policy decision was made 
without any input from aviation stakeholders. Flight attendants were 
not consulted on the issue and APFA was not informed of the decision 
until the day of its announcement. The mechanism for robust stakeholder 
input exists in TSA's Aviation Security Advisory Committee. Members of 
the ASAC include a flight attendant, pilots, and members of this 
hearing's witness panel and their colleagues. If such a committee 
exists, it must be to play a role in the policymaking process at TSA. 
The failure to consult ASAC is, at best, a terrible oversight on the 
part of Administrator Pistole.
                          tsa's justifications
    Administrator Pistole's public explanation of the proposed change 
is unconvincing:

``A small pocket knife is simply not going to result in the 
catastrophic failure of an aircraft, '' John Pistole, Congressional 
testimony, March 13, 2013.

    Administrator Pistole cites the armored flight deck door, pilot 
training and protocols, and the increased vigilance of the flying 
public as reasons a hijacking could not be undertaken with small 
knives. Flight attendants and many others in the industry reject this 
reasoning.
    Even prior to the attacks of 9/11, flight deck doors were closed 
and locked. Today, reinforced doors remain vulnerable. On all flights, 
the doors are opened for pilots to use the lavatory or coordinate with 
other crew members, leaving a window of vulnerability.
    Today, pilots are trained not to open the flight deck door under 
any circumstances and to land the plane immediately in the event of an 
attempted hijacking but this system is any but foolproof. If a pilot 
were to look out into the cabin and see a family member, possibly a 
flight attendant-spouse, a colleague, a friend, or a small child being 
threatened with a blade to the throat, we can reasonably expect human 
nature to trump training. Additionally, it is not always plausible for 
a pilot to ground the aircraft, as it may be over a body of water 
during an incident.
    Passenger vigilance has certainly increased in the years since the 
attacks of 
9/11. Passengers have worked with flight crews repeatedly to thwart 
would-be attackers, bombers, and deranged passengers. We all remember 
the heroism of passengers on-board United Airlines Flight 93 who saved 
an untold amount of lives by sacrificing their own to disrupt the 
terrorists' plans. However, as evidenced in the 9/11 Commission 
Report's account of the events on-board Flight 11, the majority of 
passengers aboard that 767 aircraft were unaware that the situation was 
any more serious than a routine medical emergency in first class. In a 
large wide-body plane, particularly with three classes of service, 
relatively few passengers have a line of sight to the flight deck door 
during the few seconds when a hijacking may be attempted. Their 
reaction cannot be relied upon to thwart such an attack. Additionally, 
on a flight with a predictably low load factor, a team of six or eight 
terrorists, armed with pocketknives, could easily overpower the few 
remaining passengers and crew.
    Removing these items allows officers to focus on detecting non-
metallic improvised explosive devices, which can blow up an airplane 
(paraphrased Congressional testimony of Administrator Pistole).
    Flight attendants reject the notion that TSA officers cannot screen 
for both explosives and weapons. Keeping air travel safe requires both. 
Allowing certain knives on-board will not make security checkpoints 
more efficient because the new policy does not allow screeners to 
ignore knives. On the contrary, TSA officers will now be responsible 
for ensuring that knives meet the required criteria for size and blade-
locking, potentially slowing down the process even more and providing 
ample distraction from the task of identifying non-metallic IEDs.
    ``We have yet to see a single incident where a passenger was 
injured using a knitting needle or scissors.'' (``Small Pocket Knives--
More Support Than You Might Think. '' www.bios.tsa.gov 18 March 2013)
    Since 2005, certain small scissors and knitting needles have been 
allowed on-board aircraft. In Congressional testimony, Administrator 
Pistole touted the fact that there have been zero attacks on passengers 
or crew with those items. Flight attendants and other stakeholders 
agree with the sentiment expressed by Rep. Eric Swalwell who stated, 
``That number cannot get better, but it can get worse with this new 
policy.'' Despite the lack of reported attacks involving knitting 
needles and scissors, the threat remains, as the 9/11 terrorists used 
unconventional weapons, such as box-cutters.
    Allowing small knives is a slippery slope. There is no reason to 
put flight attendants, pilots, and most of all passengers in a position 
where they may be defending themselves or the entire airplane against 
armed attackers.
              typical flight attendant duties exacerbated
    According to internal American Airlines reporting, there were 
nearly 1,200 reported instances of passenger misconduct in 2012 alone. 
Flight attendants have the unenviable task of addressing and de-
escalating myriad in-flight disruptions. During a US Airways flight 
from Los Angeles to Phoenix in April 2012, an unruly passenger stormed 
the aisle, attempting to drive the drink cart into a flight attendant, 
while verbally threatening all those on-board. Introducing weapons into 
situations such as this one makes the job of a flight attendant 
needlessly difficult and dangerous. In the absence of a Federal Air 
Marshal, there is no readily accessible official with police powers on 
board an airplane. Violent, dangerous, possibly deranged, or drug-
induced passengers are the responsibility of flight attendants. Arming 
them with even small knives is a grave mistake.
    In conclusion, the APFA's top priority is the safety of all 
passengers. That is why we ask that you, the Members of the 
subcommittee, to join us in opposing TSA's dangerous policy change and 
demand that any future risk-based security policy decisions be made 
with the direct input of flight attendants.

    Mr. Swalwell. Mr. Chairman and our witnesses, thank you for 
being here today. I have to say that, since the administrator 
announced that knives will now be taken off the prohibited 
items list, I scratched my head wondering why we would want to 
make our passengers and crew more vulnerable today than they 
were since the policy was implemented and why we would want to 
recklessly and dangerously put them at risk.
    From what I have gathered in this last month, since it was 
announced, it seems that the administrator is saying that TSA 
and its TSOs--their officers who are at the weapons screening 
and screening stations at the airports--are having a tough time 
distinguishing and spending so much time on knives that it 
prohibits them from looking at liquids and new emerging 
threats.
    To me, that is really the administrator saying that TSA can 
walk but not chew gum, or it can chew gum but not walk, but it 
cannot chew gum and walk at the same time. I think we must have 
a TSA that can look at old threats and also continue to protect 
us against new threats.
    Earlier Mr. Freeman, who is not here any longer, stated 
that if we get this right with regard to TSA, our economy 
improves. But my job and our job as a committee, I believe, is 
to make sure that we don't get it wrong, because if we get it 
wrong, we saw what happens to our economy and passengers and 
crew and people on the ground. If we get it wrong, things go 
very, very bad very, very fast.
    Before this policy, TSA only had to screen objects that 
were prohibited, sharp objects that are prohibited. Now this 
policy asks TSOs to measure the knives, and knowing anyone who 
travels, I don't imagine they are going to be measuring their 
knives the night before.
    So, Mr. Borer, what I imagine is a situation something like 
this. I am a football fan, and we have all seen NFL referees 
measuring first downs. Now, I can imagine that at the airport 
screening lines we are going to have TSA agents taking out the 
tape and measuring whether these knives are 2.36 inches or 
longer. If that is the case, do you think that is going to 
allow the TSA agents to focus more on liquids or is this going 
to hold up our lines and actually make them less capable, 
prepared, and ready to focus on liquids?
    Mr. Borer. You have hit on a very central concern that our 
union has, Mr. Congressman. The TSA has assured us--we haven't 
seen it in writing, but they have assured us that, no, nobody 
is going to measure any knives at the checkpoint. They 
acknowledge it is not a good idea to have millions of 
passengers going through the checkpoint every day and have a 
lot of open knives, you know, people waving them around, oh, 
look at this, how long is this one?
    You know, so supposedly there is no--no knives are going to 
be measured, and it is going to be left up to the TSO's 
judgment. But I would be willing to bet that the scenario you 
described about nobody--none of the passengers are going to 
measure their knives? Yes, they are. They are going to come to 
the airport, and they are going to know exactly how long their 
knife is, and if it is left to the TSO's judgment call and they 
say, well, no, it looks like it is too long, and TSA has 
assured us they aren't going to second-guess the judgment call, 
well, that passenger is going to second-guess the judgment 
call. He is going to say, oh, no, it is not too long. Let me 
see that----
    Mr. Swalwell. Then we go to the instant replay, right?
    Mr. Borer [continuing]. Open it back up, and now we have 
got a guy with a knife again. So----
    Mr. Swalwell. I have another question, Mr. Borer. TSA will 
allow non-locking knives, but locking knives--locking knives 
are allowed, non-locking knives are not allowed. Do you see the 
same problem with your agents now having to decide whether a 
knife is locking or not-locking?
    Mr. Borer. They have only got just seconds, really, with 
each passenger and their belongings. To distinguish one from 
the other that quickly, looking at the screen or even looking 
in the bag, it is going to slow things down.
    Mr. Swalwell. Here in this picture, just for the record, 
one of them is locking and one is not locking. I can't tell the 
difference.
    My concern is, as Mr. Borer mentioned, our TSOs are not 
trained right now for this policy to be implemented on April 
25. I believe we can have a risk-based security program which 
all of the witnesses agree upon, including Mr. Borer, and still 
protect against sharp objects, which if used dangerously on an 
airplane can hurt the staff, can hurt our flight attendants, 
can hurt the passengers.
    So I would support, Mr. Chairman, considering delaying this 
or even propose that, if we want to use our Trusted Traveler 
program, this could be a compromise here where we look at the 
Trusted Traveler program, allow those individuals to carry 
these new knives that will be allowed, see if it works with 
that small pool before we just blanketly allow anyone, 
regardless of their criminal record or regardless of their 
mental health status or risk, to bring knives on the airplane.
    I must--I think our TSA must be able to protect against old 
threats and new threats. Thank you.
    Mr. Hudson. I thank the gentleman.
    The Chairman recognizes the gentlelady from Indiana, Mrs. 
Brooks, for any questions she may have.
    Mrs. Brooks. Thank you, Mr. Chairman.
    This question is for Mr. Mullen. I am from the Indianapolis 
area and to the north, and we are the second--we have the 
second-largest FedEx hub, and also Indiana is often the 
logistics capital of the country and a lot of air cargo, as 
well as other cargo, goes through Indiana.
    You talked about in your testimony the shipment and 
conveyance data shouldn't be separated. You mentioned--and I am 
curious, because your industry, as I understand, provides the 
shipment information to the Government, and the Government then 
should be doing the same when there is a shipment of concern. 
Can you explain that a bit further? Is there information that 
you think should be provided that you are not currently 
receiving? How quickly are you receiving information from TSA 
and CBP?
    Mr. Mullen. Yes, thank you, Congresswoman Brooks. This has 
been an important issue to the success of the ACAS pilot, 
because previously, information was reported by air manifest, 
and it was information about the shipment and the aircraft that 
was bringing the shipment to the United States. It took some 
time for the carriers to develop that report so it contained 
all the information needed.
    For ACAS, we separated those two things. The Government 
just asked for the data on the shipment itself, which is seven 
data elements, and those can be provided long before the 
package is ever put on a plane. The purpose of this--and it was 
a lesson learned from the Yemen bomb incidents in 2010--the 
purpose of this is to prevent the package from ever getting on 
a plane.
    So the Government can take that shipment information and do 
the risk analysis and get back to us very quickly about whether 
something is good to go or not. So that is the process that we 
want to see continued in the regulation. But data on the 
aircraft can be provided at a later time in the supply chain, 
and so the Government will still get all the information it 
needs in that regard.
    Mrs. Brooks. While I know it would be wonderful if we could 
achieve 100 percent screening of all international inbound 
cargo on passenger aircraft, TSA's implemented a risk-based 
strategy which includes TSA classifying cargo as trusted or 
non-trusted. Do you think this strategy has been successful? 
Can you tell us about that?
    Mr. Mullen. Yes, I think it has been successful. I think it 
is working very well. As I said, in ACAS itself, over 70 
million shipments have been analyzed, and there--none have been 
determined to be a threat. So part of that is the analysis of 
how well-known a shipper is, but there are very good procedures 
in place. We really can't go into them here, but there are 
excellent procedures in place to determine when someone is 
known or unknown and clear procedures for what the carriers 
need to do to conduct appropriate screening on what is unknown.
    So this system is working very well. I can tell you that 
100 percent of the potential high-risk shipments are being 
screened. The ones that are determined to be compliant and non-
threatening, which is the overwhelming majority, don't--aren't 
required to be screened. The data analysis should be sufficient 
for those.
    Mrs. Brooks. How long do you predict this will be a pilot 
program?
    Mr. Mullen. Well, a discussion is going on right now 
between the Government and the private sector about how to move 
into the regulatory process. The Government's goal for getting 
the initial draft of the regulation out is around the first of 
the calendar year. Some parts of the private sector feel it 
might take a little bit longer than that, but the process is 
underway, and it should be--in terms of the way these things 
move in the relative near future.
    Mrs. Brooks. Well, thank you. I will tell you, I was U.S. 
attorney shortly after 9/11, before TSA existed, as TSA was 
stood up, and we have come a long way from that time in the 
Justice Department from 2001 to 2007. So I really just applaud 
the efforts the private sector is playing with Government in 
this role and liked your characterization of the three-legged 
stool. Very important. I yield back. Thank you.
    Mr. Hudson. I thank the gentlelady.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for any questions she may have.
    Ms. Jackson Lee. I thank the Chairman very much, and I 
thank the Ranking Member for his leadership on a number of 
issues dealing with TSA, and I believe this committee takes its 
responsibility seriously. I always have said this from the time 
that I have been on this committee, while things are calm, 
people make suggestions as to why you have the Homeland 
Security Committee and the comparable one in the United States 
Senate. Having lived through 9/11 as a Member of the United 
States Congress, having gone to Ground Zero during the recovery 
period, and seeing that kind of pain, I would simply say that 
if some drastic and untoward action, a terrorist action that 
impacted American lives and other lives, we would ask the 
question why we have a Homeland Security Committee.
    So let me thank all of you that contribute to not only 
those issues of security, but also commerce and the movement of 
people, which I think is extremely important.
    It happens that we are interested in a particular line of 
questioning, but I do want to indicate the importance of ASAC, 
and I would like to see whether or not--I think all of the 
members are a member of ASAC except AFGE. Is that correct?
    While I do that, let me acknowledge--I see uniformed 
personnel, so let me acknowledge flight attendants in the room. 
I have always indicated that all of us become first responders. 
Obviously, interpretation can be in one direction for police 
and fire, but when you put your life on the line, as we know 
that has occurred in several incidences along--on airplanes, as 
they were in flight, we know that first line of defense 
sometimes after the new laws about pilot cabin and security of 
the cockpit, we know that they are right in the mix.
    So let me say thank you to them. If there are any pilots in 
the room, let me say thank you to them. If there are any 
pilots--any first responders overall in the room, let me thank 
them, as well.
    So I understand that Mr. Dunlap, you are a member of the 
ASAC committee?
    Mr. Dunlap. Yes, I am.
    Ms. Jackson Lee. Did you all have a full discussion of 
knives and its relation to being removed off of the prohibited 
items?
    Mr. Dunlap. As a matter of fact, I was not in any meetings 
with the ASAC in which that occurred.
    Ms. Jackson Lee. Okay. I take it that no one else will see 
or raise a hand that they have been in any meetings where that 
occurred. I have made it very clear that I believe this is 
wrong-headed and really misguided.
    Just a couple of days ago, tragically, in my jurisdiction 
surrounding area--not exactly my Congressional district, but in 
the Houston area--at a particular community college, a stabber 
took a particular-type knife--in this instance, it could be 
called a box cutter, and that is certainly on the prohibited 
list, but they took that kind of instrument and stabbed 14 
people.
    Now, some would say, well, that is that kind of knife or 
that kind of box-cutter, because that is something different. I 
never know--none of us, Mr. Borer, can determine what someone 
will use that may be an instrument of injury or death. What is 
your comment on that, sir?
    Mr. Borer. Well, you are right, Congresswoman Jackson Lee. 
The stabbing that took place in Texas, I understand the blade 
was three-quarters of an inch long. The blades that are now 
going to be allowed on the aircraft are 2.36, almost 2\1/2\ 
inches. I think it is without question that a blade that size 
in the hands of someone who is intent on causing harm can 
either kill or seriously injure people on the aircraft.
    Ms. Jackson Lee. My time is short. Were you engaged in any 
discussions regarding personnel with the idea of knives on a 
plane?
    Mr. Borer. Our union was informed just minutes before the 
announcement was made.
    Ms. Jackson Lee. You represent the TSO?
    Mr. Borer. Forty-five-thousand TSOs Nation-wide.
    Ms. Jackson Lee. I have advocated for professional 
development training, enhanced development training. Let me 
just ask, have you seen any enhanced professional development 
training that you could put your hands on over the last year or 
2?
    Mr. Borer. No, we have not.
    Ms. Jackson Lee. Do you understand or have you known that--
I travel and I speak to a lot of the officers--that some 
officers are on the security area for 6 hours straight without 
a break?
    Mr. Borer. That does happen in some locations, yes.
    Ms. Jackson Lee. Do you think that the sequestration will 
have a more devastating impact than what might be represented?
    Mr. Borer. We are already seeing that, and it is only going 
to get worse. There is a letter out again today from TSA 
executives saying that, while they haven't done furloughs yet, 
it may be coming. They are trying to manage the sequestration, 
but the--it is starting to pinch, obviously.
    Ms. Jackson Lee. If the Chairman would just yield for just 
a moment, I just have this question. Do you think--we know that 
the change in the prohibited list, which would include knives, 
comes up on April 24. My good friend, Mr. Swalwell, made a very 
good point about how you are going to have to spend time 
discerning what is what. Even if you are not discerning it and 
pulling it out at the site, you are going to have the person 
for a secondary inspection, which is going to take time. Do you 
think it would be reasonable and valuable and certainly not 
embarrassing if we delayed that time frame from April 24, which 
is in the middle of sequestration and shortage in staffing, to 
a later time for more thought, review, and understanding and 
training?
    Mr. Borer. I think a delay is good. Keeping knives off the 
airplane even for a day longer is good. But I think ultimately 
our position won't change. Knives do not belong on airplanes.
    Ms. Jackson Lee. Well, I struck a compromise that leads to 
knives not being on airplanes, but certainly April 24 is too 
precipitous and too uncertain to move forward with knives on 
the airplane.
    Mr. Hudson. I thank the gentlelady. I will let the 
gentleman respond briefly, if you like.
    Mr. Borer. I can't disagree whatsoever.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Thank you, Ranking Member.
    Mr. Hudson. I thank the gentlelady for her questions. At 
this time, I would recognize the Ranking Member for a motion.
    Mr. Richmond. Mr. Chairman, I ask unanimous consent that 
statements in support of H.R. 1344, which is the Helping Heroes 
Fly Act, that the committee received from the Wounded Warrior 
Project and the Disabled American Veterans, be inserted into 
the record.
    Mr. Hudson. So ordered.
    [The information follows:]
     Letter From the Wounded Warrior Project to Hon. Tulsi Gabbard
                                     April 8, 2013.
The Honorable Tulsi Gabbard,
502 Cannon House Office Building, Washington, DC 20515.
    Dear Congresswoman Gabbard: As an organization whose mission is to 
honor and empower wounded warriors, Wounded Warrior Project (WWP) is 
committed to assisting service members and veterans thrive within the 
community. For wounded veterans living with prosthetics or other 
service-connected conditions, airport screening is often a frustrating, 
degrading, and lengthy process. With that concern, we welcome the 
introduction of the Helping Heroes Fly Act, H.R. 1344, and the 
improvements it proposes to screen these men and women in a manner 
befitting their service.
    Wounded warriors should not have to sacrifice their privacy, 
encounter conflicting screening policies and procedures, or be subject 
to significant travel delays. We welcome the steps proposed in H.R. 
1344 to foster expedited screening and to protect the privacy of 
warriors going through the screening process. We also commend the 
proposal to require the Transportation Security Administration to 
consult with veterans' service organizations in the development of 
improved screening.
    We look forward to working with you to advance this legislation and 
toward improving the airport screening process for those who have 
served.
            Sincerely,
                                             Charlie Abell,
                                        EVP for Government Affairs.
                                 ______
                                 
     Letter From DAV to Chairman Michael McCaul and Ranking Member 
                           Bennie G. Thompson
                                     April 9, 2013.
The Honorable Michael T. McCaul,
Chairman, House Committee on Homeland Security, H2-176 Ford House 
        Office Building, Washington, DC 20515.
The Honorable Bennie G. Thompson,
Ranking Member, House Committee on Homeland Security, H2-117 Ford House 
        Office Building, Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: I am writing on 
behalf of the DAV, a Congressionally-chartered National veterans 
service organization with 1.2 million members, all of whom were wounded 
or injured as a result of active duty in the United States Armed 
Forces. The DAV is dedicated to a single purpose: Empowering veterans 
to lead high-quality lives with respect and dignity. We accomplish this 
by ensuring that veterans and their families can access the full range 
of benefits available to them; fighting for the interests of America's 
injured heroes on Capitol Hill; and educating the public about the 
great sacrifices and needs of veterans transitioning back to civilian 
life.
    H.R. 1344, the Helping Heroes Fly Act, would direct the Assistant 
Secretary of Homeland Security, Transportation Security Administration 
(TSA), to provide expedited air passenger screening to severely injured 
or disabled members of the Armed Forces and severely injured or 
disabled veterans.
    With many of the members of DAV suffering from the loss of limbs 
due to their wartime service in defense of our Nation, we are finding 
it increasingly difficult to understand the screening policies of the 
TSA affecting those with prosthetic limbs, wheelchairs, and scooters 
boarding aircraft.
    While TSA offers a variety of outstanding services, such as 
Notification Cards, TSA Cares, pat-down screening, multiple types of 
imaging and metal detection screening, and the compassionate TSA 
Military Severely Injured Program, amputees are not exempt from 
additional screening when necessary. In fact, screenings experienced by 
our members lack uniformity, understanding, and compassion.
    At some airports, our amputee members receive relaxed screening, 
while at others these screenings are horrific. Perhaps it is TSA's 
purpose to make screenings unpredictable. Some screenings have required 
these amputees to expose their prostheses when they lack the ability to 
reposition their clothing, and TSA agents are not allowed to help them, 
nor do they allow spouses or traveling companions to enter search areas 
to assist the amputees.
    We applaud Representatives Gabbard, Richmond, and Joyce for 
introducing this legislation and for their continued support of 
America's wounded and injured veterans. While the DAV does not have a 
specific resolution from our members on this subject, it would be 
beneficial to many of our members. Accordingly, we support the passage 
of this legislation. I look forward to working with you and your staff 
to continue the DAV mission of empowering veterans to lead high-quality 
lives.
            Sincerely,
                                        Barry A. Jesinoski,
                       Executive Director, Washington Headquarters.

    Mr. Richmond. Thank you.
    Mr. Hudson. Thank you.
    I would like to thank all the witnesses for the testimony. 
Thank you for your patience today dealing with the schedule of 
the vote in the middle of our hearing. Thank the Members for 
their questions. Thank the audience and the members of the 
flight attendants that we see in uniform here and others who 
stayed for the entire hearing. Thank you for that.
    Members of the committee may have additional questions for 
the witnesses. We will ask that you respond to those in 
writing.
    Without objection, the committee stands adjourned. Thank 
you.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
